No. __________

d
IN THE

Supreme Court of the United States
ISAACSON/WEAVER FAMILY TRUST,
Petitioner,

—v.—

FRESNO COUNTY EMPLOYEES’ RETIREMENT ASSOCIATION
and BERNSTEIN LITOWITZ BERGER & GROSSMAN LLP,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE SECOND CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

ERIC ALAN ISAACSON
Counsel of Record
LAW OFFICE OF
ERIC ALAN ISAACSON
6580 Avenida Mirola
La Jolla, California 92037-6231
(858) 263-9581
ericalanisaacson@icloud.com
Counsel of Record for Petitioner
Isaacson/Weaver Family Trust

i
QUESTIONS PRESENTED
This Court’s decisions hold that whenever Congress
has authorized the award of “a reasonable attorney’s
fee,” this means “a fee sufficient to induce capable
counsel to take a meritorious ... case,” and that “the
lodestar method yields a fee that is presumptively
sufficient
to
achieve
this
objective,”
with
enhancements of an attorney’s lodestar fee permitted
only in “rare” and “exceptional” circumstances.
Perdue v. Kenny A. ex rel. Winn, 559 U.S. 542, 552
(2010). The federal securities laws contain several
such fee provisions. See, e.g., 15 U.S.C. §§77k(e), 77z1(c), 78i(f), 78r(a), 78u-4(a)(8), 78u-4(c).
Upon the settlement of this federal securities class
action, however, the district court awarded plaintiffs’
counsel 25% of the settlement fund, amounting to
nearly 40% more than the attorneys’ claimed lodestar.
The Second Circuit affirmed, holding that because
they involve fee-shifting statutes, this Court’s
decisions defining “a reasonable attorney’s fee,”
cannot constrain the award of an attorney’s fee
assessed against a class-action common-fund
settlement.
The questions presented are:
1. Do this Court’s decisions defining “a reasonable
attorney’s fee” in fee-shifting cases also constrain a
district court’s discretion in awarding “reasonable
attorneys’ fees” under Federal Rule of Civil Procedure
23(h) from a common-fund settlement?
2. Are the securities laws’ provisions relating to the
award of “a reasonable attorney’s fee” subject to the
rule of Perdue that a reasonable attorney’s fee
ordinarily will be limited to the lawyers’ unenhanced
lodestar?

ii
PARTIES TO THE PROCEEDING
The parties to the proceeding before the United
States Court of Appeals for the Second Circuit are the
Isaacson/Weaver Family Trust, a class member bound
by the settlement of this matter that appeared as an
objector before the district court, and the Fresno
County Employees’ Retirement Association, which
was the court-appointed lead plaintiff before the
district court.
As the fees awarded from a common fund belong to
the counsel claiming the fees from the fund, see
Central Railroad & Banking Co. v. Pettus, 113 U.S.
116, 124-25 (1885), the lead plaintiff’s counsel were
the real parties in interest in proceedings before the
Court of Appeals. Thus, the law firm of Bernstein
Litowitz Berger & Grossmann LLP, also is named as
a respondent before this Court.

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED..........................................i
PARTIES TO THE PROCEEDINGS...........................ii
TABLE OF CONTENTS..............................................iii
PETITION FOR A WRIT OF CERTIORARI...............1
REPORTS OF THE OPINIONS BELOW....................1
JURISDICTION............................................................1
STATUTES AND RULES INVOLVED........................2
STATEMENT OF THE CASE......................................5
REASONS FOR GRANTING THE WRIT.................12
I. When Claims are Asserted Under a Statutory Fee Shifting Regime the Meaning of “A
Reasonable Attorney’s Fee” Should Not Vary
Radically Depending on Who Ultimately Pays
the Fee.....................................................................12
II. This Court’s Common-Fund and EquitableFund Precedents, Like its Statutory Fee-Shifting
Decisions, Limit Attorney’s Fees to what is
Reasonably Necessary to Compensate the
Lawyers...................................................................18
III. This Court Has Made Clear that Costs
Statutes Do Not Limit Common-Fund Fee
Awards Precisely Because They Do Not Purport
to Define a Reasonable Attorney’s Fee...................22

iv
TABLE OF CONTENTS—Continued
Page
CONCLUSION............................................................30
APPENDIX TO THE PETITION...............................1a
Appendix A – Decision of the United States Court
of Appeals for the Second Circuit (May 23,
2019).............................................................................1a
Appendix B – Judgment of the U.S. Court of
Appeals for the Second Circuit (May 23,
2019)...........................................................................19a
Appendix C – Decision Opinion of the District
Court Awarding Attorney’s Fees..............................21a
Appendix D – Decision of the District Court
Approving Class-Action Settlement..........82a
Appendix E – Statues and Rules Involved...............93a
Federal Rule of Civil Procedure 23(h)..................93a
Securities Act of 1933 §11(e),
15 U.S.C. §77k(e)...............................................94a
Securities Act of 1933 §27(c),
15 U.S.C. §77z-1(c)............................................95a
Securities Exchange Act of 1934 §9(f),
15 U.S.C. §78i(f).................................................98a
Securities Exchange Act of 1934 §10(b),
15 U.S.C. §78j(b)................................................99a

v
TABLE OF CONTENTS—Continued
Page
Securities Exchange Act of 1934 §18(a),
15 U.S.C. §78r(a)...............................................99a
Securities Exchange Act of 1934 §21D(a)(8),
15 U.S.C. §78u-4(a)(8).........................................101a
Securities Exchange Act of 1934 §21D(c),
15 U.S.C. §78u-4(c)..........................................101a

vi
TABLE OF AUTHORITIES
Page
Cases
Alyeska Pipeline Service Co v. Wilderness Society,
421 U.S. 240 (1975)...........................................12, 24
Arbor Hill Concerned Citizens Neighborhood Ass’n
v. County of Albany,
522 F.3d 182 (2d Cir. 2008).....................................22
Barnett v. Equitable Trust Co.,
34 F.2d 916 (2d Cir. 1929), aff’d in part and rev’d
in part, United States v. Equitable Trust Co.,
283 U.S. 738 (1931).................................................20
Blum v. Stenson,
465 U.S. 886 (1984).................................................13
Boeing Co. v. Van Gemert,
444 U.S. 472 (1980).................................................19
In re BioScrip, Inc. Sec. Litig.,
273 F.Supp.3d 474 (S.D.N.Y. 2017)..........................1
In re Bioscrip Inc. Sec. Litig.,
95 F.Supp.3d 711 (S.D.N.Y. 2015)............................1
City of Burlington v. Dague,
505 U.S. 557 (1992)................................13, 26, 29-30
Central Railroad & Banking Co. v. Pettus,
113 U.S. 116 (1885)..........................iii, 13, 19, 20, 21
Confederated Bands of Ute Indians v. United States,
120 Ct.Cl. 609 (1951)...............................................22

vii
TABLE OF AUTHORITIES—Continued
Page
Cyan, Inc. v. Beaver County Employees Ret. Fund,
138 S.Ct. 1061 (2018)..............................................29
Faig v. BioScrip, Inc.,
2013 WL 6705045 (S.D.N.Y. Dec. 19, 2013).............1
Farmers & Merchants Nat’l Bank v. Peterson,
5 Cal. 2d 601, 55 P.2d 867 (Cal. 1936)...................21
Florin v. Nationsbank of Ga., N.A.,
34 F.3d 560 (7th Cir. 1994).....................................15
Fresno County Employees’ Retirement Association
v. Isaacson/Weaver Family Trust,
925 F.3d 63 (2d Cir. 2019).........................................1
Haggart v. Woodley,
809 F.3d 1336 (D.C. Cir. 2016)...............................15
Harris v. Chicago Great W. Ry.,
197 F.2d 829 (7th Cir. 1952)...................................21
Harrison v. Perea,
168 U.S. 311 (1897).................................................21
Herman & MacLean v. Huddleston,
459 U.S. 375 (1983).................................................27
Illinois Bell Tel. Co. v. Slattery,
102 F.2d 58 (7th Cir. 1939).....................................21
International Federatio of Flight Attendants v. Zipes,
491 U.S. 754 (1989).................................................26

viii
TABLE OF AUTHORITIES—Continued
Page
Johnson v. Georgia Highway Express, Inc.,
488 F.2d 714 (5th Cir. 1974)..............................17-18
Kerr v. Screen Extras Guild, Inc.,
526 F.2d 67 (9th Cir. 1975).....................................17
Lampf, Pleva, Lipkind, Prupis & Petigrew
v. Gilbertson, 501 U.S. 350 (1991).................4, 27-28
Maley v. Del Global Techs. Corp.,
186 F.Supp.2d 358 (S.D.N.Y. 2002)........................10
McDaniel v. County of Schenectady,
595 F.3d 411 (2d Cir. 2010).....................................22
Muransky v. Godiva Chocolatier, Inc.,
922 F.3d 1175 (11th Cir. 2019)....................15, 17-18
Murphy v. Smith,
138 S.Ct. 784 (2018)................................................17
Musick, Peeler & Garret v. Employers Ins. of Wausau,
508 U.S. 286 (1993)........................................4, 27-28
NLRB v. SW General, Inc.,
137 S.Ct. 929 (2017)................................................29
Octane Fitness LLC v. ICON Health and Fitness, Inc.,
572 U.S. 545 (2014).................................................27
Pennsylvania v. Delaware Valley Citizens’ Council
for Clean Air,
478 U.S. 546 (1986) (Delaware Valley I ).........13, 17

ix
TABLE OF AUTHORITIES—Continued
Page
Pennsylvania v. Delaware Valley Citizens’ Council
for Clean Air,
483 U.S. 711 (1987) (Delaware Valley II)..............13
Perdue v. Kenny A. ex rel. Winn,
559 U.S. 542 (2010)........................i, 7-8, 9-15, 17, 24
Pierce v. Visteon Corp.,
791 F.3d 782 (7th Cir. 2015)...................................15
Rawa v. Monsanto Co.,
___F3d___, 2019 WL 3916537
(8th Cir. Aug. 20, 2019)...........................................17
S.S. Body Armor I., Inc. v. Carter Ledyard &
Milburn LLP,
927 F.3d 763 (3d Cir. 2019).....................................16
Sinotech Energy Ltd.,
2013 WL 11310686 (S.D.N.Y. Sept. 4, 2013).........10
Sprague v. Ticonic Nat. Bank,
307 U.S. 161 (1939)...................................................2
Staton v. Boeing Co.,
327 F.3d 938 (9th Cir. 2003)..................................15
Steiner v. American Broadcasting Co.,
248 Fed. App’x 780 (9th Cir. 2007).........................17
In re Telik, Inc. Sec. Litig.,
576 F.Supp.2d 570 (S.D.N.Y. 2008)........................10

x
TABLE OF AUTHORITIES—Continued
Page
Trustees v. Greenough,
105 U.S. 527 (1882).......................2, 13, 19-20, 24-25
U.S. Airways, Inc. v. McCutchen,
569 U.S. 88 (2013)...................................................19
Union Asset Mgt. Holding A.G. v. Dell, Inc.,
669 F.3d 632 (5th Cir. 2012)...................................18
United States v. Equitable Trust Co.,
283 U.S. 738 (1931)................................13, 14, 20-21
Vizcaino v. Microsoft Corp.,
290 F.3d 1043 (9th Cir. 2002)..............................16
Wal-Mart Stores, Inc. v. Visa U.S.A., Inc.,
396 F.3d 96 (2d Cir. 2005).................................10, 16
Western Federal Corp. v. Erickson,
739 F.2d 1439 (9th Cir. 1984).................................27
Court Records
Brief for Respondents to Whom Allowances
Were Made, United States v. Equitable Trust,
283 U.S. 738, [Oct. Term 1929 No. 530]
(filed April 16, 1930)................................................21
Transcript of Record, Trustees v. Greenough,
No. 601 (1881)..........................................................20

xi
TABLE OF AUTHORITIES—Continued
Page
Statutes and Rules
Securities Act of 1933
§11, 15 U.S.C. §77k.............................................5, 28
§11(e), 15 U.S.C. §§77k(e)............................i, 3, 8, 26
§12(a)(2), 15 U.S.C. §77l(a)(2)...............................5, 6
§15(a), 15 U.S.C. §77o...........................................5, 6
§22(a), 15 U.S.C. §77v(a)...........................................1
§27(c), §77z-1(c)......................................................i, 5
Securities Exchange Act of 1934
§9, 15 U.S.C. §78i..............................................27, 28
§9(f), 15 U.S.C. §78i(f)........................i, 3, 4, 8, 27, 28
§10(b), 15 U.S.C. §78j(b)..........................3-4, 5, 6, 27
§18, 15 U.S.C. §78r(a).............................................28
§18(a), 15 U.S.C. §78r(a)........................i, 4, 8, 27, 28
§20(a), 15 U.S.C. §78t(a).......................................5, 6
§21D(a)(8), 15 U.S.C. §78u-4(a)(8)...i, 4-5, 8-9, 28-29
§21D(c), 15 U.S.C. §78u-4(c)...........................1, 5, 29
§27(a), 15 U.S.C. §78aa(a).........................................1
28 U.S.C. §1254(1).........................................................2
28 U.S.C. §1291.............................................................2
28 U.S.C. §1331.............................................................1
28 U.S.C. §1923(a)..................................................23-24
42 U.S.C. §1988.............................................................8
Act of Feb. 26, 1853, ch. 80, 10 Stat. 161..............23-24
Rules of the Supreme Court
Rule 14.1(f).................................................................2

xii
TABLE OF AUTHORITIES—Continued
Page
Federal Rules of Civil Procedure
Rule 11.....................................................................29
Rule 23(h)..........................................................6-7, 8,
Rule 23(h)(2)..............................................................7
S.E.C. Rule 10b-5, 17 CFR §240.10b-5.........................6
Legislative History
H.R. Conf. Rep. No. 104-369, at 40 (1995).................28
Secondary Authorities
Anne Ashmore,
Dates of Supreme Court Decisions and Arguments: United States Reports Volumes 2-107
(1791-1882) (Washington, D.C.: Library of
the Supreme Court of the United States,
August 2006)............................................................19
John P. Dawson,
Lawyers and Involuntary Clients: Attorney
Fees From Funds,
87 Harv. L. Rev. 1597 (1974)..................................19

PETITION FOR A WRIT OF CERTIORARI
The Isaacson/Weaver Family Trust (“the Family
Trust”) respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of
Appeals for the Second Circuit in this case.
REPORTS OF THE OPINIONS BELOW
The Second Circuit’s opinion is published as Fresno
County Employees’ Retirement Association v.
Isaacson/Weaver Family Trust, 925 F.3d 63 (2d Cir.
2019), and is reproduced in the Appendix hereto at
Pet. App. 1a-18a.
The Second Circuit affirmed a district court opinion
that is published as In re BioScrip, Inc. Sec. Litig.,
273 F.Supp.3d 474 (S.D.N.Y. 2017), and appears in
the Appendix hereto at Pet. App. 21a-81a.
The district court’s earlier decision approving the
class-action settlement is not reported, but is
reproduced in the Appendix hereto at Pet.App. 82a92a.
The district court’s order consolidating cases, and
appointing the lead plaintiff and lead counsel for the
class action is reported as Faig v. BioScrip, Inc., 2013
WL 6705045 (S.D.N.Y. Dec. 19, 2013), and its order
denying a motion to dismiss is published as In re
Bioscrip Inc. Sec. Litig., 95 F.Supp.3d 711 (S.D.N.Y.
2015).
JURISDICTION
The district court exercised jurisdiction over this
federal securities-law class action under Securities
Act of 1933 §22(a), 15 U.S.C. §77v(a), under Securities
Exchange Act of 1934 §27(a), 15 U.S.C. §78aa(a), and
under 28 U.S.C. §1331.

2
That court’s order awarding common-fund
attorney’s fees is a final appealable order, supporting
appellate jurisdiction in the Court of Appeals and
before this Court. Sprague v. Ticonic Nat. Bank, 307
U.S. 161, 169 (1939); Trustees v. Greenough, 105 U.S.
527, 531 (1882).
The district court issued its order awarding
attorney’s fees on July 26, 2017, see Pet.App. 81a, and
on August 24, 2017, the Isaacson/Weaver Family
Trust timely filed a notice of appeal from that order.
C.A.App. APP0429.
The Second Circuit exercised jurisdiction under 28
U.S.C. §1291, issuing a decision and judgment
affirming the ruling below on May 23, 2019. See
Pet.App. 1a-19a, 20a-21a.
This Court has jurisdiction under 28 U.S.C.
§1254(1) to review, by writ of certiorari, the decision
of the Second Circuit.
STATUTES AND RULES INVOLVED1
Federal Rule of Civil Procedure 23(h) authorizes
the district court in a certified class action, such as
this, to “award reasonable attorney’s fees and
nontaxable costs that are authorized by law or by the
parties’ agreement.” Rule 23(h); Pet.App. 93a.
The underlying claims are asserted under
provisions of the federal Securities Act of 1933
(“Securities Act” or “1933 Act”) and the Securities
Exchange Act of 1934 (“Exchange Act” or “1934 Act”).
Those acts contain several provisions concerning
Because of their length, the relevant statutes and rules are
here cited, with excerpts and summaries of pertinent
portions, while the full texts printed in the Appendix
pursuant to Rule 14.1(f). See Pet.App. at 93a-104a.
1

3
authorizing the award of “a reasonable attorney’s fee”
in federal securities cases, which are set forth in the
Appendix hereto. Pet.App. 93a-104a.
These include Securities Act of 1933 §11(e), 15
U.S.C. §77k(e), authorizes courts to award
“reasonable attorney’s fees” in any 1933 Act case if
the suit or a defense is found to be “without merit.”
Pet.App. 95a-95a.

Originally designated as §9(e), what is currently
codified as Securities Exchange Act 9(f), 15 U.S.C.
§78i(f), authorizes private actions to redress
manipulation of securities markets and further
provides:
In any such suit the court may, in its
discretion, require an undertaking for the
payment of the costs of such suit, and assess
reasonable costs, including reasonable attorneys’
fees, against either party litigant.
15 U.S.C. §78i(f).
Securities Exchange Act of 1934 §10(b), 15 U.S.C.
§78j(b), makes it
unlawful for any person, directly or indirectly, by
the use of any means or instrumentality of
interstate commerce or of the mails, or of any
facility of any national securities exchange—
***
(b) To use or employ, in connection with
the purchase or sale of any security
registered on a national securities exchange
or any security not so registered, or any
securities-based swap agreement any
manipulative or deceptive device or
contrivance in contravention of such rules

4
and regulations as the Commission may
prescribe as necessary or appropriate in the
public interest or for the protection of
investors.
15 U.S.C. §78j(b).2
Securities Exchange Act §18, 15 U.S.C. §78r, which
provides a private cause of action against persons
who cause a false or misleading statement to be made
in documents filed with the Securities and Exchange
Commission, also provides: “In any such suit the
court may, in its discretion, require an undertaking
for the payment of the costs of such suit, and assess
reasonable costs, including reasonable attorneys’ fees,
against either party litigant.” 15 U.S.C. §78r(a); see
Pet.App. 99a-100a.
Securities Exchange Act §21D(a)(8), 15 U.S.C.
§78u-4(a)(8), authorizes district courts to require
security for the award of attorneys’ fees in any 1934
Act case certified as a class action:
(8) Security for payment of costs in class
actions In any private action arising under this
chapter that is certified as a class action
Although §10(b) contains no provisions relating to a private
cause of action—no limitations period, no provision for
awarding attorney’s fees, or for contribution among
defendants’ jointly liability—this Court has long recognized
an implied cause of action, incorporating appurtenant
provisions from the federal securities laws’ express causes of
action. See Lampf, Pleva, Lipkind, Prupis & Petigrew v.
Gilbertson, 501 U.S. 350, 358-64 & n.9 (1991) (adopting
limitations period from 1934 Act §9); Musick, Peeler & Garret
v. Employers Ins. of Wausau, 508 U.S. 286, 294-97 (1993)
(adopting contribution among jointly liable tortfeasors from
1934 Act §§9, 18); see also infra at 27-28.
2

5
pursuant to the Federal Rules of Civil Procedure,
the court may require an undertaking from the
attorneys for the plaintiff class, the plaintiff
class, or both, or from the attorneys for the
defendant, the defendant, or both, in such
proportions and at such times as the court
determines are just and equitable, for the
payment of fees and expenses that may be
awarded under this subsection.
15 U.S.C. §78u-4(a)(8) (emphasis added).
Securities Act §27(c), 15 U.S.C. §77z-1(c), and
Exchange Act §21D(c), 15 U.S.C. §78u-4(c), both
mandate findings upon entry of final judgment in any
private action under the 1933 Act or 1934 Act,
respectively, concerning the parties’ compliance with
Rule 11, mandating a presumption that an award of
reasonable attorney’s fees is the appropriate sanction
if violations of Rule 11 are found. See 15 U.S.C.
§§77z-1(c), 78u-4(c).
STATEMENT OF THE CASE
As the Second Circuit’s opinion below explains, this
appeal arose following the settlement of a federal
securities class action alleging claims under sections
11, 12(a)(2), and 15 of the Securities Act of 1933
(“Securities Act” or “1933 Act”), 15 U.S.C. §§77k,
77l(a)(2), 77o, as well as claims under sections 10(b)
and 20(a), 15 U.S.C. §§78j(b), 78t(a), of the Securities
Exchange Act of 1934 (“Exchange Act” or “1934 Act”).
See Pet.App. 4a.
The plaintiffs asserted strict-liability and
negligence-based claims under 1933 Act §11, 15
U.S.C. §77k, on behalf of class members (such as the
Family Trust) who acquired registered securities
issued pursuant to BioScrip securities’ allegedly false

6
and misleading registration statement. They asserted
claims under 1933 Act §12(a)(2), 15 U.S.C. §77l(a)(2),
on behalf of class members (such as the Family Trust)
who acquired securities sold pursuant to an allegedly
false or misleading prospectus. They also asserted
vicarious “control person” claims under §15(a), 15
U.S.C. §77o(a).
Supplementing the 1933 Act claims, the plaintiffs
asserted claims under the implied cause of action
provided by 1934 Act §10(b), 15 U.S.C. §78j(b), for
violations of S.E.C. Rule 10b-5, 17 CFR §240.10b-5,
which proscribes false or misleading statements as
well as any manipulative or deceptive device or
contrivance employed in connection with the purchase
or sale of any security. To these primary-liability
claims they appended vicarious-liability “control
person” claims under 1934 Act §20(a), 15 U.S.C.
§78t(a).
After discovery had begun, but before a class was
certified, the parties entered a settlement under
which BioScrip agreed to pay $10.9 million to settle
the class-action lawsuit. Lead Counsel asserted that
the
$10.9
million
settlement
“represents
approximately 17%-28% of the Settlement Class’s
estimated maximum recoverable damages.” C.A.App.
APP0267 (fee brief).
The Settlement Agreement provided that Lead
Counsel could apply for an award of attorney’s fees
from the $10.9 million Settlement Fund. See Pet.App.
4a.
Following preliminary approval of the proposed
settlement and notice to the class, Lead Counsel
applied for a fee award under Federal Rule of Civil
Procedure 23(h), which provides: “In a certified class
action, the court may award reasonable attorney’s fees

7
and nontaxable costs that are authorized by law or by
the parties’ agreement.” Fed.R.Civ.P. 23(h) (emphasis
added). Lead Counsel asked the district court to
award an attorney’s fee amounting to 25% of the
$10.9 million settlement fund—i.e., for an attorney’s
fee award of $2,725,000—plus interest. See Pet. App.
4a-5a; C.A.App. APP0242 (fee brief). Lead Counsel
urged the district court to apply to calculate the
attorney’s fees as a percentage of the settlement fund,
acknowledging that the requested 25% attorney’s fee
award of $2.725 million amounted to a 1.39 multiplier
of Lead Counsel’s lodestar—or nearly 40% more than
the lawyers’ regular hourly rates. C.A.App. APP025051, 0258 (fee brief).
The Isaacson/Weaver Family Trust—a member of
the class with standing to assert both 1933 Act and
1934 Act claims based on its purchase of BioScrip
common stock in BioScrip’s April 18-19, 2013
registered stock offering—filed an objection, limited to
the attorney’s fee application, as authorized by
Federal Rule of Civil Procedure 23(h)(2)) (a “class
member, or a party from whom payment is sought,
may object to the motion”). C.A.App. at APP0323-346
(objection); C.A.App. at APP0369-382 (supplemental.
Brief).
The Family Trust’s objection pointed out that this
Court had addressed the meaning of “a reasonable
attorney’s fee” in Perdue v. Kenny A. ex rel. Winn, 559
U.S. 542, 546 (2010), a contingent-fee class action
involving the settlement, by means of a mediated
consent decree, of claims that were subject to
statutory fee-shifting provisions.3

See id. at 547 (“The consent decree resolved all pending
issues other than the fees that respondent’s attorneys were
3

8
The Family Trust contended that an award of
“reasonable attorney’s fees” under Rule 23(h) in this
case should be constrained this Court’s decisions,
such as Perdue, which specifically concern the
meaning of “a reasonable attorney’s fee.” Those
decisions hold that whenever Congress has
authorized the award of “a reasonable attorney’s fee,”
these words mean “a fee sufficient to induce capable
counsel to take a meritorious ... case.” Perdue, 559
U.S. at 552. They hold that “the lodestar method
yields a fee that is presumptively sufficient to achieve
this objective,” and that attorney’s fees exceeding the
attorney’s unenhanced lodestar thus are permitted
only in “rare” and “exceptional” circumstances.
Perdue, 559 U.S. at 552. Thus, this Court’s decisions
hold, “there is a strong presumption that the lodestar
is sufficient” compensation for class-action attorneys.
Perdue, 559 U.S. at 546; see C.A.App. at APP0323-33
(objection); APP0374-82 (supplemental brief).
The Family Trust’s objection also pointed to the
federal securities laws’ overarching regime of fee
shifting provisions, under which the sections creating
the 1933 and 1934 Acts’ primary rights of action
authorize courts, in appropriate cases, to award
“reasonable attorney’s fees.” See, e.g., 1933 Act §11(e),
15 U.S.C. §77k(e), 1934 Act §9(f), 15 U.S.C. §78i(f),
1934 Act §18(a), 15 U.S.C. §78r(a). Congress has
specified in 1934 Act §21D(a)(8), moreover, that
district courts may shift fees in any 1934 Act case
that is certified as a class action: “In any private
action arising under this chapter that is certified as a
entitled to receive under 42 U.S.C. §1988.”); see also id. at 569
(Breyer, J., dissenting: “‘[T]he settlement achieved by
plaintiffs’ counsel is comprehensive in its scope and detailed
in its coverage ....’”) (citation omitted).

9
class action ... the court may require an undertaking
... for the payment of fees and expenses that may be
awarded under this subsection.” 15 U.S.C. §78u4(a)(8). Pet.App. 101a.
Given the presence of numerous fee-shifting
provisions in the federal securities laws, under which
“a reasonable attorney’s fee” would presumptively be
limited to the attorney’s unenhanced lodestar, the
Family Trust argued that class counsel should not be
able to obtain a larger-than-lodestar fee award by
settling claims and seeking fees from the commonfund settlement. The Family Trust asserted that
awarding more generous fees to counsel who settle
claims than they would receive for winning the case
and applying for fees to be awarded under statutory
fee-shifting provisions produces perverse incentives to
abandon the class’s interest in favor of a more
generous fee award.
The district court held a settlement-fairness
hearing on June 13, 2016, at which counsel for the
Settling Parties and the Family Trust appeared and
were heard. C.A. App. at APP0394(DE125) (hearing
transcript). The district court approved the proposed
settlement with an order entered June 16, 2016.
Pet.App. 82a-92a.
More than a year later, on July 26, 2017, the
district court entered its Order overruling the Family
Trust’s objections and granting the challenged motion
for attorney’s fees. Pet.App. 21a-81a. The district
court held that Perdue’s “presumption against a
lodestar enhancement ... when a court awards a
reasonable attorney’s fee from a defendant pursuant
to a fee-shifting provision does not apply to the award
of fees in this case from a common fund created after
a settlement.” Pet.App. 27a. Acknowledging that

10
“[t]he Objector’s argument is not without force,” the
district court nonetheless held that the this Court’s
definition of “a reasonable attorney’s fee” in feeshifting cases such as Perdue “does not apply in the
context of an award of fees from a settlement fund,
even if a statute would permit a party to otherwise
seek a statutory fee award directly from a defendant.”
Pet.App. 32a. The district court also held that “no
claim settled in this case contains a fee-shifting
provision analogous to that at issue in Dague and
Perdue.” Pet.App. 49a.
It then approved an attorney’s fee award
amounting to a 39% enhancement of the attorney’s
lodestar, noting that when settlements have produced
a common fund, courts commonly award attorney’s
fees amounting to several times the lawyer’s lodestar.
As the district court put it:
There is no question that Lead Counsel’s lodestar
multiplier of 1.39 is at the lower range of
comparable awards in common fund cases. See
Sinotech Energy Ltd., 2013 WL 11310686, at *8
[(S.D.N.Y. Sept. 4, 2013)] (collecting examples of
courts awarding lodestar multipliers of “between
four and five”); In re Telik, Inc. Sec. Litig., 576
F.Supp.2d 570, 590 (S.D.N.Y. 2008) (“[L]odestar
multiples of over 4 are routinely awarded.”);
Maley v. Del Global Techs. Corp., 186 F.Supp.2d
358, 369 (S.D.N.Y. 2002) (noting that multiplier
of 4.65 was “well within the range awarded by
courts in this Circuit and courts throughout the
country”); see also Wal-Mart Stores, Inc. [v. Visa
U.S.A., Inc.], 396 F.3d [96] at 123 [(2d Cir. 2005)]
(noting that, although in a megafund case, the
lodestar multiplier of 3.5 “ha[d] been deemed
reasonable under analogous circumstances”); Pl.
Mem. at 9-10 & n.8 (collecting numerous cases).

11
Pet.App. 66a.
On August 24, 2017, the Family Trust timely filed
a notice of appeal from the district Court’s July 26,
2017, Order awarding attorney’s fees. C.A.App at
APP0429.
The Second Circuit affirmed, holding that it does
not matter whether the federal securities’ laws’ feeshifting provisions are analogous to those involved
this Court’s fee-shifting decisions, such as Perdue.
The Court of Appeals “hold[s] that, even if a case is
brought pursuant to a fee-shifting statute, commonfund principles control fee awards authorized from a
common fund, and a common-fund fee award may be
calculated as the lodestar or as a percentage of the
common fund.” Pet.App. 3a-4a. Common-fund awards
thus are not constrained by this Court’s precedents
defining “a reasonable attorney’s fee.” Pet.App. 3a4a.
The Second Circuit held that “regardless of
whether a case is brought pursuant to a statute with
a fee-shifting provision, if the parties settle the case
by creating a common fund, common-fund principles
control class counsel’s fee recovery,” Pet.App. 6a, and
“offer[ed] no opinion on whether the statutes
pursuant to which the underlying case arose contain
applicable fee-shifting provisions.” Pet.App. 6a.
“Where a litigant acts as a private attorney
general,” the Second Circuit explained, this Court has
held that “the goal of fee shifting is to provide ‘a fee
that is sufficient to induce a capable attorney to
undertake the representation of a meritorious . . .
case.’” Pet.App. 7a (quoting Perdue, 559 U.S. at 552.
The Second Circuit acknowledged, moreover, that this
Court holds an unenhanced lodestar award achieves
that goal: “When a statute’s fee-shifting provision

12
authorizes a reasonable attorneys’ fee, the Supreme
Court has held that ‘the lodestar method yields a fee
that is presumptively sufficient.’” Pet.App. 7a
(quoting Perdue, 559 U.S. at 552).
Yet it concluded that in class actions producing a
common fund settlement, district courts are free to
ward substantially more than what is, according to
this Court’s decisions, “sufficient to induce a capable
attorney to undertake the representation.” Pet.App.
7a (quoting Perdue, 559 U.S. at 552). For, it
concluded, “the Supreme Court has placed greater
restrictions on attorneys’ fees recovered from
statutory fee-shifting provisions than on fees
recovered from common funds.” Pet.App. 7a.
REASONS FOR GRANTING THE WRIT
I.

When Claims are Asserted Under a
Statutory Fee Shifting Regime the
Meaning of “A Reasonable Attorney’s Fee”
Should Not Vary Radically Depending on
Who Ultimately Pays the Fee

This case concerns the effect of this Court’s
decisions concerning what is “a reasonable attorney’s
fee” in cases arising under two exceptions to “the
general ‘American rule’” that a party bears its own
attorney’s fees, Alyeska Pipeline Service Co v.
Wilderness Society, 421 U.S. 240, 245 (1975), and
whether this Court’s definition of “a reasonable
attorney’s fee” in fee-shifting cases bears on fee
awards in class actions that settle for a common fund,
as this one did. See Pet.App. 6a.
The first exception to the American rule relevant
here is the “common-fund” or “equitable-fund”
doctrine, under which a court may award a
reasonable attorney’s fee either to a party, or directly

13
to its lawyers, because the lawyers’ work produced a
fund that benefits others. This Court has long allowed
such awards, provided they are “made with
moderation and a jealous regard to the rights of those
who are interested in the fund,” Trustees v.
Greenough, 105 U.S. 527, 536-37 (1882), and do not
exceed the “reasonable compensation for their
professional services,” Central Railroad & Banking
Co. v. Pettus, 113 U.S. 116 (1885) (cutting commonfund fee award in half, to just 5% of the fund), with
“special care ... taken to confine the fees to what was
reasonable.” United States v. Equitable Trust Co., 283
U.S. 738, 746 (1931) (cutting equitable-fund fee
award that the Second Circuit had approved in half,
to roughly 8% of the fund in question). This is a
common-fund case.
A second exception to the American rule, which has
produced a series of decisions from this Court
defining what is “a reasonable attorney’s fee,” arises
where Congress has provided by statute that courts
may (or must) order the payment of a prevailing
litigant’s attorney’s fees by another party.4 In feeshifting cases this Court holds that “a reasonable
attorney’s fee” generally means (and ordinarily is
limited to) the attorney’s unenhanced lodestar, “i.e.,
the number of hours worked multiplied by the
prevailing hourly rates,” because the prospect of a
See Blum v. Stenson, 465 U.S. 886, 895 (1984); Pennsylvania
v. Delaware Valley Citizens’ Council for Clean Air, 478 U.S.
546 (1986) (Delaware Valley I ); Pennsylvania v. Delaware
Valley Citizens' Council for Clean Air, 483 U.S. 711 (1987)
(Delaware Valley II); City of Burlington v. Dague, 505 U.S.
557 (1992); Perdue v. Kenny A. ex rel. Winn, 559 U.S. 542, 546
& 552 (2010).
4

14
simple lodestar award ordinarily is “sufficient to
induce a capable attorney to undertake the
representation of a meritorious ... case.” Perdue, 559
U.S. a7 546 & 552.
The Family Trust submits that this Court’s
decisions defining “a reasonable attorney’s fee” in feeshifting cases such as Perdue should constrain district
courts’ discretion in awarding fees from a commonfund settlement—particularly when the settled claims
arise under a statutory regime fee-shifting provisions
(as the federal securities laws do). Holding otherwise
ignores the constraints of this Court’s common-fund
jurisprudence, requiring courts to act as “jealous”
guardians, Greenough, 105 U.S. at 536-37, taking
“special care ... to confine the fees to what was
reasonable.” Equitable Trust, 283 U.S. at 746.
If as this Court has held in fee-shifting cases, “a
‘reasonable fee is a fee that is sufficient to induce a
capable attorney to undertake the representation of a
meritorious ... case” and, as this Court has further
held, the promise of a simple lodestar award “yields a
fee that is sufficient to achieve this objective,” Perdue,
559 F.3d at 552, then it should be clear that a district
court breaches its duty by awarding a much larger fee
merely because the case settled producing a common
fund. Indeed, allowing more generous fee awards—
amounting to substantial multipliers of their
lodestar—produces perverse incentives for lawyers to
settle their clients’ claims cheaply in order to enhance
their own incomes.
Asserting that “[f]ee-shifting principles and the
common-fund doctrine occupy separate realms,”
however, the Second Circuit held in this case that
judges awarding fees in a common-fund class action
are not constrained by this Court’s decisions defining

15
“a reasonable attorney’s fee” whenever those terms
have been used by Congress. Pet.App. 9a. It joins
several other circuits in so holding. See Pet.App. 11a
(“Our sister circuits have persuasively supported ...
rejection of the suggestion that statutory fee-shifting
principles curtail a district court’s discretion in
common-fund cases”); see id. at 11a-13a (following
Staton v. Boeing Co., 327 F.3d 938, 968 (9th Cir.
2003), and Florin v. Nationsbank of Ga., N.A., 34 F.3d
560, 565 (7th Cir. 1994)); accord Muransky v. Godiva
Chocolatier, Inc., 922 F.3d 1175, 1195 (11th Cir. 2019)
(“Perdue addresses fee-shifting statutes and says
nothing about the award of attorney’s fees from a
common fund.”).
The consequences of this holding are dramatic.
Under decisions such as Perdue, the lawyer’s
unenhanced lodestar provides the presumptively
reasonable fee award when claims are subject to
statutory fee shifting. Thus, lawyers taking a case
with claims subject to fee-shifting provisions know
that if they win at trial they will be obligated to apply
for fees under the fee-shifting statute and can expect
to receive only their lodestar without further
enhancement. See, e.g., Haggart v. Woodley, 809 F.3d
1336, 1358-69 (D.C. Cir. 2016); Pierce v. Visteon
Corp., 791 F.3d 782, 787 (7th Cir. 2015); Brytus v.
Spang & Co., 203 F.3d 238, 242-47 (3d Cir. 2000).
But if they settle the claims, the Second Circuit
now holds, they can expect much more from the
common-fund settlement. In this case, the district
court awarded a fee giving the “multiplier” of 1.39
times their lodestar—an enhancement of nearly 40%
above the unenhanced lodestar amount that Perdue
holds is “a reasonable attorney’s fee.” The district
court aptly observed, moreover, that this was a
relatively modest enhancement, compared to most

16
common-fund fee awards these days, favorably citing
decisions stating that “[l]odestar multipliers of over 4
are routinely awarded.”5
The Third Circuit has said “that, in common fund
cases ... ‘[m]ultiples ranging from one to four’ are the
norm.” S.S. Body Armor I., Inc. v. Carter Ledyard &
Milburn LLP, 927 F.3d 763, 774 (3d Cir. 2019)
(citation omitted). In Wal-Mart Stores, Inc. v. Visa
USA, Inc., 396 F.3d 96, 1123 (2d Cir. 2005), for
example, the Second Circuit blithely sustained a
common-fund attorney’s fee award, explaining that
the attorney’s “lodestar yields a multiplier of 3.5,
which has been deemed reasonable under analogous
circumstances.” In Vizcaino v. Microsoft Corp., 290
F.3d 1043, 1051 (9th Cir. 2002), the Ninth Circuit
Pet.App. 66a (quoting In re Telik, Inc. Sec. Litig., 576
F.Supp. 2d 570, 590 (S.D.N.Y. 2008)). As the district court put
it:
5

There is no question that Lead Counsel's lodestar
multiplier of 1.39 is at the lower range of comparable
awards in common fund cases. See Sinotech Energy Ltd.,
2013 WL 11310686, at *8 [(S.D.N.Y. Sept. 4, 2013)]
(collecting examples of courts awarding lodestar
multipliers of “between four and five”); In re Telik, Inc. Sec.
Litig., 576 F. Supp. 2d 570, 590 (S.D.N.Y. 2008)
(“[L]odestar multiples of over 4 are routinely awarded.”);
Maley v. Del Global Techs. Corp., 186 F. Supp. 2d 358, 369
(S.D.N.Y. 2002) (noting that multiplier of 4.65 was “well
within the range awarded by courts in this Circuit and
courts throughout the country”); see also Wal-Mart Stores,
Inc. [v. Visa U.S.A., Inc.], 396 F.3d [96] at 123 [(2d Cir.
2005)] (noting that, although in a megafund case, the
lodestar multiplier of 3.5 “ha[d] been deemed reasonable
under analogous circumstances”); Pl. Mem. at 9-10 & n.8
(collecting numerous cases).
Pet.App. 66a.

17
affirmed a common-fund fee award “which resulted in
a multiplier of 3.65” where the district court had
“found this number reasonable by considering the
factors in Kerr v. Screen Extras Guild, Inc., 526 F.2d
67, 69–70 (9th Cir.1975)”—which is to say, the socalled “Johnson factors” from in Johnson v. Georgia
Highway Express, Inc., 488 F.2d 714, 717–719 (5th
Cir. 1974), that Kerr adopted. Following Vizcaino the
Ninth Circuit sustained a multiplier of 6.85 in Steiner
v. American Broadcasting Co., 248 Fed. App’x 780,
783 (9th Cir. 2007), as “well within the range of
multipliers that courts have allowed.”
Just the other day the Eighth Circuit affirmed use
of the Johnson factors to award 28% of a common
fund as attorney’s fees, holding that “while the 5.3
lodestar multiplier is high, it does not exceed the
bounds of reasonableness.” Rawa v. Monsanto Co.,
___F3d___, ___, 2019 WL 3916537, at *5 (8th Cir.
Aug. 20, 2019)). It failed to note that this Court had
expressly repudiated the Johnson factors in Perdue,
because they give “‘very little actual guidance to
district courts,’” since “‘[s]etting attorney’s fees by
reference to a series of sometimes subjective factors
placed unlimited discretion in trial judges and
produced disparate results.’” Perdue, 559 U.S. at 563
(quoting Pennsylvania v. Delaware Valley Citizens
Council for Clean Air, 478 U.S. 546, 562 (1986)
(Delaware Valley I)); accord Murphy v. Smith, 138
S.Ct. 784, 789-90 (2018) (again disparaging the
Johnson factors).
Yet the lower courts continue to apply the Johnson
factors to common-fund fee awards, as if they
remained good law. In Muransky v. Godiva
Chocolatier, 922 F.3d 1175, 1195 & n.8 (11th Cir.
2019), for example, the Eleventh Circuit “recognize[d]
that the Supreme Court criticized the Johnson factors

18
in Perdue, 559 U.S. at 550-51,” yet it affirmed a
331/3% common-fund fee award based on the Johnson
factors on the ground that “Perdue arose in a different
context (fee-shifting statutes) and we are bound to
apply our precedent in Camden I and Johnson to this
common fund”). See also Union Asset Mgt. Holding
A.G. v. Dell, Inc., 669 F.3d 632, 642-43 & nn.25-31
(5th Cir. 2012) (applying the Johnson factors to a
common-fund fee award).
This Court’s attention is needed to bring uniformity
to the award of common-fund attorney’s fees.
II.

This
Court’s
Common-Fund
and
Equitable-Fund Precedents, Like its
Statutory Fee-Shifting Decisions, Limit
Attorney’s Fees to what is Reasonably
Necessary to Compensate the Lawyers

The Second Circuit rested its decision on an “acute
difference” between attorney’s fees under the
common-fund doctrine, and attorney’s fees under the
common-fund doctrine. Pet.App. 4a. “While in both
instances an attorney is entitled to a recovery that is
ultimately financed by the opposing party,” the
Second Circuit reasoned, “the Supreme Court has
placed greater restrictions on attorney’s fees
recovered from statutory fee-shifting provisions than
on fees recovered from common funds.” Pet.App. 7a.
Yet this Court’s common-fund decisions exhibit a
concern for beneficiaries of the common fund that is
at least as great as any solicitude it has shown to
defendants liable for the opposing party’s attorney’s
fees under a fee-shifting statute. It has never
authorized common-fund fee awards greater than the
fee-shifting decisions’ goal of “‘a fee that is sufficient
to induce a capable attorney to undertake the

19
representation of a meritorious ... case.’” Pet.App. 7a
(quoting Perdue, 559 U.S. at 552).
“Since the decisions in Trustees v. Greenough, 105
U.S. 527 (1882), and Central Railroad & Banking Co.
v. Pettus, 113 U.S. 116 (1885), this Court has
recognized consistently that a litigant or a lawyer
who recovers a common fund for the benefit of
persons other than himself or his client is entitled to
a reasonable attorney’s fee from the fund as a whole.”6
Warning that in some cases “these allowances have
been excessive, and perhaps illegal,” and that “we
would be very far from expressing our approval of
such large allowances to ... counsel as have sometimes
been made, and which have justly excited severe
criticism,” this Court nonetheless held in Greenough
that allowances for the payment of attorney’s fees
from a common fund, “if made with moderation and a
jealous regard to the rights of those who are
interested in the fund, are not only admissible, but
agreeable to the principles of equity and justice.”
Greenough, 105 U.S. at 536-37.7 The Court approved
reimbursement of the reasonable attorney’s fees that
Boeing Co. v. Van Gemert, 444 U.S. 472, 478 (1980)
(emphasis added); see U.S. Airways, Inc. v. McCutchen, 569
U.S. 88, 96 (2013) (quoting same); see generally John P.
Dawson, Lawyers and Involuntary Clients: Attorney Fees
From Funds, 87 Harv. L. Rev. 1597 (1974).
6

Although the opinions below (and Westlaw) erroneously give
1881 as Greenough’s year of decision, this Court’s records
show that the oral arguments took place on March 15, 1882,
and that this Court issued its decision on May 8, 1882. See
Anne Ashmore, Dates of Supreme Court Decisions and
Arguments: United States Reports Volumes 2-107 (17911882), at 162 (Washington, D.C.: Library of the Supreme
Court of the United States, August 2006), available online at
https://www.supremecourt.gov/opinions/datesofdecisions.pdf).
7

20
the named plaintiff, Francis Vose, had actually
incurred and paid over years of litigation—with no
special enhancements or multipliers of any kind.8
Moderation and restraint remained the rule in this
Court’s subsequent common-fund and equitable-fund
decisions. Holding in Pettus that lawyers whose
efforts had produced a common fund may receive
“such reasonable attorney’s fees as were fairly earned
in effecting the result,” Pettus, 113 U.S. at 123, and
are “entitled to reasonable compensation for their
professional services, id. at 127, this Court ruled that
“the sum allowed,” coming to ten percent of the fund,
“was too great,” and cut it to five percent. Id. at 128.
In United States v. Equitable Trust Co., 283 U.S.
738 (1931), moreover, while noting that a fund “may
be charged with the costs and expenses, including
reasonable attorney’s fees, incurred in that behalf, id.
at 744, this Court held that because the beneficiary
“had no voice in selecting the attorneys and could
have none in fixing their fees,” justice “required that
special care be taken to confine the fees to what was
reasonable.” Id. at 746. It cut the $100,000 approved
by the Second Circuit in half—taking it down to
roughly 8% of the fund.9 It appears, moreover, that
See Greenough, 105 U.S. at 529-31; see also Transcript of
Record, Trustees v. Greenough, No. 601, at 711-24 (original),
228-32 (print) (itemizing expenses, lawyer by lawyer) (1881).
8

The Second Circuit had rejected the district court’s notion
that counsel was entitled to one third of the fund and cut the
attorney’s fee award in half, to just $100,000, warning that
“[t]he allowance is a payment for legal services, not a
speculative interest in a lawsuit.” Barnett v. Equitable Trust
Co., 34 F.2d 916, 919 (2d Cir. 1929) (Learned Hand). The
attorneys told this Court that “from a percentage standpoint,
the allowance of $100,000 is but slightly over fifteen per cent.,
9

21
attorney’s fees of ten percent or less were long the
norm in common-fund cases.10
The Court has never held that counsel seeking a
common-fund award are entitled to a fee that is more
than “‘sufficient to induce a capable attorney to
undertake the representation of a meritorious ...
case.’” Pet.App. 7a (quoting Perdue, 559 U.S. at 552).
even upon the Circuit Court of Appeals basis of computing
the amount involved,” and that “never yet have counsel been
cut down to such a low percentage in any contested case
taken upon a contingent basis.” Brief for Respondents to
Whom Allowances Were Made, United States v. Equitable
Trust, 283 U.S. 738, [Oct. Term 1929 No. 530], at 55-56 (filed
April 16, 1930). But this Court found “the allowance of
$100,000 unreasonably high, and that to bring it within the
standard of reasonableness it should be reduced to $50,000,”
or about 8% of the fund. Equitable Trust, 283 U.S. at 746.
See, e.g., Pettus, 113 U.S. at 128 (slashing 10% award to
5%: “It remains only to consider whether the sum allowed
appellees was too great. We think it was. The decree gave
them an amount equal to ten per cent. upon the aggregate
principal and interest of the bonds and coupons filed in the
cause .... One-half the sum allowed was, under all the
circumstances, sufficient.”); Harrison v. Perea, 168 U.S. 311,
325 (1897) (reduction of a $5,000 fee award (or about 14% of
an equitable fund) to just 10% of the fund was “within the
judicial discretion of the court”); Harris v. Chicago Great W.
Ry., 197 F.2d 829, 835-36 (7th Cir. 1952) (reducing fee of
$500,000 on a $3.5 million fund recovered to $350,000 or 10%
of the fund); Illinois Bell Tel. Co. v. Slattery, 102 F.2d 58, 61
(7th Cir. 1939) (7½% of a $19 million fund); Confederated
Bands of Ute Indians v. United States, 120 Ct.Cl. 609, 682
(1951) (8¾% of $32 million fund); Farmers & Merchants Nat’l
Bank v. Peterson, 5 Cal. 2d 601, 607, 55 P.2d 867, 870 (Cal.
1936) (in a case that produced a $23,714.70 common fund,
approving an award of “5 per cent of the moneys received and
recovered herein as an attorney’s fee”).
10

22
The Second Circuit has in other contexts had no
difficulty recognizing “that a reasonable, paying client
wishes to spend the minimum necessary to litigate
the case effectively.” Arbor Hill Concerned Citizens
Neighborhood Ass’n v. County of Albany, 522 F.3d
182, 190 (2d Cir. 2008); see, e.g., McDaniel v. County
of Schenectady, 595 F.3d 411, 415 (2d Cir. 2010).
“Indeed, by focusing on the hourly rate at which a
client who wished to pay no more than necessary
would be willing to compensate his attorney, the
district court can enforce market discipline,
approximating the negotiation that might ensue were
the client actually required to pay the attorney's fees.”
Arbor, 522 F.3d at 192.
III.

This Court Has Made Clear that Costs
Statutes Do Not Limit Common-Fund Fee
Awards Precisely Because They Do Not
Purport to Define a Reasonable Attorney’s
Fee

The Second Circuit thought its holding warranted
by this Court’s decisions indicating that the commonfund doctrine is not subject to the limitation on fees
as taxable costs imposed by the Act of Feb. 26, 1853,
c. 80, 10 Stat. 161, which provided that fees to be
included in taxable costs should be limited to twenty
dollars in cases that go to trial, and in cases at law,
where judgment is rendered without a jury, ten
dollars, and five dollars where a cause is
discontinued.”11 But the limitations on attorney’s fees

11

The 1853 statute provided in relevant part:
In lieu of the compensation now allowed by law to
attorneys . . . the follow- ing and no other compensation
shall be taxed and allowed...

23
as taxable costs codified, today at 28 U.S.C. §1923(a),
do not affect common-fund fee awards because they
disclaim addressing the question of what is a
“reasonable attorney’s fee.”12

Fees of Attorneys, Solicitors, and Proctors. In a
trial before a jury, in civil and criminal causes, or
before referees, or on a final hearing in equity or
admiralty, a docket fee of twenty dollars: Provided,
That in cases in admiralty and maritime
jurisdiction, where the libellant shall recover less
than fifty dollars, the docket fee of his proctor shall
be but ten dollars.
In cases at law, where judgment is rendered
without a jury, ten dollars, and five dollars where
a cause is discontinued.
For scire facias and other proceedings on
recognizances, five dollars. For each deposition
taken and admitted as evidence in the cause, two
dollars and fifty cents.
A compensation of five dollars shall be allowed
for the services rendered in cases removed from a
district to a circuit court by writ of error or appeal
....
Act of Feb. 26, 1853, ch. 80, 10 Stat. 161; see Alyeska, 421
U.S. at 252-53 & n. 125 (quoting same).
See 28 U.S.C. §1923(a) (“(a) Attorney’s and proctor’s docket
fees in courts of the United States may be taxed as costs as
follows: $20 on trial or final hearing (including a default
judgment whether entered by the court or by the clerk) in
civil, criminal, or admiralty cases, except that in cases of
admiralty and maritime jurisdiction where the libellant
recovers less than $50 the proctor’s docket fee shall be $10;
$20 in admiralty appeals involving not over $1,000; $50 in
admiralty appeals involving not over $5,000; $100 in
admiralty appeals involving more than $5,000; $5 on
discontinuance of a civil action; $5 on motion for judgment
12

24
The opinion below states:
In Alyeska Pipeline Service Co. v. Wilderness
Society, the Court identified a “consistently
followed” rule that fee-shifting statutes do “not
interfer[e] with the historic power of equity to
permit . . . a party preserving or recovering a fund
for the benefit of others in addition to himself, to
recover his costs, including his attorneys’ fees, from
the fund . . . itself or directly from the other parties
enjoying the benefit.” 421 U.S. at 257. The Supreme
Court therefore suggested that, even when
statutory fees and the common-fund doctrine
collide, the common-fund doctrine operates
autonomously from fee-shifting principles.
Pet. App. 9a.
Trouble is, the statutes governing attorney’s fees as
costs disclaim addressing the question of what is a
reasonable attorney’s fee. Alyeska explains that the
act of Feb. 26, 1853, 10 Stat. 161, itself warned that it
did not purport to define what is a reasonable
attorney’s fee: “‘But this act shall not be construed to
prohibit attorneys, solicitors, and proctors from
charging to and receiving from their clients ... such
reasonable compensation for their services, in
addition to the taxable costs, as may be in accordance
with the general usage in their respective States, or
[as] may be agreed upon between the parties.’”
Alyeska, 421 U.S. at 253 (quoting Act of Feb. 26, 1853,
10 Stat. 161) (emphasis added); see also Alyeska, 421
U.S. at 257 n.30 (quoting Greenough, 105 U.S. at 53536) (emphasis added).

and other proceedings on recognizances; $2.50 for each
deposition admitted in evidence.”).

25
This Court had made the same point in Greenough:
“Of course, it is well understood that costs as between
solicitor and client include all reasonable expenses
and counsel fees, and are not like costs as between
party and party, confined to the taxed costs allowed
by the fee-bill.” Greenough, 105 U.S. at 533. “The feebill itself expressly provides that it shall not be
construed to prohibit attorneys, solicitors, and
proctors from charging to and receiving from their
clients (other than the government) such reasonable
compensation for their services, in addition to the
taxable costs, as may be in accordance with general
usage in their respective States, or may be agreed
upon between the parties.” Greenough, 105 U.S. at
535-36 (quoting Act of Feb. 26, 1853, c. 80, *536 10
Stat. 161; Rev. Stat., sect. 823) (emphasis added).
In short, the taxable-costs statutes clearly do not
purport to define a reasonable attorney’s fee. See id.
This Court’s decisions interpreting statutory
provisions authorizing awards of “a reasonable
attorney’s fee,” on the other hand clearly do define a
“reasonable attorney’s fee” as one that is “sufficient to
induce a capable attorney to undertake the
representation of a meritorious ... case,” holding that
an attorney’s unenhanced lodestar is presumptively
sufficient. Perdue, 559 U.S. at 552.
IV.

The Federal Securities Laws Provide for a
Regime of Statutory Fee Shifting Clearly
Governed by the Court’ Decisions
Defining “A Reasonable Attorney’s Fee”

Having held that “regardless of whether a case is
brought pursuant to a statute with a fee-shifting
provision,” district courts are free to award fees far
greater than those authorized by this Court’s feeshifting jurisprudence, the Second Circuit chose to

26
“offer no opinion on whether the statutes pursuant to
which the underling case arose contain applicable feeshifting provisions.” Pet.App. 6a.
Should this Court choose to reach the issue,
though, the securities laws’ provisions clearly do come
within this Court’s holdings concerning “a reasonable
attorney’s fee.” Noting that many federal statutes
authorize federal courts to award “reasonable
attorney’s fees,” this Court held in City of Burlington
v. Dague, 505 U.S. 557, 562 (1992), that “our case law
construing what is a ‘reasonable’ fee applies
uniformly to all of them.” Id. (citing International
Federation of Flight Attendants v. Zipes, 491 U.S. 754,
758 n.2 (1989)).
The 1933 Act claims settled in this case clearly are
governed by Securities Act of 1933 §11(e), 15 U.S.C.
§77k(e), which authorizes courts to award “reasonable
attorney’s fees” if a suit or a defense is found to be
“without merit.”13 The district court concluded that
13

Section 11(e) provides:
In any suit under this or any other section of this
subchapter the court may, in its discretion, require an
undertaking for the payment of the costs of such suit,
including reasonable attorney’s fees, and if judgment
shall be rendered against a party litigant, upon the
motion of the other party litigant, such costs may be
assessed in favor of such party litigant (whether or not
such undertaking has been required) if the court
believes the suit or the defense to have been without
merit, in an amount sufficient to reimburse him for the
reasonable expenses incurred by him, in connection with
such suit, such costs to be taxed in the manner usually
provided for taxing of costs in the court in which the suit
was heard.

15 U.S.C. §77k(e) (emphasis added); Pet.App. 94a-95a.

27
fees are available “only when a defense ‘borders on
the frivolous or is brought in bad faith.’” Pet.App. 60a
(quoting Western Federal Corp. v. Erickson, 739 F.2d
1439, 1444 (9th Cir. 1984)). But that is not what the
statute says. In Octane Fitness LLC v. ICON Health
and Fitness, Inc., 572 U.S. 545, 553 (2014), this Court
held that “analysis begins and ends with the text” of a
fee shifting provision, and that a requirement of
frivolousness or bad faith cannot be imposed by the
courts when it does not appear in the statutory text.
The 1934 Act’s express causes of action, remedying
fraudulent market manipulation in §9, and
misleading statements filed with the S.E.C. in §18,
also include fee-shifting provisions, each of them
stating:
In any such suit the court may, in its
discretion, require an undertaking for the
payment of the costs of such suit, and assess
reasonable costs, including reasonable attorneys’
fees, against either party litigant.
15 U.S.C. §§78i(f), 78r(a).
The 1934 Act claims in this case are brought under
§10(b), 15 U.S.C. §78j(b). Although 1934 Act §10(b)
contains no express private cause of action, this Court
has long recognized an implied a private right to sue,
see Herman & MacLean v. Huddleston, 459 U.S. 375,
380 & n.10 (1983), directing lower courts to look to
the federal securities laws’ express rights of action—
1934 Act §§9 and 18 in particular—to fill in the
details, such as the statute of limitations and the
right to contribution among joint tortfeasors. See
Lampf, Pleva, Lipkind, Prupis & Petigrew v.
Gilbertson, 501 U.S. 350, 358-64 & n.9 (1991)
(adopting limitations period from 1934 Act §9);
Musick, Peeler & Garret v. Employers Ins. Of Wausau,

28
508 U.S. 286, 294-97 (1993) (adopting contribution
among jointly liable tortfeasors from 1934 Act §§9,
18).
In Lampf this Court held that 1934 Act §9(e)—now
§9(f)—would provide the limitations period for §10(b)
claims. Lampf, 501 U.S. at 358-64 & n.9. In Musick,
Peeler, moreover, this Court noted that “two sections
of the 1934 Act, §§9 and 18 ... are close in structure,
purpose, and intent to the 10b-6 action” under §10(b).
Musick, Peeler, 508 U.S. at 295. Noting that these
sections “contain nearly identical express provisions
for a right to contribution,” the Court held that
“consistency requires us to adopt a like contribution
rule for the right of action existing under Rule 10b-5.”
Musick, Peeler, 508 U.S. at 297. As sections 9 and 18
similarly contain identical provisions providing that
“the court may, in its discretion, require an
undertaking for the payment of the costs of such suit,
and assess reasonable costs, including reasonable
attorneys’ fees, against either party litigant,” 15
U.S.C. §§78i(f), 78r(a) (emphasis added), consistency
would require applying the fee-shifting provisions of
section 9 and 18 to §10(b) actions.
Congress has since specified in 1934 Act §21D(a)(8),
moreover, that district courts may shift fees in any
1934 Act case that is certified as a class action: “In
any private action arising under this chapter that is
certified as a class action ... the court may require an
undertaking ... for the payment of fees and expenses
that may be awarded under this subsection.” 15
U.S.C. §78u-4(a)(8). Pet.App. 101a. The provision’s
legislative history explains that “Congress long ago
authorized similar undertakings in the express
private right of action in Section 11 of the 1933 Act
and in Sections 9 and 18 of the 1934 Act.” H.R. Conf.
Rep. No. 104-369, at 40 (1995). With §21D(a)(8),

29
Congress authorized fee shifting in any 1934 Act case
that is certified as a class action – as this case was.
The district court conflated subsection (a)(8) of 21D,
authorizing the award of fees “under this subsection”
in any case that is certified as a class action, and
subsection (c), requiring mandatory Rule 11 findings
at the end of every private 1934 Act case, with fee
shifting if a Rule 11 violation is found. Compare 15
U.S.C. §78u-4(a)(8) (fee shifting in certified class
actions) with §78u-4(c) (mandatory Rule 11 findings).
But subsection (a)(8) is an independent provision,
stating that fees “may be awarded under this
subsection.” 15 U.S.C. §78u-4(a)(8). Subsection (c),
dealing with mandatory Rule 11 findings in every
private action, is a different subsection, with its own
fee-shifting provisions. “‘Congress often drafts
statutes
with
hierarchical
schemes—section,
subsection, paragraph, and on down the line.’” Cyan,
Inc. v. Beaver County Employees Ret. Fund, 138 S.Ct.
1061, 1070 (quoting NLRB v. SW General, Inc., 137
S.Ct. 929, 938-39 (2017)). And “‘[w]hen Congress
want[s] to refer only to a particular subsection or
paragraph, it sa[ys] so.’” Id. (quoting SW General, 137
S.Ct. at 939) (Cyan’s brackets). If Congress had
intended §21D(a)(8)’s provision authorizing fee
awards “under this subsection” to refer instead to fee
awards under a different subsection, such as
subsection (c), it would have said so. It did not.
There is, in any event, no basis for concluding that
these fee shifting provisions do not govern the federal
securities claims asserted in this certified class
action, and no basis for holding that they are
somehow exempt from this Court’s “case law
construing what is a ‘reasonable’ fee,” which of course
“applies uniformly to all of them.” Dague, 505 U.S. at
562.

30
CONCLUSION
For all the foregoing reasons, the petition for a writ
of certiorari should be granted.
DATED: August 21, 2019

Respectfully submitted,

LAW OFFICE OF
ERIC ALAN ISAACSON
ERIC ALAN ISAACSON
(Counsel of Record)
ericalanisaacson@icloud.com
6580 Avenida Mirola
La Jolla, CA 92037-6231
Telephone: (858) 263-9581
Counsel for Petitioner
Isaacson/Weaver Family Trust

APPENDIX A
Decision of the United States Court of Appeals
for the Second Circuit
17-2662-cv
Fresno Cty. Emps.’ Ret. Ass’n v. Isaacson/Weaver
Family Tr.
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
____________________
August Term, 2018
(Argued: November 15, 2018 Decided: May 23, 2019)
Docket No. 17-2662
____________________
FRESNO COUNTY EMPLOYEES’ RETIREMENT
ASSOCIATION,
v.

Plaintiff-Appellee,

ISAACSON/WEAVER FAMILY TRUST,
Objector-Appellant.14
____________________
Before: JACOBS, POOLER, and WESLEY, Circuit
Judges.
The Clerk of Court is directed to amend the caption as
above.
14

2a
The Isaacson/Weaver Family Trust appeals from
the July 26, 2017, order of the United States District
Court for the Southern District of New York (Alison J.
Nathan, J.) granting Bernstein Litowitz Berger &
Grossmann LLP’s request for a percentage fee
awarded from the common settlement fund. The fee
award was compensation for the firm’s representation
of a class of plaintiffs that settled federal securities
law claims against BioScrip, Inc. The Isaacson/
Weaver Family Trust, a member of the class, objected
to the fee award in the district court, arguing that the
class’s claims were brought pursuant to statutes
containing fee-shifting provisions and therefore class
counsel’s fee award was presumptively limited to the
unenhanced lodestar (counsel’s hourly rate multiplied
by the hours expended on the case). The district court
found this objection unavailing and ruled that,
because the parties’ settlement agreement provided
for class counsel to be compensated from a common
settlement fund, class counsel was entitled to fees
under the equitable common-fund doctrine rather
than pursuant to a statutory fee-shifting provision.
Under the common-fund doctrine, the district court
held that a percentage fee award was appropriate.
On appeal, we conclude that, regardless of whether
the claims settled here were initiated under feeshifting statutes, the common-fund doctrine properly
controls the district court’s allocation of attorneys’
fees from a common settlement fund. This is because
class plaintiffs have received the benefit of counsel’s
representation and assumption of the risk that the
lawsuit will not render a recovery, and thus the class
may be fairly charged for counsel’s assumption of
contingent risk. The district court was therefore
entitled to exercise its discretion to award either a
percentage-of-the-fund fee or a lodestar fee to class

3a
counsel. We offer no opinion as to whether the claims
settled here were initiated under fee-shifting statutes.
Accordingly, we AFFIRM the order of the district
court.
Affirmed.
____________________
ERIC ALAN ISAACSON, La Jolla, CA,
for Objector-Appellant.
HANNAH G. ROSS, Bernstein Litowitz
Berger
&
Grossmann
LLP
(Jai
Chandrasekhar, on the brief), New York,
NY, for Plaintiff-Appellee.
POOLER, Circuit Judge:
The objection of the Isaacson/Weaver Family Trust
(the “Objector”) to Bernstein Litowitz Berger &
Grossmann LLP’s fee award raises a novel issue of
the proper principles for allocating fees awarded from
a common-fund settlement. The Objector argues that,
whenever an action is initiated under a statute with a
fee-shifting provision, an attorney’s fee is
presumptively limited to the unenhanced lodestar fee,
even if the action is settled by the creation of a
common fund. Appellee argues that the contrary is
true, claiming that, whenever an action is settled
with the creation of a common fund, equitable
principles permit the district court to award a fee that
can be calculated using either the lodestar-fee method
or a percentage-of-the-fund method. As Second
Circuit case law has long implied, we hold that, even
if a case is brought pursuant to a fee-shifting statute,
common-fund
principles
control
fee
awards
authorized from a common fund, and a common-fund

4a
fee award may be calculated as the lodestar or as a
percentage of the common fund. In so holding, we
recognize the acute difference between assessing a fee
award against a defendant, who reaps no benefit from
an action brought against him, and requiring class
members to compensate counsel for representation
that enriches the class. We AFFIRM the wellreasoned order of the district court finding that
Bernstein Litowitz Berger & Grossmann LLP is
entitled to its requested fee and expense award.
BACKGROUND
This case is collateral litigation arising from the
June 16, 2016, settlement of a consolidated securities
class action brought by shareholders of BioScrip, Inc.
The district court appointed Fresno County
Employees’ Retirement Association as lead plaintiff
and Bernstein Litowitz Berger & Grossmann LLP
(“Lead Counsel”) as lead counsel for the action. The
class sought to recover for two allegedly material
misrepresentations that BioScrip, Inc. made and
brought an action under Sections 10(b) and 20(a) of
the Securities Exchange Act of 1934; Securities and
Exchange Commission Rule 10b-5; and Sections 11,
12(a)(2), and 15 of the Securities Act of 1933.
After the consolidated class-action complaint
largely survived a motion to dismiss and the case
entered discovery, the parties agreed to settle all of
the aforementioned claims. The settlement called for
the class-action defendants to pay $10,900,000 into a
common fund in exchange for the class releasing all
claims asserted against the defendants in the action.
The settlement also provided that “Lead Counsel will
apply to the Court for a collective award of attorneys’
fees to Plaintiffs’ Counsel to be paid solely from (and
out of) the Settlement Fund.” Stipulation &

5a
Agreement of Settlement at 20, ¶19, Faig v. BioScrip,
Inc., No. 13-cv- 6922(AJN) (S.D.N.Y. Feb. 4, 2016),
ECF No. 104-5. Thereafter, Lead Counsel moved for
an award of attorneys’ fees of 25% of the settlement
fund, totaling $2,725,000 plus interest, and an
expense award of $133,565.28. Lead Counsel’s
requested fee award amounted to a 1.39 multiplier of
the lodestar fee.
The Isaacson/Weaver Family Trust filed an
objection to Lead Counsel’s requested award, arguing
that Lead Counsel’s award should be reduced to the
lodestar amount. No other class member objected to
the settlement agreement or the requested fee. The
district court subsequently held a settlement fairness
hearing where it heard argument on, among other
things, Lead Counsel’s fee request. In a thorough and
discerning opinion, the district court found that Lead
Counsel’s requested fee was reasonable and granted
the fee in full.
DISCUSSION
The parties primarily dispute the method by which
a reasonable fee should be calculated when class
counsel settles claims brought pursuant to statutes
with fee-shifting provisions by establishing a common
settlement fund. The Objector argues that, because
the parties created the common fund to resolve claims
based on statutes with fee-shifting provisions, the
Supreme Court’s fee-shifting jurisprudence applies,
and Lead Counsel is presumptively entitled to only
the unenhanced lodestar fee. Lead Counsel disagrees,
arguing that the settlement that created the common
fund resolved claims based on statutes that do not
have
applicable
fee-shifting
provisions,
and
regardless, the common-fund doctrine governs a
district court’s award of attorneys’ fees when counsel

6a
has secured a settlement fund for the benefit of the
class. We make clear today what has long been
implicit in this Circuit’s jurisprudence: regardless of
whether a case is brought pursuant to a statute with
a fee-shifting provision, if the parties settle the case
by creating a common fund, common-fund principles
control class counsel’s fee recovery. So concluding, we
offer no opinion on whether the statutes pursuant to
which the underlying case arose contain applicable
fee- shifting provisions.
I. Standard of Review
“The Second Circuit reviews a district court’s
decision to grant or deny an award of attorneys’ fees
for abuse of discretion, reviewing de novo any rulings
of law.” Flanagan, Lieberman, Hoffman & Swaim v.
Ohio Pub. Emps. Ret. Sys., 814 F.3d 652, 656 (2d Cir.
2016). Because the Objector has challenged the fee
award based on the district court’s ruling of law that
Lead Counsel was entitled to a common- fund fee
award, our review is de novo.
II. The American Rule and Its Exceptions
In the American system of justice, “the prevailing
litigant is ordinarily not entitled to collect a
reasonable attorneys’ fee from the loser.” Alyeska
Pipeline Serv. Co. v. Wilderness Soc’y, 421 U.S. 240,
247 (1975). There are two well-known exceptions to
this “American Rule”: (1) where Congress has
specifically legislated that the prevailing party may
recover fees from the losing party, see Perdue v.
Kenny A. ex rel. Winn, 559 U.S. 542, 550 & n.3 (2010),
and (2) where “a litigant or a lawyer ... recovers a
common fund for the benefit of persons other than
himself or his client,” Boeing Co. v. Van Gemert, 444
U.S. 472, 478 (1980). While in both instances an
attorney is entitled to a recovery that is ultimately

7a
financed by the opposing party, the Supreme Court
has placed greater restrictions on attorneys’ fees
recovered from statutory fee-shifting provisions than
on fees recovered from common funds.
When a statute’s fee-shifting provision authorizes a
reasonable attorneys’ fee, the Supreme Court has
held that “the lodestar method yields a fee that is
presumptively sufficient.”15 Perdue, 559 U.S. at 552.
Fee-shifting provisions typically encourage counsel to
represent plaintiffs in actions where “Congress has
opted to rely heavily on private enforcement to
implement public policy.” Alyeska Pipeline Serv. Co.,
421 U.S. at 263. Where a litigant acts as a private
attorney general, the goal of fee shifting is to provide
“a fee that is sufficient to induce a capable attorney to
undertake the representation of a meritorious . . .
case.” Perdue, 559 U.S. at 552. The defendant
effectively finances the private enforcement action
against it as a component of its liability. See Alyeska
Pipeline Serv. Co., 421 U.S. at 253-54 (quoting feeshifting provisions that refer to taxing the opposing
party for fees “incident to the judgment” (internal
quotation marks omitted)).
Notably, an unenhanced lodestar fee does not
account for the contingent risk that a lawyer may
assume in taking on a case. See City of Burlington v.
Dague, 505 U.S. 557, 562-63 (1992); Pennsylvania v.
Del. Valley Citizens’ Council for Clean Air (Del. Valley
II), 483 U.S. 711, 724-25 (1987). This makes
The lodestar method calculates a given attorney’s fee by
multiplying an attorney’s reasonable hourly rate by the
number of hours that the attorney spent on the case. Perdue,
559 U.S. at 546.
15

8a
particular sense where the defendant shoulders the
burden of fees because “[a]n attorney operating on a
contingency-fee basis pools the risks presented by his
various cases.” Dague, 505 U.S. at 565. Therefore,
“enhancing fees for risk of loss forces losing
defendants to compensate plaintiff’s lawyers for not
prevailing against defendants in other cases.” Del.
Valley II, 483 U.S. at 724-25. The defendant, however,
has no responsibility to compensate an attorney for
risk in the attorney’s other cases and would be
unfairly penalized if it were forced to subsidize an
attorney’s other ventures. Thus, where counsel
receives a fee award pursuant to a fee-shifting statute
authorizing a reasonable fee, we presume that the
unenhanced lodestar is a reasonable fee. Perdue, 559
U.S. at 552.
In contrast to fees awarded pursuant to fee-shifting
provisions, fees awarded pursuant to the commonfund doctrine do not extract a tax on the losing party
but instead confer a benefit on the victorious attorney
for her representation of her client and the class
members. See Boeing, 444 U.S. at 478. “The doctrine
rests on the perception that persons who obtain the
benefit of a lawsuit without contributing to its cost
are unjustly enriched at the successful litigant’s
expense.” Id. The common-fund doctrine is therefore
rooted in the courts’ “historic power of equity to
permit” a person who secures a fund for the benefit of
others to collect a fee directly from the fund. Alyeska
Pipeline Serv. Co., 421 U.S. at 257 (citing Trustees v.
Greenough, 105 U.S. 527, 531-33 (1881)). Under the
common-fund doctrine, a district court may select
“either the lodestar or percentage of the recovery
methods” to calculate fees. Goldberger v. Integrated
Res., Inc., 209 F.3d 43, 45 (2d Cir. 2000); see also
McDaniel v. County of Schenectady, 595 F.3d 411, 419

9a
(2d Cir. 2010). A common-fund-percentage fee must
still be evaluated for reasonableness, see, e.g.,
McDaniel, 595 F.3d at 423, but may exceed the
lodestar—i.e., it may be less than, equal to, or greater
than the lodestar, see, e.g., Goldberger, 209 F.3d at 47.
Accordingly, the means by which an attorney
becomes entitled to a fee can affect the method used
to calculate what a reasonable fee is. Subject always
to the district court’s discretion, an attorney seeking a
fee after establishing statutory liability will
presumptively receive a fee equal to the unenhanced
lodestar, and an attorney seeking a fee after
establishing a common fund will receive a fee
calculated using either the lodestar method or a
percentage-of-the-fund method, which can yield a fee
that is less than, equal to, or greater than the
lodestar fee.
III. Fee-Shifting Statutes Do Not Circumscribe
the Common-Fund Doctrine
Fee-shifting principles and the common-fund
doctrine occupy separate realms. In Alyeska Pipeline
Service Co. v. Wilderness Society, the Court identified
a “consistently followed” rule that fee-shifting
statutes do “not interfer[e] with the historic power of
equity to permit . . . a party preserving or recovering
a fund for the benefit of others in addition to himself,
to recover his costs, including his attorneys’ fees, from
the fund . . . itself or directly from the other parties
enjoying the benefit.” 421 U.S. at 257. The Supreme
Court therefore suggested that, even when statutory
fees and the common-fund doctrine collide, the
common-fund doctrine operates autonomously from
fee-shifting principles.
Our Circuit has followed suit. In County of Suffolk
v. Long Island Lighting Co., this Court considered

10a
whether class counsel could be awarded fees from a
common fund despite the fact that counsel would be
entitled to statutory fees under the Racketeer
Influenced and Corrupt Organizations Act if it
prevailed on appeal. 907 F.2d 1295, 1326-27 (2d Cir.
1990). En route to deciding that class counsel was
entitled to fees for its significant work in bringing
about a settlement, we observed that “fee-shifting
statutes are generally not intended to circumscribe
the operation of the equitable fund doctrine.” Id. at
1327. An exception to this principle exists only if the
equitable-fund doctrine interferes with a fee-shifting
statute’s purpose “to encourage the prosecution of
certain favored actions by private parties,” in which
case the doctrine yields to the statute. Id. We
determined that, where a common fund results from
the commencement of a favored action, no such
interference exists, and class counsel is entitled to
fees under the common-fund doctrine notwithstanding a statutory fee-shifting provision. Id. at 1327-28.
In Goldberger v. Integrated Resources, Inc., we
again obliquely addressed the common-fund doctrine
vis-à-vis statutory fee-shifting principles. 209 F.3d 43.
There, we considered whether a securities classaction settlement—settling claims brought under
Rule 10b-5, id. at 45, one of the provisions at issue in
this case—could support an award of attorneys’ fees
based on a percentage-of-the-fund approach. Id. at 47.
We noted that both the lodestar and the percentageof-the-fund methods can yield a “reasonable
attorneys’ fee” from a common-fund settlement. Id. at
47-50; see also McDaniel, 595 F.3d at 419. The Court’s
analysis foreshadowed our decision today: in rejecting
counsel’s claim “that the district court erroneously
relied on the strictures against risk multipliers in
statutory fee-shifting cases” when it awarded a

11a
lodestar fee in a common-fund case, we noted that
“[c]ourts have held such strictures inapplicable to
cases like this, where the lawyers seek fees from a
common fund they won for plaintiffs.” Goldberger, 209
F.3d at 54 n.3.
IV.

Our Sister Circuits Have Articulated
Sound Rationale for Precluding the
Application of Fee-Shifting Principles to
Common-Fund Awards

Our sister circuits have persuasively supported
Goldberger’s unceremonious rejection of the
suggestion that statutory fee-shifting principles
curtail a district court’s discretion in common-fund
cases and have offered compelling reasons why a
common-fund fee may differ from a statutory fee.
The Ninth Circuit has held that “unless Congress
has forbidden the application of the common fund
doctrine in cases in which attorneys could potentially
recover fees under the type of fee-shifting statutes at
issue here, the courts retain their equitable power to
award common fund attorneys’ fees.” Staton v. Boeing
Co., 327 F.3d 938, 968 (9th Cir. 2003). The court
reasoned that in negotiating a settlement, “a
defendant is interested only in disposing of the total
claim asserted against it.” Id. at 964 (internal
quotation marks omitted). Therefore, “the allocation
between the class payment and the attorneys’ fees is
of little or no interest to the defense.” Id. (internal
quotation marks omitted); see also Goldberger, 209
F.3d at 52-53 (noting this principle in the context of
parties’ incentives to oppose a fee award).
The settling defendant’s focus is on its bottom line,
and once that bottom line has been inked, the
defendant’s interest in how class members and class
counsel spend the settlement money dwindles. This is

12a
in stark contrast to fees awarded pursuant to a feeshifting statute, where as part of its liability and in
addition to any monetary judgment, the defendant is
forced to pay for the costs of the statute’s enforcement
against it. Cf. Alyeska Pipeline Serv. Co., 421 U.S. at
247-54 (tracing the evolution of taxable costs against
a defendant as an incident of the defendant’s
liability). Therefore, where a statute shifts fees, we
consider a reasonable fee with the defendant’s
perspective in mind. See Del. Valley II, 483 U.S. at
724-25 (rejecting contingency enhancement of
lodestar fee after discussing the ramifications of such
an enhancement on defendants).
In contrast, where an attorney has settled a case
and created a common fund, we determine what a
reasonable fee is from the plaintiff’s perspective.
Critically, a reasonable fee from the plaintiff’s
perspective can account for contingency risk where
such risk exists,16 and a common-fund fee may
therefore exceed what would be a “reasonable fee” in
the fee-shifting context. The Seventh Circuit has
persuasively articulated why accounting for
contingency risk can be appropriate when the
plaintiff funds the fee but not when the defendant
funds the fee. Assessing a fee that accounts for
contingency risk against a defendant would require
the defendant to “subsidiz[e] plaintiffs’ attorneys for
unsuccessful lawsuits against other defendants.”
We note that it will not always be the case that an attorney
representing a class assumes compensable contingency risk.
A case may, for example, have such a high likelihood of being
meritorious that compensation for contingency risk is
unnecessary. See, e.g., Goldberger, 209 F.3d at 52 (noting that
there is not “a substantial contingency risk in every common
fund case” and cautioning against calculating contingency
risk into every percentage-fee award).
16

13a
Florin v. Nationsbank of Ga., N.A., 34 F.3d 560, 565
(7th Cir. 1994). But “[i]n a common fund case, ...
because compensation for risk is charged against the
plaintiff class, defendants would not be forced to
subsidize directly plaintiffs’ attorneys’ losing
endeavors.” Id. (emphasis added).
The plaintiff class is therefore appropriately
charged for contingency risk where such risk is
appreciable because the class has benefited from class
counsel’s decision to devote resources to the class’s
cause at the expense of taking other cases. That is,
because class counsel has decided to represent the
plaintiff class, class counsel’s ability to freely
represent other clients is limited by the risk she has
assumed that the class’s cause will be unsuccessful.
The class, having been enriched by counsel’s
acceptance of its cause at the expense of other clients’
causes, may be charged for counsel’s assumption of
risk on its behalf. Consistent with the reasoning and
holding of the Ninth Circuit in Staton, the Seventh
Circuit has therefore held that “common fund
principles properly control a case [that] is initiated
under a statute with a fee-shifting provision, but is
settled with the creation of a common fund.” Id. at
564; see also Staton, 327 F.3d at 968.
V.

The Common-Fund Doctrine Does Not
Threaten to Misalign Counsel and Her
Client’s Incentives

In agreeing with the Seventh and Ninth Circuits,
we decline to yield to the Objector’s contention that
applying common-fund principles to fee recoveries
from cases initiated under fee-shifting statutes will
misalign attorneys’ incentives. The Objector argues
that allowing counsel to extract a percentage fee
under the common-fund doctrine encourages counsel

14a
to settle cases early—even when her client’s best
interests are served by prosecuting the claim to trial.
We recognize that both the lodestar methodology and
the common-fund methodology provide imperfect
solutions for aligning an attorney’s incentive to settle
with her client’s. McDaniel, 595 F.3d at 419
(“[N]either the lodestar nor the percentage-of-fund
approach to awarding attorneys’ fees in common fund
cases is without problems.”). We nonetheless do not
share in the Objector’s concern that the percentagefee approach will destroy class representation for two
primary reasons: first, a fee awarded under the
common-fund doctrine provides class counsel with the
incentive to maximize the settlement payout for the
class because a larger settlement yields a
proportionally larger fee; second, a district court is
required to review class settlements and class
counsel’s fees, providing an extra layer of security
that class counsel will fairly and adequately represent
the class.
As to the first reason, we have previously noted
that “the percentage method has the advantage of
aligning the interests of plaintiffs and their attorneys
more fully by allowing the latter to share in both the
upside and downside risk of litigation.” Id. Thus, once
the parties have agreed to settle, the percentage-ofthe-fund methodology serves as important motivation
for counsel to maximize the class’s recovery, and, a
fortiori, counsel’s fee.
This incentive structure is critically important
because, under the common-fund doctrine, class
counsel is not entitled to a common-fund fee or an
unenhanced lodestar fee by force of entering into a
settlement agreement on the class’s behalf. Rather,
the district court retains discretion to determine
which methodology it will use to calculate class

15a
counsel’s reasonable fee. Goldberger, 209 F.3d at 50
(“[W]e hold that both the lodestar and the percentage
of the fund methods are available to district judges in
calculating attorneys’ fees in common fund cases.”).
As such, class counsel cannot enter into a premature
settlement confident that it will receive a percentageof-the-fund fee that exceeds its lodestar fee. Since the
district court alone makes the decision of how class
counsel’s fee will be calculated, class counsel’s safest
bet for securing a large fee award is to prosecute the
action until the point at which settlement is the best
available option and thereafter maximize her client’s
returns.
As to the second reason that a percentage-fee
method is workable despite the Objector’s concerns,
we are comforted by the fact that a “court is to act as
a fiduciary who must serve as a guardian of the rights
of absent class members” in reviewing a class-action
settlement and a class fee award. Id. at 52 (internal
quotation marks omitted). The Federal Rules of Civil
Procedure require that “[t]he claims, issues, or
defenses of a certified class—or a class proposed to be
certified for purposes of settlement—may be settled,
voluntarily dismissed, or compromised only with the
court’s approval.” Fed.R.Civ.P. 23(e) (emphasis
added). Rule 23 requires the district court to hold a
hearing and consider a number of factors to ensure
that a proposed settlement “is fair, reasonable, and
adequate,” id. 23(e)(2), and the court must specifically
evaluate “the terms of any proposed award of
attorney’s fees,” id. 23(e)(2)(C)(iii). Thus, the district
court is required to review both the terms of the
settlement and any fee award encompassed in a
settlement agreement. This review provides a
backstop that prevents unscrupulous counsel from
quickly settling a class’s claims to cut a check.

16a
In addition to ex post facto review of fee awards,
some district courts have elected to exercise their
discretion to select and manage class counsel at the
outset of the litigation. See Gunter v. Ridgewood
Energy Corp., 223 F.3d 190, 201 n.6 (3d Cir. 2000)
(“[D]istrict courts can avoid many of [the]
complications associated with fee awards by setting
fee guidelines and ground rules early in the litigation
process.”). One example of such an ex ante approach
to selecting class counsel, popular in securities class
actions, is for the district court to request that
prospective class attorneys submit proposals
regarding their qualifications, predictions for
expected recovery, and their prospective fees. See In
re Synthroid Mktg. Litig., 264 F.3d 712, 720 (7th Cir.
2001). Thereafter, “[t]he judge in turn acts as an
agent for the class, selecting the firm that seems
likely to generate the highest recovery net of
attorneys’ fees.” Id.; see also Gunter, 223 F.3d at 201
n.6. Placing the district court at the helm of classcounsel selection allows the district court to actively
consider class counsel’s performance while the
litigation remains pending and is another means of
monitoring fee awards.
Further, if judicial review of class-action
settlements with a “searching assessment” of
counsel’s fee award, McDaniel, 595 F.3d at 419
(internal quotation marks omitted), were not solace
enough for the Objector, we have also counseled that
the district court should use the lodestar as a
“baseline” against which to cross-check a percentage
fee: “we encourage the practice of requiring
documentation of hours as a ‘cross check’ on the
reasonableness of the requested percentage,”
Goldberger, 209 F.3d at 50. Thereafter, “the
reasonableness of the claimed lodestar can be tested

17a
by the court’s familiarity with the case.” Id. Fee
requests that deviate wildly from the unenhanced
lodestar fee are unlikely to pass this cross-check, and
district courts are at liberty to reduce the requested
fee within their discretion.
We thus have confidence in the district court as
fiduciary of the class and ultimate decisionmaker on a
class-action settlement to substantially alleviate the
Objector’s concerns about class counsel’s incentives.
Having obtained such reassurance, we hold that,
where a class action results in a common-fund
settlement for the benefit of the class, the commonfund doctrine applies and permits a district court to
use its discretion to award class counsel either an
unenhanced lodestar fee or a fee calculated as a
percentage of the settlement fund. This principle
applies even when claims are initiated pursuant to a
statute with a fee-shifting provision. Since the parties
do not argue that the district court abused its
discretion in analyzing the propriety of the fee award
under the discretionary factors, we affirm the order of
the district court.
CONCLUSION
The class, including the Objector, has benefited
from Lead Counsel’s negotiation of a common
settlement fund. Because Lead Counsel’s fee is
extracted directly from the beneficiaries of its work,
Lead Counsel is entitled to compensation not only for
skillfully negotiating that settlement fund but for
bearing the risk that the suit would not generate any
recovery. Accordingly, even if the class’s claims were
initiated under fee-shifting statutes, common-fund
principles would govern, and the district court had
the discretion to award Lead Counsel a fee equaling
either the lodestar fee or a percentage of the fund.

18a
The district court did not abuse its discretion when it
determined that a percentage of the fund reasonably
compensated counsel. The district court’s order is
hereby AFFIRMED.

19a
APPENDIX B
Judgment of the U.S. Court of Appeals for the
Second Circuit
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 23rd day of May, two
thousand and nineteen.
Before:

Dennis Jacobs,
Rosemary S. Pooler,
Richard C. Wesley,
Circuit Judges.
_______________________________
Fresno County Employees’
Retirement Association,
Plaintiff–Appellee,
v.

JUDGMENT
Docket No.
17-2662

Isaacson/Weaver Family Trust,
Objector–Appellant.
_______________________________
The appeal in the above captioned case from an
order of the United States District Court for the
Southern District of New York was argued on the

20a
district court’s record and the parties’ briefs. Upon
consideration thereof,
IT IS HEREBY ORDERED, ADJUDGED and
DECREED that the order of the district court is
AFFIRMED.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court
/s/ Catherine O’Hagan Wolfe

21a
APPENDIX C
Opinion of the District Court Awarding
Attorney’s Fees
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
13-cv-6922
MEMORANDUM &
ORDER
_______________________________________
|
In re BioScrip, Inc. Securities Litigation |
|
_______________________________________|
ALISON J. NATHAN, District Judge:
On June 16, 2016, the Court issued orders
approving the plan of allocation of the net settlement
fund and the class action settlement. Dkt. Nos. 12324. The Court now addresses Lead Counsel’s
application for attorney’s fees. For the reasons that
follow, Counsel’s application is granted in its entirety.
I. Background
The above case is a securities class action brought
on behalf of all persons and entities who purchased or
acquired the publicly traded common stock of
BioScrip, Inc. (“BioScrip”) between November 9, 2012
and November 6, 2013. See Dkt. No. 68, at 1
(hereafter “Mar. 31, 2015 Order”). The consolidated
actions stem from allegations that BioScrip violated
the securities laws through two sets of allegedly
misleading statements: first, statements affirming

22a
BioScrip’s
compliance
with
relevant
laws
notwithstanding the Government’s investigation into
an alleged kickback scheme between BioScrip and
Novartis Pharmaceuticals Corp.; and second,
statements affirming the profitability of BioScrip’s
pharmacy benefit management operating segment,
notwithstanding the undisclosed loss of a significant
segment of that business. See generally Consolidated
Class Action Complaint (Dkt. No. 22) (hereafter the
“Complaint”). The Court assumes familiarity with the
Court’s Memorandum and Order of March 31, 2015,
granting in part and denying in part Defendants’
motions to dismiss, which describes in detail the
factual and legal contours of the case. See Mar. 31,
2015 Order.
On September 30, 2013, Plaintiff Timothy Faig
filed the first class action complaint in this case, Dkt.
No. 1, which was followed by the filing of a related
complaint on November 15, 2013, by the West Palm
Beach Police Pension Fund, 13-cv-8175, Dkt. No. 1.
On December 2, 2013, the Fresno County Employees’
Retirement Association (“Fresno” or “Lead Plaintiff”)
moved for appointment as lead plaintiff, as well as for
approval of its selection of lead counsel, the law firm
of Bernstein Litowitz Berger & Grossmann LLP
(“BLB&G” or “Lead Counsel”1). Dkt. No. 11. On
In its December 19, 2013 Order consolidating the actions in
this case and appointing Lead Plaintiff and Lead Counsel, the
Court appointed Fresno Lead Plaintiff and BLB&G Lead
Counsel. See Dkt. No. 17. In the Consolidated Class Action
Complaint, however, Fresno added an additional named
plaintiff, the West Palm Beach Police Pension Fund, which
was represented by Saxena White P.A. See Complaint at 1,
110. In its request for fees, Lead Counsel includes Saxena
White (and thus includes hours billed by Saxena White in the
lodestar calculation). See Memorandum of Law in Support of
1

23a
December 19, 2013, the Court consolidated the two
class action complaints, and appointed Fresno as
Lead Plaintiff and BLB&G as Lead Counsel. Dkt. No.
17.
Lead Counsel represents that, over the next few
months, it conducted an extensive factual and legal
investigation, pursuant to which counsel reviewed
numerous documents, conducted 72 interviews with
former employees of BioScrip and other relevant
individuals, researched relevant case-law, and
consulted with various experts. Ross Decl. ¶19. On
the basis of this investigation, on February 19, 2014,
Lead Counsel filed Plaintiffs’ Consolidated Class
Action Complaint, a 110-page document asserting
claims under both the Exchange Act of 1934,
15 U.S.C. §78a et seq., and the Securities Act of 1933,
15 U.S.C. §77a et seq. See Complaint. In particular,
Plaintiffs brought five claims against the Defendants:
a claim under Section 10(b) of the Exchange Act and
Rule 10b-5 promulgated pursuant to that section, a
Section 20(a) control person claim, a claim under
Section 11 of the Securities Act, a Section 12(a)(2)
claim under that act, and a Section 15 control person
liability claim. See Mar. 31, 2015 Order at 13. Two
sets of Defendants then moved to dismiss the
Complaint. See Dkt. Nos. 41, 45. On March 31, 2015,
the Court granted in part and denied in part both
motions. Mar. 31, 2015 Order. On June 5, 2015, the
Lead Counsel’s Motion for an Award of Attorney’s Fees and
Reimbursement of Litigation Expenses, Dkt. No. 110, at 25
(hereafter “Pl. Mem.”); Declaration of Hannah G. Ross, Dkt.
No. 111 ¶90 (hereafter “Ross Decl.”); Ross Decl., Ex. 5. In
referring to “Lead Counsel” then, the Court refers to both
BBL&G and Saxena White, and, in approving Lead Counsel’s
request, approves the fees requested as to both firms.

24a
Court denied the Defendants’ motion for partial
reconsideration. Dkt. No. 86. Thereafter, the parties
began the discovery process, which included
Defendants’ production of approximately 800,000
pages of documents. Ross Decl. ¶41.
In August of 2015, the parties agreed to seek a
settlement via mediation, and selected former U.S.
District Judge Layn Phillips as a mediator. Id. ¶42.
As part of the mediation process, both parties
submitted briefing, and appeared for a full-day
mediation session on September 25, 2015. Id. ¶46. At
the session, the parties debated numerous factual and
legal areas of dispute, and ultimately failed to reach
an agreement to settle the action. Id. After additional
negotiations, however, and after Judge Phillips
provided a recommended settlement amount, the
parties ultimately reached a resolution, which they
submitted to this Court for preliminary approval on
December 18, 2015. Dkt. No. 101. On February 11,
2016, the Court issued an order preliminarily
approving the settlement and providing for notice.
Dkt. No. 106.
In the settlement, BioScrip agreed to pay
$10,900,000 to settle the lawsuit in its entirety (on
behalf of all defendants). Ross Decl. ¶3; see also
Settlement ¶1(rr) (Dkt. No. 101-1); Dkt. No. 124
(Judgment Approving Class Action Settlement). The
settlement agreement also stipulated that Lead
Counsel would apply for attorney’s fees, as well as
costs and expenses, directly from the fund. See
Settlement ¶19. The settlement also specified that
Defendants would have no responsibility nor liability
for attorney’s fees beyond the settlement amount. Id.
¶23.

25a
On May 9, 2016, Lead Plaintiff moved to approve
the class action settlement and plan of allocation,
Dkt. No. 107, and Lead Counsel moved for an award
of attorney’s fees, costs, and expenses, Dkt. No. 109.
In particular, Lead Counsel requested attorney's fees
in the amount of 25% of the settlement fund, i.e.
$2,725,000, plus interest earned at the same rate as
the Settlement Fund, reimbursement for $133,565.28
in litigation expenses incurred, and reimbursement to
Lead Plaintiff for $1,378.61 in costs. See Pl. Mem. at
1; Ross Decl. ¶2. Lead Counsel argued that, relying on
the percentage method to calculate a reasonable
attorney’s fee, the request should be approved. See id.
at 3-4 (citing Goldberger v. Integrated Res., Inc., 209
F.3d 43, 47 (2d Cir. 2000) (contrasting the percentage
method, under which “[t]he court sets some
percentage of the recovery as a fee," with the lodestar
method, "under which the district court scrutinizes
the fee petition to ascertain the number of hours
reasonably billed to the class and then multiplies that
figure by an appropriate hourly rate”)). In this case,
Lead Counsel acknowledged that 25% of the fund
would amount to a 1.39 multiplier of Lead Counsel’s
lodestar. See Pl. Mem. at 9.
On May 23, 2016, the Court received an objection to
the fee award, from the Isaacson/Weaver Family
Trust (the “Trust” or “Objector”). See Dkt. No 113
(hereafter “Obj. Mem.”). The Trust objected to any
award above the lodestar, primarily on the basis that
such an award would be inconsistent with the
Supreme Court’s admonition in Perdue v. Kenny A. ex
rel. Winn that, when calculating “an attorney’s fee[]
under federal fee-shifting statutes ... there is a strong
presumption that the lodestar is sufficient.” 559 U.S.
542, 546 (2010). No additional objections to the
settlement or fee application were received from any

26a
class members. See June 13, 2016 Tr. at 4 (Dkt. No.
125).
On June 13, 2016, the Court held a settlement
fairness hearing to discuss both the proposed
settlement and Lead Counsel’s request for fees. See
generally June 13, 2016 Tr. At that hearing, the Court
heard argument from Lead Counsel and the Objector
as to the reasonableness of the fee request. See id. at
12-35.
On June 16, the Court issued orders approving the
plan of allocation of the net settlement fund and the
class action settlement, but reserved on the question
of attorney’s fees. Dkt. Nos. 123, 124. The Court now
addresses Lead Counsel’s application for attorney’s
fees amounting to 25% of the common fund and the
Objector’s arguments that the fee award should be
limited to the lodestar. For the reasons that follow,
Lead Counsel’s application for fees is granted in its
entirety.2
II. The Objection
In opposition to Lead Counsel’s requested fee, the
Objector raises two principal arguments. First, and
primarily, the Objector argues that Supreme Court
precedent requires this Court to apply a “‘strong
presumption’ that the lodestar figure is reasonable,” a
legal standard that would preclude the award of a
lodestar multiplier in all but the most extraordinary
of cases. See Perdue, 559 U.S. at 554; City of
Burlington v. Dague, 505 U.S. 557, 562, 567 (1992)
(holding that such a presumption applies when a
court awards fees pursuant to a fee-shifting statute).
No party has objected to the reimbursement requests for
costs and Lead Plaintiff’s expenses, which the Court deems
reasonable and approves.
2

27a
Were the Objector correct, it would follow that the
Court would lack the discretion- absent a finding that
this case were “‘rare’” and “‘exceptional’”—to award
Lead Counsel a fee higher than its lodestar. Perdue,
559 U.S. at 552 (quoting Penn. v. Delaware Valley
Citizens’ Council for Clean Air, 478 U.S. 546, 565
(1986)).
Second, were the Court to reject the Objector’s legal
argument and conclude that it has discretion to
award a lodestar multiplier without such a finding,
the Objector argues that the Court should, in its
discretion, decline to award a fee that would result in
any lodestar enhancement. Obj. Mem. at 11-21.
The Court addresses each argument in turn. In
summary, the Court concludes, first, that the
presumption against a lodestar enhancement
articulated in Dague and Perdue when a court awards
a reasonable attorney’s fee from a defendant pursuant
to a fee-shifting provision does not apply to the award
of fees in this case from a common fund created after
a settlement. Second, evaluating the fee request using
the common fund principles articulated in Goldberger,
the Court finds the request reasonable and approves
it in full.
III. The Legal Standard Governing the Award of
Fees in this Case
The Court first addresses the Objector’s primary
argument: that, in awarding fees in this case, the
Court must apply a “‘strong presumption’ that the
lodestar figure is reasonable,” and thus has little to
no discretion to award a lodestar enhancement or a
percentage of the fund that would exceed the lodestar.
Perdue, 559 U.S. at 554. The Court disagrees.

28a
In the American system, “parties to a lawsuit
usually bear their own expenses, regardless of which
party prevails.” Florin v. Nationsbank a/Georgia,
NA., 34 F.3d 560, 562 (7th Cir. 1994). At least two
prominent exceptions exist to this general rule,
however. First, Congress has inserted fee-shifting
provisions in certain statutes - provisions that permit
prevailing plaintiffs to seek compensation from
defendants for “the costs they incurred to enforce
[their] rights.” Id. at 563. Second, a case may result in
the creation of a “common fund”—a fund created,
often after settlement, for the benefit of the plaintiff
class. “In such a case, the defendant typically pays a
specific sum into the court, in exchange for a release
of its liability”—often (although not always) including
a release from any “potential liability for statutory
attorney’s fees.” Id. at 563-64. In the context of a
common fund (as is this case here), the defendant’s
liability is generally “fixed-it cannot exceed the
amount of the common fund the defendant has agreed
to pay,” regardless of the award of attorney’s fees. Id.
at 564.
In the context of an award of fees from a common
fund created after settlement, the Second Circuit has
held that a court has a great deal of discretion in
calculating a reasonable fee. See Goldberger, 209 F.3d
at 47. A court may employ the lodestar method,
“under which the district court scrutinizes the fee
petition to ascertain the number of hours reasonably
billed to the class and then multiplies that figure by
an appropriate hourly rate,” or the percentage
method, under which “[t]he court sets some
percentage of the recovery as a fee.” Id. In either case,
a district court has considerable discretion to award a
fee reflecting a lodestar enhancement designed to
compensate attorneys for, inter alia, “the risk of the

29a
litigation.” Id.; see also McDaniel v. Cty. of
Schenectady, 595 F.3d 411, 425-26 (2d Cir. 2010)
(affirming this framework).
In contrast, in the context of an award of fees
directly from a defendant pursuant to a fee-shifting
statute, the Supreme Court has held that a district
court’s discretion is far more limited. As the Objector
notes, in calculating such a fee, “there is a ‘strong
presumption’ that the lodestar figure is reasonable.”
Perdue, 559 U.S. at 554. Although that presumption
may be overcome, it is only the “rare circumstance[]”
that would ever justify requiring a defendant to pay
an enhancement to the lodestar. See id.; see also
Dague, 505 U.S. at 562.
The Objector argues that, notwithstanding the fact
that courts in this Circuit routinely apply the
Goldberger methodology to calculate a reasonable
attorney’s fee from a common fund created after
settlement of a securities class action, the “strong
presumption”
against
a
lodestar
multiplier
articulated in Perdue and Dague must apply in this
case. See Obj. Mem. at 1-2. The Objector bases this
conclusion on two interlocking premises. First,
although the Objector concedes that Perdue and
Dague addressed how courts should calculate a
statutory award of fees from a defendant pursuant to
a fee-shifting provision, it argues that the
presumption against a lodestar multiplier articulated
in these cases necessarily applies where counsel seeks
an award of attorney’s fees from a common fund if the
claims settled themselves allowed for fee-shifting. See
id. at 2 (arguing that the alternative would create
“perverse incentives and place[] the[] interests [of
class counsel] in conflict with interests of the class”).
Second, the Objector argues that the claims in this
case are indeed governed by fee-shifting provisions,

30a
such that the Dague and Perdue presumption must
apply. See id.
The Court addresses each of these premises (both of
which must be adopted for the Objector’s position to
be correct), and rejects each of them. For two
independent reasons, then, the Court holds that the
common fund principles articulated in Goldberger,
and not the statutory fee-shifting principles
articulated in Dague and Perdue, govern the award of
fees in this case, and that the Court has discretion to
award a lodestar enhancement.
A. The Perdue Presumption Against a Lodestar
Enhancement Does Not Apply When a Court
Awards Fees from a Common Fund Created
after a Settlement
The first premise of the Objector’s argument is that
the presumption against a lodestar multiplier
articulated in Dague and Perdue—two Supreme Court
cases addressing the calculation of a reasonable
attorney’s fee pursuant to a fee-shifting statute—
applies even when a court awards fees from a
settlement fund pursuant to equitable principles,
provided that the claims settled were themselves
subject to fee-shifting provisions. The Court
disagrees.
In Dague and Perdue, the Supreme Court reviewed
two awards of attorney’s fees made pursuant to feeshifting regimes. In Dague, the district court awarded
fees to the plaintiff after finding the plaintiff a
“substantially prevailing party,” entitled to an award
of fees under both the Solid Waste Disposal Act and
the Federal Water Pollution Act. 505 U.S. at 559. In
Perdue, children in the Georgia foster care system
brought a class action asserting violations of 42
U.S.C. §1988. 559 U.S. at 547. After the parties

31a
entered a consent decree, the plaintiffs submitted a
request for fees pursuant to the fee-shifting
provisions of§ 1988. Id. In both Dague and Perdue,
the respective district courts, in calculating the fee
awards in question, required the defendant to pay a
fee that reflected an enhancement to the lodestar. See
Dague, 505 U.S. at 560; Perdue, 559 U.S. at 548. In
each case, the Supreme Court reversed. Interpreting
the fee-shifting provisions at issue, each of which
allowed for the award of a “reasonable attorney[’s]
fee[]" to the prevailing or substantially prevailing
party, Dague, 505 U.S. at 561-62; Perdue, 559 U.S. at
550, the Supreme Court held that, in the context of
such awards, “there is a ‘strong presumption’ that the
lodestar figure is reasonable,” id. at 554. Although
declining to hold that a district court may never
enhance a lodestar in awarding such a fee, the Court
noted that such an enhancement would only be
permissible in “rare” and “exceptional” circumstances.
Id. at 543 (internal quotation marks omitted). Such
an enhancement would not be appropriate on the
basis of contingency risk. Dague, 505 U.S. at 567.
The Objector concedes that neither Dague nor
Perdue addressed the award of fees from a common
fund created after a settlement. Nevertheless, the
Objector argues that the limitations articulated in
Dague and Perdue necessarily apply to such a
scenario when the claims are brought pursuant to a
statute that would allow class counsel to move, after a
finding of liability, for an award of fees from a
defendant. According to the Objector, this conclusion
flows both from the analysis of Dague and Perdue,
and from a simple normative argument: that any
alternative conclusion would mean counsel could
achieve a higher award if it seeks funds from a
settlement under equitable principles than if it moves

32a
for attorney’s fees from the defendant directly
pursuant to a statute, which would create a
problematic incentive for lead counsel to settle a case
through the creation of a common fund, rather than
either seek a settlement that does not resolve the
issue of attorney’s fees or eschew settlement in favor
of seeking a verdict. See Brytus v. Spang & Co., 203
F.3d 238, 247 (3d Cir. 2000) (“[T]here remains the
possibility that in some cases counsel for a class of
plaintiffs may receive a higher fee award upon
settlement than they would have received had the
case proceeded to judgment.”).
The Objector’s argument is not without force.
Neve1iheless, the Court holds that the presumption
articulated in Dague and Perdue does not apply in the
context of an award of fees from a settlement fund,
even if a statute would permit a party to otherwise
seek a statutory fee award directly from a defendant.
The Court reaches this conclusion for two reasons:
First, although the Second Circuit has never
addressed the issue the Objector raises directly, its
holdings and dicta strongly disclaim the Objector’s
position. And second, other circuits, which have
directly addressed the question, have persuasively
concluded that Dague and Perdue do not, as either a
statutory or policy matter, extend to the equitable
award of fees from a common fund, and the Court
agrees with their reasoning.
1.

Second Circuit Precedent Strongly
Indicates that Common Fund Principles,
not Statutory Fee-shifting Principles,
Govern an Award of Attorney’s Fees from a
Common Fund Created After Settlement

First, although the Second Circuit has never
addressed the precise question the Objector raises—

33a
its holdings and reasoning in other cases strongly
suggest an understanding that the Dague and Perdue
presumption does not apply when a court awards fees
from a common fund.
The most obvious place to begin is Goldberger. As
Lead Counsel observes, the leading case in this
Circuit holding that a district court may enhance a
lodestar when awarding fees from a common fund
itself involved claims brought under Section 10(b) of
the Exchange Act, and Rule 10b-5 promulgated
thereunder. See Goldberger, 209 F.3d at 45; id. at 47
(affirming that a “district court may, in its discretion,
increase the lodestar by applying a multiplier based
on ‘other less objective factors,’ such as the risk of the
litigation and the performance of the attorneys”). In
Goldberger, the Second Circuit nowhere addressed
the possibility that attorney’s fees might be available
in a 10b-5 class action—likely because, as the Court
explains, infra, the Second Circuit has long held that
such fees are not available to prevailing parties in
such actions. See Cotton v. Slone, 4 F.3d 176, 181 (2d
Cir. 1993). Nevertheless, the Second Circuit has since
applied the Goldberger standard in the context of
statutes that clearly contain fee-shifting provisions,
suggesting that the Circuit understands equitable and not statutory-fee-shifting - principles to apply to
such an award even where a statute contains a feeshifting provision. See McDaniel, 595 F.3d at 415,
417-18 (analyzing the district court’s assessment of
the Goldberger factors in the context of claims
brought pursuant to 42 U.S.C. §1983). Were the
Objector correct, the legal standards articulated in
Goldberger and McDaniel (not to mention in

34a
numerous district court decisions in this circuit)
would be erroneous.3 3
Although much of the reasoning in Goldberger and
McDaniel is inconsistent with the Objector’s position,
the Objector rightly observes that in neither case did
the Second Circuit squarely address the scope and
implications of Dague. Nevertheless, dicta in
Goldberger, and a holding in an earlier Second Circuit
case, further support the conclusion that Dague is
limited to statutory fee awards. First, in Goldberger,
in a footnote, the Second Circuit noted that counsel
had argued that the district court “erroneously relied
on the strictures against risk multipliers in statutory
fee-shifting cases ... in which Congress has provided
by statute for the recovery of fees from losing
defendants.” Id. at 54 n.3. The Second Circuit found
the district court had not held that it was unable to
award a risk multiplier, and thus the Circuit did not
need to determine whether reversal would be
warranted on this ground (and in any case, as noted,
the objection did not presuppose that attorney’s fees
are readily available in a 10b-5 action). Id.
Nevertheless, in citing counsel’s argument, the panel
noted that “[c]ourts have held such strictures
inapplicable to cases like this, where the lawyers seek
fees from a common fund they won for plaintiffs,” and
favorably cited Florin, a case in which the Seventh
Circuit rejected the precise argument the Objector
makes here. See id. (citing 34 F.3d at 564-65).
Prior to Goldberger, the Second Circuit addressed a
distinct but related argument in County of Suffolk v.
Long Island Lighting Co., and provided analysis
As Lead Counsel correctly observes, adoption of the
Objector’s position would “mark a drastic change in securities
class-action jurisprudence.” Pl. Reply at 1.
3

35a
which again cuts against the Objector’s position. 907
F.2d 1295 (2d Cir. 1990). In Suffolk, plaintiffs brought
claims against a set of defendants for, inter alia,
violating the Racketeering Influenced and Corrupt
Organizations Act, 18 U.S.C. §1961, et seq. (1988)
(“RICO”). Id. at 1300. After a trial resulting in a
verdict in favor of the plaintiffs on the RICO claims,
the district court granted judgment to the defendants
on those claims and thereafter certified a class of
plaintiffs pursuing the remaining claims. Id. at 1301.
After the class settled with the defendants, Suffolk, a
plaintiff in the action, opted out of the class and
appealed the district court’s dismissal of the RICO
claims. Id. at 1302. Notwithstanding its objection to
the settlement and its appeal, Suffolk moved for an
equitable disbursement of attorney’s fees from the
settlement fund, on the ground that Suffolk’s counsel
had provided a substantial benefit to the class. See id.
at 1326-27. The district court denied the request on
the grounds, inter alia, that were Suffolk to prevail in
its appeal, it would have “an independent basis for
recoupment of its attorney’s fees” under the RICO feeshifting provision. Id. at 1327.
The Second Circuit affirmed the district court’s
dismissal of the RICO claims, but reversed its
decision as to attorney’s fees, relying on analysis that
undercuts the Objector’s position. See id. at 1327-38.
Assessing the interplay between a fee-shifting statute
and an award of fees from a common fund, the court
explained that “fee-shifting statutes are generally not
intended to circumscribe the operation of the
equitable fund doctrine.” Id. at 1327. The court
acknowledged that “[d]uplicative recovery is to be
avoided,” and that if “under a particular combination
of facts, the operation of the equitable fund doctrine
conflicts with an intended purpose of a relevant fee-

36a
shifting statute, the statute must control and the
doctrine must be deemed abrogated to the extent
necessary to give full effect to the statute.” Id. Such
was not the case, however, in Suffolk, where “[t]he
action intended to be encouraged ha[d] already been
commenced and prosecuted.” Id.
Suffolk does not foreclose the possibility that a feeshifting statute could limit a court’s discretion in
awarding fees from the common fund. Its analysis,
however, argues against the conclusion that such a
limitation would be imported in the ordinary case.
Both Dague and Perdue involved, at least in part, the
interpretation of the text of fee-shifting provisions.
See Perdue, 559 U.S. at 550; Dague, 505 U.S. at 56162; see also Florin, 34 F.3d at 564 (explaining that
“Dague, by its terms, applies only to statutory feeshifting cases, and its reasoning is largely based on
the statutory language of fee-shifting provisions”). If
fee-shifting provisions are not generally intended to
circumscribe operation of the equitable fund doctrine,
it follows that there is little basis for importing a
presumption rooted in the text of these provisions into
the award of fees in a context not governed by that
text. Additionally, the Suffolk court suggested that
application of the equitable fund doctrine was
consistent with the central purpose of fee-shifting
provisions, which it described as “to encourage the
prosecution of certain favored actions by private
parties.” Id. at 1327. The availability of the common
fund doctrine provides an additional avenue for
lawyers retained on contingency to receive reasonable
compensation, and is thus not inconsistent with this
stated purpose.
In sum, although the Second Circuit has not
directly addressed the issue before this Court, its
prior holdings and analysis suggest the conclusion

37a
that Dague and Perdue are limited to the context they
purport to address: the award of fees pursuant to a
specific statute from a defendant, rather than the
award of fees pursuant to equitable principles from a
common fund.
2. Persuasive Precedent from Other Circuits
Further Disputes the Objector’s Position
Although the Second Circuit has not directly
addressed the question the Objector raises, two
circuits have squarely addressed this question. See
Staton v. Boeing Co., 327 F.3d 938, 967- 69 (9th Cir.
2003); Florin, 34 F.3d at 563-64.4 Each has held that
common fund principles that allow for lodestar
enhancements, and not statutory fee-shifting
principles that do not, govern the award of funds from
a settlement even where the settled claims contain
fee-shifting provisions, and the Court finds the
reasoning in these decisions persuasive.

In Staton, the Ninth Circuit identified the Third Circuit as
having also held that “there is no preclusion on recovery of
common fund fees where a fee-shifting statute applies.”
Staton, 327 F.3d at 967 & n.18 (citing Brytus, 203 F.3d at
246-47). Although, as this Court explains, infra, language in
Brytus indeed supports Counsel’s position in this case, see
infra pp. [46a-48a] it stretches the language of that decision
to read it as squarely addressing the Objector’s argument in
this case. See Brytus, 203 F.3d at 246 (“This, of course, is not
a case that was concluded by settlement. This case was tried
to judgment, and a fee awarded on that basis. We are not
inclined to base our ruling on some hypothetical situation
that might be presented in the future.”); id. at 244
(“[Counsel’s argument] presupposes that the Dague bar is
inapplicable and that counsel in common fund cases are
entitled to a multiplier for risk of contingency, an issue we
need not decide today.”).
4

38a
In Florin, the Seventh Circuit held that “common
fund principles properly control a case which is
initiated under a statute with a fee-shifting provision,
but is settled with the creation of a common fund.” Id.
at 564. Analyzing the scope of Dague, the panel
explained that “Dague, by its terms, applies only to
statutory fee-shifting cases,” and concluded that “its
reasoning is largely based on the statutory language
of fee-shifting provisions.” Id. Given that such
statutes do not address the award of fees from a
common fund—an award made pursuant not to
statute, but to a court’s inherent powers to effect
equity—the Seventh Circuit held that Dague’s
holding does not apply in such a context. See id.
Turning to the policy considerations animating
Dague, the Seventh Circuit further concluded that
such considerations do not support application of the
Dague holding in the equitable fund context. As the
panel explained, “[u]nlike in fee-shifting cases ..., the
fee award in a common fund case is ultimately
charged against the plaintiffs’ fund, rather than
directly against the defendant. Thus, the defendant’s
liability is fixed-it cannot exceed the amount of the
common fund the defendant has agreed to pay.” Id.
Accordingly, any risk of “unduly burdening the
defendant with a multiplier to compensate for risk of
loss” is not present. Id. (internal quotation marks
omitted). The Seventh Circuit explained that this
distinction between awarding fees directly from the
defendant and awarding such fees from a fund
created for the benefit of the plaintiffs was a material
one, not simply a formal one: in contrast to taxing a
losing defendant with a lodestar enhancement,
awarding a fee from a common fund taxes plaintiffs,
who, in contrast to the defendant, benefited from an
attorney taking the case with no guarantee of

39a
compensation, as well as from the creation of the fund
itself. See id. at 565 (“[T]here is no injustice in
requiring plaintiff class members to shoulder the
burden of compensating counsel for prosecuting the
class’ case without any assurance of compensation.”).
Finally, the Seventh Circuit explained that
allowing an award of fees from a common fund was in
no way inconsistent with the goal of the fee-shifting
provisions in question. In the Seventh Circuit’s
estimation, such fee-shifting provisions have two
purposes: to shift the burden of paying expenses to
defendants and, more broadly, to “enabl[e]
meritorious plaintiffs who would not otherwise be
able to afford to bring a lawsuit under [the statute], to
pursue their claims.” Id. at 564; see also id. at 562-63
(“These fee-shifting statutes were enacted for the
purpose of encouraging the private prosecution of
certain favored actions, by requiring defendants who
have violated plaintiffs’ rights to compensate
plaintiffs for the costs they incurred to enforce those
rights.” (citing Suffolk, 907 F.2d at 1327)). Under the
common fund doctrine, although funds come from the
settlement fund, the fund itself is paid for by
defendants, and it is understood during negotiations
that the settlement fund will cover attorney’s fees.
See id. at 564. More significantly, the availability of
the common fund doctrine, not unlike the existence of
a fee-shifting provision, serves as another way of
incentivizing counsel to take a case notwithstanding
plaintiffs’ inability to pay. The Seventh Circuit thus
held that the doctrine “comports with the” policy of
fee-shifting provisions - to encourage the bringing of
such suits—and there is no reason to infer that the
statute should be read to abrogate the use of common
fund principles.

40a
On the basis of these distinctions - both textual and
normative—as well as the court’s understanding of
the interaction between a fee-shifting provision’s
purpose and the equitable fund doctrine, the Seventh
Circuit held that a risk multiplier was indeed
available in the equitable context of awarding a fee
from a common fund created for the benefit of
plaintiffs, even if not in the statutory context of
awarding a fee from the defendant pursuant to a feeshifting provision. See Florin, 34 F.3d at 565.
The Ninth Circuit subsequently reached the same
conclusion. In Staton, the court addressed “whether
the existence of potentially applicable fee-shifting
statutory provisions precludes class counsel from
recovering attorneys’ fees under the common fund
doctrine,” and concluded that it does not. 327 F.3d at
967-69; see also id. at 967 (making clear that a risk
multiplier would be permitted under common fund
principles, although not under statutory fee-shifting
principles). Explaining its decision, the court began
by discussing the nature of the common fund doctrine.
Although the general rule that “attorney’s fees ... are
not a recoverable cost of litigation ‘absent explicit
congressional authorization’” would preclude a court
from awarding a fee from a defendant absent
affirmative authorization in a statute, Key Tronic
Corp. v. United States, 511 U.S. 809, 814 (1994)
(quoting Runyon v. McCrary, 427 U.S. 160, 185 (1976)
(citing Alyeska Pipeline Service Co. v. Wilderness
Society, 421 U.S. 240,247 (1975))), the Ninth Circuit
explained that that background rule would “not
prohibit the award of fees under the common fund
doctrine,” Staton, 327 F.3d at 968; see also Boeing Co.
v. Van Gemert, 444 U.S. 472, 481 (1980) (noting that,
in a case where the defendant’s liability was fixed by
the settlement amount, “the common-fund doctrine, ...

41a
is entirely consistent with the American rule against
taxing the losing party with the victor’s attorney’s
fees”). Thus, while a court would require specific
congressional authorization to shift fees from a losing
party to a prevailing party, the opposite presumption
would apply to the availability of a common fund
award: Congress would have to have “forbidden the
application of the common fund doctrine in cases in
which attorneys could potentially recover fees under
the type of fee-shifting statutes at issue here” for that
doctrine—otherwise
available
under
general
equitable principles—to be abrogated. Id. at 968
(emphasis added). The Ninth Circuit went on to hold,
as had the Seventh Circuit, that the intent to render
unavailable a common fund award could not be
inferred from the existence of such fee-shifting
provisions, in part because “[t]he intent of the feeshifting provisions ... is not countered by the
application of common fund principles.” Id.
In addition to its core argument, the Ninth Circuit
also
cited
two
additional
and
persuasive
considerations. First, the court observed that
“contingent fee agreements between counsel and
client are valid in cases where statutory fees are
available,” and “[c]ommon fund fees are essentially an
equitable substitute for private fee agreements.” Id.
Second, the court cited to a previous Ninth Circuit
case that had stated, in holding that the Dague
presumption does not generally apply in the context
of an award of fees from a common fund, that “the
concerns expressed in Dague about unduly burdening
losing parties in statutory fee cases are not present in
common fund cases where fees are paid out of the
settlement fund. How the fund is divided between
members of the class and class counsel is of no
concern whatsoever to the defendants who

42a
contributed to the fund.” In re Washington Pub.
Power Supply Sys. Sec. Litig., 19 F.3d 1291, 1301 (9th
Cir. 1994).
This Court agrees with these cases and their
collective reasoning: Dague and Perdue relied on
interpretations of specific statutory provisions to hold
that a lodestar multiplier would rarely be available
when a plaintiff moves for a reasonable attorney’s fee
from a defendant pursuant to a fee-shifting statute.
As Florin, Staton, and Suffolk persuasively explain,
an award of fees under equitable principles is not
governed by these statutes, nor subject to their text;
the normative analyses in these cases neither
requires—nor suggests—that the Dague and Perdue
presumption should be applied when a court awards
fees from a common fund; and none of the purposes of
these fee-shifting provisions is obviously compromised
by application of common fund principles.
Finally, the Court observes two additional reasons
that Dague and Perdue do not apply in the common
fund context. First, as noted, Florin and Staton both
find it significant that a statutory fee is taxed directly
to a defendant, whereas an award from a common
fund—although it comes from funds provided by the
defendant—is taxed to the class’s recovery. This
distinction is significant for an additional reason not
identified in these cases: Plaintiffs, unlike
defendants, are capable of avoiding the potential for
any lodestar enhancement by opting to pay their
counsel directly as the case progresses, rather than
hire counsel on contingency. In electing to hire
counsel on a contingent basis, plaintiffs trade the risk
of footing the bill in the event of non- recovery for the
possibility that counsel may end up being paid more
than what plaintiff would have had to pay for a noncontingent arrangement (which presumably would

43a
approximate the lodestar). It is plainly unfair to tax
the defendant for the plaintiffs choice to proceed in
such a manner—i.e. to charge a defendant directly for
contingency risk—as such a policy would have the
effect of requiring the defendant to internalize the
downside of the plaintiffs gamble, while providing
plaintiff the upside of that gamble. But it is not unfair
to tax such an enhancement against the plaintiff, or,
here, the plaintiff class, which thus internalizes the
benefits and detriments of the contingency agreement
to which the plaintiffs explicitly or implicitly agreed.
See Goldberger, 209 F.3d at 47 (noting that the
availability of a fee from the common fund derives
from equitable principles, and the “rationale for the
doctrine is an equitable one: it prevents unjust
enrichment of those benefitting from a lawsuit
without contributing to its cost”).
Second, although the Objector cites potential (and
not unpersuasive) incentive problems with allowing
for a lodestar enhancement in the common fund
context, he fails to grapple with the significant
benefits to permitting a district court the discretion to
award such enhancements—benefits which may serve
a class and, in turn, the purposes of fee-shifting
regimes. The Second Circuit has held that the
availability of the percentage method to calculate a
fee award from a common fund can serve as a benefit
to the class in two ways: first, by aligning counsel’s
incentives with the class at the time the settlement is
negotiated (by tying counsel’s recovery to the size of
the fee) and second, by counteracting any incentive
counsel might have to eschew early settlement so as
to increase their lodestar over the course of protracted
litigation. See Wal-Mart Stores, Inc. v. Visa US.A.,
Inc., 396 F.3d 96, 121 (2d Cir. 2005) (“The trend in
this Circuit is toward the percentage method, which

44a
directly aligns the interests of the class and its
counsel and provides a powerful incentive for the
efficient prosecution and early resolution of
litigation.” (internal quotation marks and citation
omitted)); McDaniel, 595 F.3d at 419 (acknowledging
problems with the percentage method, but
nevertheless explaining that “the percentage method
has the advantage of aligning the interests of
plaintiffs and their attorneys more fully by allowing
the latter to share in both the upside and downside
risk of litigation”); Hayes v. Harmony Gold Min. Co.,
509 F. App’x 21, 23-24 (2d Cir. 2013) (summary order)
(affirming an awarded fee of one third of a $9 million
settlement, and noting that “the prospect of a
percentage fee award from a common settlement
fund, as here, aligns the interests of class counsel
with those of the class”); Hayes v. Harmony Gold Min.
Co., No. 08 CIV. 03653 (BSJ), 2011 WL 6019219, at *1
(S.D.N.Y. Dec. 2, 2011) (providing the details of the
settlement and fee award). Of course, at the time a
fee is awarded from a settlement fund, there is no
question that a lower fee benefits the class - insofar as
the class receives a greater percentage of the fund.
But the incentive structure created by the availability
of a lodestar multiplier or percentage-of-the-fund
recovery is, in the aggregate, beneficial to the class. It
is these benefits that support the determination that
a district court should have discretion to rely on the
percentage method when appropriate, and nothing in
Dague or Perdue suggests the intention to eliminate
this discretion.
In response to this precedent - from the Second
Circuit and beyond—the Objector points to several
circuit opinions he claims have adopted his position.
Obj. Mem. at 8-10. None of these cases addresses the

45a
question before this Court or is directly contradictory
to the Court’s conclusion.
First, in Pierce v. Visteon Corp., the Seventh Circuit
addressed a scenario distinct from that at issue here:
when a court awards fees (after a verdict) pursuant to
a fee-shifting statute, and then lead counsel moves for
additional fees from a damages award under common
fund principles. 791 F.3d 782, 786 (7th Cir. 2015)
(“[C]ounsel asks us to put ERISA to one side and hold
that he is entitled, in addition to $303,000 from [the
defendant awarded pursuant to a fee-shifting
provision after a verdict], to a supplemental award
from the class.”). The court held that such an
additional award would “undercut if not countermand
Dague and similar decisions.” Id. at 787. It is true
that, notwithstanding the factual context of its
holding, some of the language in Pierce appears to
support the Objector’s position. See id. (“Three
principle reasons justify limiting the common-fund
approach to cases outside the scope of a fee-shifting
statute.”). Nevertheless, the Seventh Circuit’s holding
was limited to the facts of the case, see id. (“A
common-fund award ... often builds in a multiplier in
the cases where counsel prevails. Adding a commonfund award to a statutory ‘reasonable’ fee would
undercut if not countermand Dague and similar
decisions.”), and the court at no point addressed or
purported to overturn Florin. Although it is possible
for one panel in the Seventh Circuit to overturn a
prior panel, it is hard to imagine that the Pierce panel
intended to do so sub silentio and without analysis.
See United States v. Reyes-Hernandez, 624 F.3d 405,
412 (7th Cir. 2010) (citing the “long-standing
principle [in the Seventh Circuit] that [a panel] may
not overturn circuit precedent without compelling
reasons”).

46a
In Brytus, the Third Circuit addressed the same
hybrid scenario (where a court awards a fee pursuant
to a fee-shifting statute, and counsel then moves for
an additional award from a common fund), and held
that a district court did not abuse its discretion in
declining, in such a situation, to award additional
fees. See 203 F.3d at 247. The court explicitly
distinguished the hybrid scenario from the scenario in
this case. See id. at 246 (“This, of course, is not a case
that was concluded by settlement. This case was tried
to judgment, and a fee awarded on that basis.”).
Further, the Brytus court made clear that it was
deciding no more than that the district court acted
within its discretion in declining to provide the
requested enhancement even in the hybrid scenario not whether or not such fees could ever be available.
See id. at 243 (“[T]he fact that a common fund has
been created does not mean that the common fund
doctrine must be applied in awarding attorney’s fees,
a suggestion that is implicit in counsel’s argument.”
(emphasis added)). It did not conclude that such an
enhancement was not available should a court choose
to award it.
Of particular note, in Brytus, the Third Circuit
addressed the Objector’s normative argument in this
case - that distinctions in how fees are awarded in the
common fund and statutory contexts could create
perverse incentives for counsel - and rejected it. Lead
counsel argued in Brytus that, if the court declined to
award additional common fund fees in addition to the
statutory award, the fact that such fees would have
been available had the case settled through creation
of a common fund would create problematic
incentives. See id. at 246 (“Of the many additional
arguments counsel raise, the one that we believe
requires some discussion is their contention that the

47a
District Court penalized them for proceeding to
judgment, which resulted in the award of a statutory
fee, whereas they would have been entitled to a fee
under the common fund doctrine had they accepted a
settlement. Counsel argue that, as a result, lawyers’
self-interest might lead them to accept an otherwise
inadequate settlement rather than rely on the
vagaries of a court-awarded counsel fee.”). The Third
Circuit acknowledged this possibility, but stressed,
inter alia, that “the distinction between the statutory
fee and the fee from a common fund is more than the
amount of the fee; it is the party who pays the fee,”
and made clear that “by far the largest number of
ERISA cases to apply the common fund analysis are
those that were settled, which, as we have noted,
present a different circumstance.” Id. at 247; see also
id. at 248 (Stapleton, J., dissenting) (suggesting his
“colleagues are content to have one set of principles
apply to settlements and another to judgments”).5 The
Third Circuit thus not only did not adopt the
Objector’s position in, but in fact rejected it.
Finally, in Haggart v. Woodley, the Federal Circuit
similarly held that an additional enhancement from a
common fund is not generally available after a party
receives funds pursuant to a fee-shifting provision.
809 F.3d 1336, 1341-42 (Fed. Cir.), cert. denied, 136 S.
Ct. 2509 (2016) (addressing a scenario where the
parties reached a settlement awarding a statutory
The one judge who dissented from the majority’s position
did not endorse any variation of the Objector’s position in this
case. Instead, he argued that courts should generally permit
an additional award from a common fund created after
judgment in addition to a statutory fee, a holding he
suggested would have the effect of eliminating the incentive
issues the Objector invokes. See id. at 247-248.
5

48a
attorney’s fee, and then class counsel moved for an
additional award from the settlement fund under the
common-fund doctrine). Although some of the
language in Haggart supports the Objector’s position,
the Government in that case argued, and the Court
held, that “[t]here is no basis in equity for awarding
common-fund fees as well as [statutory] fees.” Id. at
1355 (emphasis added).
Whether or not Haggart, Pierce, and Brytus were
correctly decided (and the Court notes that the
Second Circuit has not yet weighed in on the hybrid
scenarios at issue in these cases), it is evident their
holdings do not apply to the present case.
In sum, the Second Circuit has suggested—
although not explicitly held—that statutory feeshifting principles do not govern the award of a fee
from a common fund created after settlement even
when a statute contains a fee-shifting provision, and
both circuits to address the question directly have
persuasively determined that the limitations in
Dague and Perdue do not apply to such a context. The
Court agrees, and holds that the presumption against
a lodestar enhancement in statutory fee-shifting cases
does not limit a court’s discretion to award such an
enhancement in calculating a reasonable attorney’s
fee from a common fund, even where the claims
settled are otherwise subject to fee-shifting
provisions.
B. In Any Event, the Claims Asserted in this
Case Do Not Contain Fee-Shifting Statutes
Analogous to Those in Dague and Perdue
Even were the Court to hold that the presumption
against a lodestar enhancement at issue in Dague
governs the award of attorney’s fees from a common
fund created after a settlement- a proposition the

49a
Court rejects—the Court would still disagree that
such a presumption applies in this case. That is
because no claim settled in this case contains a feeshifting provision analogous to that at issue in Dague
and Perdue.
As noted, the Objector’s position relies on two
premises: that Dague and Perdue apply to equitable
awards, and that the claims in this case are subject to
fee-shifting provisions that would trigger the
presumption against a lodestar enhancement. As
justification for the second premise, the Objector cites
three fee-shifting provisions that he argues govern
the claims in this case. Obj. Mem. at 3-6. First, the
Objector points to provisions under the Securities Act
that allow the court to award attorney’s fees to either
party when the court “believes the suit or the defense
to have been without merit.” 15 U.S.C. §77k(e).
Second, the Objector points to provisions under the
Private Securities Litigation Reform Act of 1995
(“PSLRA”), 109 Stat. 737, that, for purposes of the
Exchange Act claims, allow the court to award
attorney’s fees as a sanction for violations of Federal
Rule of Civil Procedure 11, 15 U.S.C. §78u-4(c).
Finally, the Objector argues that, although no
additional fee-shifting provision is explicitly provided
for under the judicially- implied remedy to enforce §
1O(b)of the Exchange Act, Supreme Court precedent
requires the conclusion that the fee-shifting
provisions in Sections 9 and 18 of that Act also govern
claims brought to enforce Section 10(b). See Obj.
Mem. at 4-6 (citing Lampf, Pleva, Lipkind, Prupis &
Petigrow v. Gilbertson, 501 U.S. 350 (1991) and
Musick, Peeler & Garrett v. Employers Ins. of
Wausau, 508 U.S. 286 (1993)).
The Court addresses these arguments as follows:
first, the Court holds that the broader fee-shifting

50a
provision governing Sections 9 and 18 of the
Exchange Act is not incorporated by analogy into the
implied right-of-action under Section 10(b). As to the
remaining fee-shifting provisions provided for by
statute, the Court finds that material distinctions
between these narrower provisions and the broader
fee-shifting provisions at issue in Dague and its
progeny require the conclusion that, even if Dague
were to operate to limit a court’s discretion in
awarding fees pursuant to a common fund, such
limitation would not apply here.
1.

Binding Second Circuit Authority
Requires the Conclusion that the Feeshifting Provisions in Sections 9 and 18 of
the Exchange Act Are Not Incorporated
by Analogy into an Action Based on
Section 10(b)

First, the Court addresses the Objector’s argument
that Section 10(b) includes, by analogy, the feeshifting provisions explicitly provided for under
Sections 9 and 18 of the Exchange Act (such that the
claims in this case are governed by fee-shifting
provisions analogous to those in Dague). As the
Objector notes, the Supreme Court has, in the past,
looked to the express causes of action under Sections
9 and 18 of the Exchange Act to define the contours of
the implied cause-of-action under §10(b). See Lampf,
501 U.S. at 360-61 (looking to Sections 9 and 18 to
determine, by analogy, the statute of limitations for
the implied cause-of-action under §10(b)); Musick, 508
U.S. at 294-97 (engaging in the same inquiry to find
that the implied cause-of-action under §10(b) includes
a right of contribution). Relying on these cases, the
Objector argues that, because Sections 9 and 18
include a broad fee-shifting provision, see 15 U.S.C. §
78i(f) (“In any such suit the court may, in its

51a
discretion, require an undertaking for the payment of
the costs of such suit, and assess reasonable costs,
including reasonable attorneys’ fees, against either
party litigant.”), it follows that Congress, had it had
occasion to consider the question, would have
intended for the implied cause-of-action to enforce
§10(b) to similarly include such a provision, see Obj.
Mem. at 6; see also Key Tronic Corp., 511 U.S. at 815
(“The absence of specific reference to attorney’s fees is
not dispositive if the statute otherwise evinces an
intent to provide for such fees.”).
The Objector’s argument is not without force.
Nevertheless, even were this Court inclined to adopt
the argument were it to assess it on a blank slate,
binding Second Circuit authority precludes such a
holding.
First, in Van Alen v. Dominick & Dominick, Inc.,
the Second Circuit rejected the precise argument the
Objector now makes - although without the benefit of
Lampf or Musick. 560 F.2d 547 (2d Cir. 1977). In Van
Alen, the appellees also argued that, although “no
statutory provision permit[s] the award of attorneys’
fees to a successful party in an action based on
Section 10(b) of the Securities Exchange Act of 1934,
pursuant to which Rule 10b-5 was promulgated, ...
such fees should be allowed by analogy to the express
allowance of attorneys’ fees in connection with the
two statutorily authorized private rights of action
under Sections 9(e) and 18(a) of the 1934 Act.” Id. at
553. The Second Circuit rejected this argument. Id.
The court noted that “the circumstances under which
attorneys’ fees are to be awarded and the range of
discretion of the courts in making those awards are
matters for Congress to determine.” Id. (quoting
Alyeska Pipeline Service Co., 421 U.S. at 262). In the
panel’s estimation, “Congress ha[d] been on notice

52a
that the courts would imply a private right of action
under Rule 10b-5 at least since the early 1950s ...
[but] ha[d] not expressly authorized fee awards in
such cases during the intervening years.” Id. at 55354 (internal citations omitted). Such history was “at
least as consistent with the thesis that Congress did
not intend to allow such awards as . . . with the thesis
put forward by appellees.” Id. at 554. The Circuit thus
held that “in the absence of a clear expression of
congressional intent, the district court properly
denied appellees’ motion for attorneys’ fees.” Id.
Van
Alen
predated
Lampf
and
Musick.
Nevertheless, in 1993, after both Supreme Court
cases had been decided, the Second Circuit again
affirmed that attorney’s fees are not available in 10(b)
actions. In Cotton v. Slone, the Second Circuit stated,
although without analysis, that “although attorney’s
fees are not permitted in actions brought solely under
section 10(b) of the Securities and Exchange Act,
attorney’s fees may be awarded on a pendent state
law claim if the claim permits such an award and if
the claimant has established the elements necessary
for recovery on the pendent state law claim.” 4 F.3d at
181; see also Mazuma Holding Corp. v. Bethke, l F.
Supp. 3d 6, 19 (E.D.N.Y. 2014) (citing to Cotton for
the same proposition). The Cotton panel did not cite
Van Alen. See Cotton, 4 F.3d at 181. The holding in
Cotton did reaffirm the Second Circuit’s position that
attorney’s fees are not generally available in an action
under Section 10(b).
The Objector does not deny this precedent. He
instead argues that any decision by the Second
Circuit holding that attorney’s fees are not available
in 10b-5 actions has been abrogated in the years
since—both by provisions in the PSLRA, and by the

53a
holdings in both Lampf and Musick. The Court
disagrees as to both counts.
a. The PSLRA Does Not Abrogate Van Alen
and Cotton
First, the Objector argues that the PSLRA contains
a provision which “independently authorizes district
courts to require bonds and to shift fees in any
Exchange Act case that is certified as a class action,”
and thereby abrogates the holdings in Van Alen and
Cotton. See Obj. Sur-reply at 2 (Dkt. No. 121) (citing
15 U.S.C. § 78u-4(a)(8)). Not so.
§78u-4(a)(8) of the PSLRA states as follows:
(8) Security for payment of costs in
class actions
In any private action arising under this
chapter that is certified as a class action
pursuant to the Federal Rules of Civil
Procedure, the court may require an
undertaking from the attorneys for the
plaintiff class, the plaintiff class, or both, or
from the attorneys for the defendant, the
defendant, or both, in such proportions and
at such times as the court determines are
just and equitable, for the payment of fees
and expenses that may be awarded under
this subsection.
15 U.S.C. § 78u-4 (emphasis added).
As Lead Counsel argued at the class action fairness
hearing, the text of this provision merely authorizes
securities for the payment of fees that may be
awarded under the “subsection” in which it appears.
See June 13, 2016 Tr. at 19-20. Under that
subsection, the PSLRA lays out a presumption in
favor of the award of attorneys’ fees and costs for

54a
violation of Federal Rule of Civil Procedure 11.
15 U.S.C. §78u-4(c)(3). Thus, the most reasonable
meaning of the text is that a security may be set aside
to ensure such a fee is available—so as to provide
teeth to any such sanctions.
Even were the Court to ignore the limitation “under
this subsection” included in the text and assume that
the provision allows for a security to be set aside to
pay any available fees, the text would still not support
the conclusion that attorney’s fees are available under
a 10b-5 suit. That is because, by its clear terms, the
provision does not create any new substantive rights
to attorney’s fees; it simply provides a mechanism for
a court to require a security to pay whatever
attorney’s fees may otherwise be available. Whether
or not such fees are available, then, is in no way
answered or addressed by the provision.
b. Lampf and Musick Do Not Abrogate Van
Alen and Cotton
Second, the Objector argues that the reasoning in
Lampf and Musick implicitly abrogates the holding in
Van Alen, such that that case’s holding no longer
binds this court. “[A]s a general rule,” prior decisions
by the Second Circuit bind subsequent panels of the
circuit - as well as district courts. Union of Needle
trades, Indus. & Textile Employees, AFL-CIO, CLC v.
US. INS., 336 F.3d 200, 210 (2d Cir. 2003). However,
there exists an exception to this rule when the prior
decision’s “rationale is overruled, implicitly or
expressly, by the Supreme Court, or the Second
Circuit court in banc.” In re S. African Apartheid
Litig., 15 F. Supp. 3d 454, 460 (S.D.N.Y. 2014) (citing
World Wrestling Entm’t Inc. v. Jakks Pac., Inc., 425 F.
Supp. 2d 484, 499 (S.D.N.Y. 2006)) (internal

55a
quotation marks and alteration omitted). Such is not
the case here.
First, although Van Alen was decided prior to
Lampf and Musick, Cotton was decided after both of
them. Compare Cotton, 4 F.3d at 176 (noting that the
case was argued on June 4, 1993, and decided on
September 10, 1993); with Musick, 508 U.S. at 286
(noting that the case was decided on June 1, 1993).
Cotton did not address either Lampf or Musick, or
revisit the analysis of Van Alen; nevertheless, neither
of these Supreme Court cases is an intervening
authority for purposes of the Cotton holding, an
argument the Objector makes no attempt to confront.
See Objector Sur-reply at 1.
In any event, even assuming Lampf and Musick did
operate as intervening authority in this case, “it is
insufficiently clear to this Court” that either case—
neither of which addressed statutory fee-shifting
provisions—may be read to “implicitly overrule” Van
Alen. World Wrestling Entm’t, Inc., 425 F. Supp. 2d at
500. An analysis of the reasoning and holdings of
these cases makes this conclusion evident.
In Lampf, the Supreme Court, faced with the
question of how to determine the applicable statute of
limitations for the implied cause-of-action under
section 10(b), held that, “where ... the claim asserted
is one implied under a statute that also contains an
express cause of action with its own time limitation, a
court should look first to the statute of origin to
ascertain the proper limitations period.” 501 U.S. at
359. The Court acknowledged the “state-borrowing
doctrine,” or the “usual rule that when Congress has
failed to provide a statute of limitations for a federal
cause of action,” a court should look to the “local time
limitation most analogous to the case at hand.” Id. at

56a
355-56. Nevertheless, faced with “the awkward task
of discerning the limitations period that Congress
intended courts to apply to a cause of action it really
never knew existed,” the Court determined that
analogous provisions in the Exchange Act, namely
Sections 9 and 18, provided a better source. Id. at
359-60. Significantly, the Supreme Court recognized
that, notwithstanding ambiguity as to Congressional
intent, “a [statute of limitations] period [had to be]
selected,” and noted that, although “[o]n rare
occasions, th[e] Court ha[d] found it to be Congress’
intent that no time limitation be imposed upon a
federal cause of action,” neither party took that
position before the Court. Id. at 356 & n.3.
Additionally, in holding that the statutes of limitation
in Sections 9 and 18 should be incorporated into
Section 10(b), the Court joined “every Court of
Appeals” that had yet assessed the question. Id. at
362.
In Musick, the Court faced the question of “whether
a right to contribution is within the contours of the
l0b-5 action.” 508 U.S. at 294. In engaging with the
question, the Court acknowledged that, in the past, it
had inquired whether particular statutes “expressly
or by clear implication envisioned a contribution right
to accompany the substantive damages right created,
or, failing that, whether Congress intended courts to
have the power to alter or supplement the remedies
enacted.” Id. at 291 (internal quotation marks and
citation omitted). The Court noted that such
investigation of Congressional intent, however, was of
limited use in explicating a judicially-created right of
action. See id. Thus, the Court turned to analogous
provisions in the Exchange Act—Sections 9 and 18—
and again determined that, because a right of
contribution was included in both express causes of

57a
action, Congress would have intended such a right to
exist in the context of 10(b). See id. at 295-96. Finally,
the Court noted, as it had in Lampf, that its
conclusion was “consistent with the rule adopted by
the vast majority of Courts of Appeals and District
Courts that have considered the question,” a point “of
particular importance because in the more than 20
years since a right to contribution was first
recognized for 10b-5 defendants, neither the
Securities and Exchange Commission nor the federal
courts [had] suggested that the contribution right
detracts from the effectiveness of the 10b-5 implied
action or interferes with the effective operation of the
securities laws.” Id. at 297-98 (internal citations
omitted).
There is no question that Musick, and to some
extent Lampf, lend support to the Objector’s position:
that the analogy rejected in Van Alen has been
rehabilitated by the Supreme Court. Nevertheless,
and putting aside that Cotton post-dates these
decisions—the cases do not clearly overturn binding
Second Circuit precedent for several reasons. First,
neither decision addressed the availability of
attorney’s fees, and thus neither had occasion to
confront case-law suggesting, in the fee-shifting
context, that Courts presume no such fees to be
available absent clear Congressional intent. See Key
Tronic Corp., 511 U.S. at 814-15; see also Van Alen,
560 F.2d at 553 (relying on such case-law). In Musick,
the Court did note that a search for clear intent by
Congress to create a right of contribution would be
futile in the context of a judicially created cause of
action. 508 U.S. at 291; see also id. at 291-92 (“Having
implied the underlying liability in the first place, to
now disavow any authority to allocate it on the theory
that Congress has not addressed the issue would be

58a
most unfair to those against whom damages are
assessed.”). Nevertheless, the presumption in favor of
the American Rule is a significant one on which Van
Alen relied, and nothing in Musick or Lampf directly
confronts it.
Second, in both cases the Supreme Court pointed
out that numerous courts had already interpreted the
private right of action under §10(b) to borrow its
statute of limitations and right of contribution from
Sections 9 and 18. See Lampf, 501 U.S. at 362;
Musick, 508 U.S. at 297-98. In contrast, the Objector
has pointed to no case that has held attorney’s fees to
be routinely available under the 10b-5 private right of
action. The distinction is relevant under the
reasoning in Musick: in that case, the Court, as noted,
found the existence of extensive supporting precedent
relevant because “in the more than 20 years since a
right to contribution was first recognized for 10b-5
defendants, neither the Securities and Exchange
Commission nor the federal courts [had] suggested
that the contribution right detracts from the
effectiveness of the 10b-5 implied action or interferes
with the effective operation of the securities laws.” Id.
at 298 (internal citation omitted). The inverse
argument would apply here: despite courts not
generally reading a fee-shifting provision into such
actions, there is no indication that that absence has
affected the viability or effectiveness of such suits.
In short, neither Lampf nor Musick directly
addressed the issue here, and their reasoning is—if
plainly not irrelevant—at least distinguishable. In
such a circumstance, the Court cannot ignore binding
Second Circuit authority, some of which post-dates
these decisions. The Court thus concludes that the
only fee-shifting provisions available in this case are
the ones expressly provided for by statute, allowing

59a
for fees
defense
§77k(e),
Federal
4(c).
2.

only when a court “believes the suit or the
to have been without merit,” 15 U.S.C.
or when the Court sanctions a party under
Rule of Civil Procedure 11, 15 U.S.C. §78u-

The Express Fee-Shifting Provisions
Available in this Case Are Materially
Distinct from those in Dague and its
Progeny

As to those express fee-shifting provisions, the
Court finds that material distinctions between such
narrow provisions and the broad fee-shifting
provisions in Dague and its progeny require the
conclusion that, even if Dague could be read to apply
in the common fund context, its presumption would
not apply here.
In Dague and Perdue, as in Pierce, Brytus, and
Haggart, courts assessed the award of fees pursuant
to traditional fee-shifting statutes under which a
prevailing plaintiff is generally entitled to a
reasonable fee. See, e.g., Dague, 505 U.S. at 561-62
(noting that the statute at issue provided for a fee to a
“prevailing or substantially prevailing party” and was
thus “similar to ... many other federal fee-shifting
statutes”).
In contrast to these statutory fee-shifting
provisions, the express fee-shifting provisions in this
case are much narrower, allowing for fees only when
a court “believes the suit or the defense to have been
without merit,” 15 U.S.C. §77k(e), or when the Court
sanctions a party under Federal Rule of Civil
Procedure 11, 15 U.S.C. §78u-4(c). Such provisions
are materially distinct from those in Dague in two
ways fatal to the Objector’s argument. First, the fee
provisions in the statutes in this case have distinct

60a
purposes from those in traditional fee-shifting
statutes. Cf. Suffolk, 907 F.2d at 1327 (acknowledging
that if “the operation of the equitable fund doctrine
conflicts with an intended purpose of a relevant feeshifting statute, the statute must control” (emphasis
added)). Whereas the fee provisions at issue in Dague
and its progeny arguably evince a Congressional
intent to have defendants pay plaintiffs’ counsel’s
fees,6 the narrower provisions at issue here are
designed to deter both parties from abusing the
judicial process. See, e.g., W. Fed. Corp. v. Erickson,
739 F.2d 1439, 1444 (9th Cir. 1984) (noting that fees
under §77k(e) are available only when a defense
“borders on the frivolous or is brought in bad faith”).
Such a distinction is significant, given that courts
that have extended the Dague presumption to the
hybrid fee context (where a reasonable fee has
already been paid pursuant to statute) have cited the
Congressional purpose in having defendants pay
counsel’s fee as one argument in favor of expanding
the scope of the Dague holding. See Haggart, 809 F.3d
The Court notes that, as Florin and Staton explained,
application of the common fund doctrine is not plainly
inconsistent with this purpose, and further, as the Suffolk
court itself observed, application of that doctrine is consistent
with the core purpose of fee-shifting statutes - to encourage
the prosecution of certain classes of cases notwithstanding
the plaintiff's inability to pay. See Suffolk, 907 F.2d at 1327;
Staton, 327 F.3d at 968; Florin, 34 F.3d at 564. Nevertheless,
the point the Court makes here is: even assuming, arguendo,
that application of the common fund doctrine could conflict
with the purpose of some fee-shifting statutes to have
defendants bear the costs of litigation (a point that is more
persuasive, in any case, when defendants have already paid a
fee pursuant to a fee-shifting statute as in hybrid cases such
as Pierce), such argument would be inapplicable in the
present case.
6

61a
at 1357 (“Under the URA, it is the Government, as
opposed to class counsel or another member of the
plaintiff class, who bears the reasonable cost of the
action.”).
Second, and relatedly, the Objector’s normative
arguments, although not without force in the context
of the fee-shifting statute at issue in Dague, have no
purchase in the context of the limited fee provisions
at issue here. The Objector’s primary argument in
this case is that “[t]o award Lead Counsel a larger fee
than they could recover after proving defendants
liable produces perverse incentives and places their
interests in conflict with interests of the class they
are supposed to represent.” Obj. Mem. at 2; see also
id. at 7-8 (“The fact that all claims in this case are
subject to a fee-shifting regime should preclude Lead
Counsel from seeking attorneys’ fees under a
percentage of fund methodology that produces a
significantly higher fee award than they could obtain
by proving the claims and seeking an award of fees
from defendants found liable by a trier of fact.”). Such
an argument makes little sense when applied to feeshifting provisions that allow for fees from either
party to be paid only in the rarest of circumstances.
In such a case, the availability of such fees is unlikely
to affect counsel’s incentives. Indeed, the Objector
makes no attempt to argue that, in this case, counsel
would have been reasonable in assuming there was
any possibility that fees could be recovered under any
of these provisions, and the Court sees no basis to
make such a conclusion.7
Lead Counsel represents, in a declaration in support of
approval of the settlement, that the Defendants “raised
numerous compelling arguments in their motions to dismiss
and would have repeated these arguments at summary
7

62a
In sum, there is simply no statutory or equitable
argument why the existence of the fee-shifting
provisions at issue in this case could or should in any
way affect the award of fees from the common fund.8
Even if the fee-shifting statutes in Dague and its
progeny could be read to implicitly impose such a
restriction, that restriction would not extend beyond
the fee-shifting provisions at issue in those cases. Cf.
Staton, 327 F.3d at 968 (“[U]nless Congress has
forbidden the application of the common fund doctrine
in cases in which attorneys could potentially recover
fees under the type of fee-shifting statutes at issue
here, the courts retain their equitable power to award
common fund attorneys’ fees.” (emphasis added)).
IV. The Fee Request
Having found that the Court has the discretion to
approve the requested fee award, the Court must now
determine whether or not, in its discretion, the award
judgment and trial,” Ross Decl. ¶51, and indeed the Court
acknowledged that some of these arguments might present
impediments to a Plaintiffs’ judgment in resolving the
Defendants’ motion to dismiss, see Mar. 31, 2015 Order at 24
(noting, inter alia, that the timing of the Government’s
communication with BioScrip “may cast doubt on whether the
statements or omissions [addressing BioScrip’s legal
compliance] were truly misleading”). The Court agrees with
Lead Counsel’s representation, and sees no basis to assume
that in this case Lead Counsel could reasonably have
anticipated recovering attorney’s fees under the narrow
provisions available in the Securities and Exchange Acts
claims.
The Court observes that the Objector did not argue, more
generally, that the Dague and Perdue presumptions govern
any award of fees from a common fund, regardless of whether
a fee-shifting provision otherwise exists.
8

63a
is reasonable. For the following reasons, the Court
concludes that the request is reasonable, and
approves it in full.
In awarding fees from a common fund created after
a settlement, “both the lodestar and the percentage of
the fund methods are available to district judges in
calculating attorneys’ fees” Goldberger, 209 F.3d at
50; see also McDaniel, 595 F.3d at 417. Although both
methods are available, however, “‘the trend in this
Circuit has been toward the use of a percentage of
recovery as the preferred method of calculating the
award for class counsel in common fund cases,’
particularly in complex securities class actions.”
Athale v. Sinotech Energy Ltd., 11 Civ. 05831 (AJN),
2013 WL 11310686, at *7 (S.D.N. Y. Sept. 4, 2013)
(quoting In re Beacon Assocs. Litig., No. 09 Civ.
777(CM), 2013 WL 2450960, at *5 (S.D.N.Y. May 9,
2013)); see also Wal-Mart Stores, Inc., 396 F.3d at 121
(“The trend in this Circuit is toward the percentage
method, which directly aligns the interests of the
class and its counsel and provides a powerful
incentive for the efficient prosecution and early
resolution of litigation.” (internal quotation marks
and citation omitted)). Regardless of which method
the court selects, a district court has considerable
discretion to award a fee reflecting a lodestar
enhancement designed to compensate attorneys for,
inter alia, “the risk of the litigation and the
performance of the attorneys.” Goldberger, 209 F.3d
at 47.
Even when applying the percentage method to
calculate a reasonable attorney’s fee, the lodestar is
not “irrelevant.” In re Citigroup Inc., 965 F. Supp. 2d
369, 388 (S.D.N.Y. 2013). The Second Circuit has
endorsed the use of the lodestar as a “‘cross-check’ on
the reasonableness of the requested percentage.”

64a
Goldberger, 209 F.3d at 50 (quoting In re General
Motors Corp. Pick-up Truck Fuel Tank Prod. Liability
Litig., 55 F.3d 768, 820 (3d Cir. 1995)). A district
court relying on the cross-check approach need not
“exhaustively scrutinize[]” “the hours documented by
counsel.” Id. Nonetheless, the approach can help
affirm that the requested percentage is not, given the
circumstances, excessive.
Finally, “[n]o matter which method is chosen,
district courts should continue to be guided by the
traditional criteria in determining a reasonable
common fund fee, including: ‘(l) the time and labor
expended by counsel; (2) the magnitude and
complexities of the litigation; (3) the risk of the
litigation ...; (4) the quality of representation; (5) the
requested fee in relation to the settlement; and (6)
public policy considerations.’” Wells Fargo Bank, N.A.
v. ESM Fund I, LP, No. 10 Civ. 7332 (AJN), 2013 WL
2395615, at *1 (May 31, 2013) (citing Goldberger, 209
F.3d at 50). Ultimately, the “[d]etermination of
‘reasonableness’ is within the discretion of the district
court.” In re Interpublic Sec. Litig., No. 02 Civ.
6527(DLC), 2004 WL 2397190, at* 10 (S.D.N.Y. Oct.
26, 2004) (quoting Goldberger, 209 F.3d at 47).
The Court agrees that the percentage-of-the-fund
method is appropriate in this case as a starting point
to calculate a reasonable attorney’s fee. See Sinotech
Energy Ltd., 2013 WL 11310686, at *7-8. Applying
that methodology, and for the following reasons, the
Court approves the award.
a. 25% Is a Reasonable Percentage of the
Common Fund in Light of Comparable
Awards
First, Lead Counsel’s request in this case, 25
percent of a $10,900,000 common fund, “falls within

65a
the range of percentages regularly awarded in”
analogous common fund cases. See Sinotech Energy
Ltd., 2013 WL 11310686, at *8 (noting that 25% of
the common fund is reasonable in a securities class
action, but reducing this percentage on the basis that,
applying the lodestar cross-check, the award would
amount to a lodestar multiplier of 7.04); see also, e.g.,
Hayes, 2011 WL 6019219, at *1 (approving a fee in
the amount of one third of a $9 settlement fund);
Hicks v. Stanley, No. 01 CIV. 10071 (RJH), 2005 WL
2757792, at *9 (S.D.N.Y. Oct. 24, 2005) (holding that
30% of a $10,000,000 fund was reasonable, on the
basis that a “30% fee is consistent with fees awarded
in comparable class action settlements in the Second
Circuit”); see also id. (“As the size of the settlement
fund increases, the percentage of the fund awarded as
fees often decreases so as to prevent a windfall to
plaintiffs’ attorneys. A settlement amount of $10
million does not raise the windfall issue in the same
way as would a $100 million settlement, and a 30%
fee does not produce such a windfall.” (internal
citation omitted)); id. (collecting cases for the
proposition that courts routinely award a percentage
amounting to approximately 1/3 of a 10 million dollar
settlement); Pl. Mem. at 6-7 (collecting numerous
additional examples). Indeed, the Second Circuit
regularly affirms similarly sized awards. See, e.g.,
Hayes, 509 F. App’x at 23-24; see also id. (noting that
“Goldberger [recognizes] that ‘[w]hat constitutes a
reasonable fee is properly committed to the sound
discretion of the district court,’” and further noting
that “the prospect of a percentage fee award from a
common settlement fund, as here, aligns the interests
of class counsel with those of the class” (quoting
Goldberger, 209 F.3d at 47)).

66a
b. The Lodestar Cross-Check Supports the
Requested Award
Applying the lodestar cross-check underscores and
affirms the reasonableness of the requested
percentage. There is no question that Lead Counsel’s
lodestar multiplier of 1.39 is at the lower range of
comparable awards in common fund cases. See
Sinotech Energy Ltd., 2013 WL 11310686, at *8
(collecting examples of courts awarding lodestar
multipliers of “between four and five”); In re Telik,
Inc. Sec. Litig., 576 F. Supp. 2d 570, 590 (S.D.N.Y.
2008) (“[L]odestar multiples of over 4 are routinely
awarded.”); Maley v. Del Global Techs. Corp. 186 F.
Supp. 2d 358, 369 (S.D.N.Y. 2002) (noting that
multiplier of 4.65 was “well within the range awarded
by courts in this Circuit and courts throughout the
country”); see also Wal-Mart Stores, Inc., 396 F.3d at
123 (noting that, although in a megafund case, the
lodestar multiplier of 3.5 “ha[d] been deemed
reasonable under analogous circumstances”); Pl.
Mem. at 9-10 & n.8 (collecting numerous cases). This
multiplier is especially reasonable given the fact that
the lodestar does not reflect any work Lead Counsel
has done since December 18, 2015 or will do
subsequent to the date of the publication of this order.
Ross Decl. ¶90; cf. In re Facebook, Inc. IPO Sec. &
Derivative Litig., MDL No. 12-2389, 2015 WL
6971424, at *10 (S.D.N.Y. Nov. 9, 2015), aff’d sub
nom. In re Facebook, Inc., 674 F. App’x 37 (2d Cir.
2016) (summary order) (finding, in awarding a fee of
33% of a $26.5 million settlement fund, amounting to
a lodestar multiplier of 1.02, that the fact that “the
work in [the] matter [was] not yet concluded for
[p]laintiffs’ counsel who will necessarily need to
oversee the claims process, respond to inquiries, and
assist Class Members in submitting their Proof of

67a
Claims” supported the reasonableness of the award).
Indeed, although the Objector argues that a
presumption against any multiplier applies in this
case, counsel for the Objector acknowledged at the
Fairness Hearing that, in the context of a common
fund award, a multiplier of 1.39 or 1.4 is “not a huge
multiplier as multipliers go.” June 13, 2016 Tr. at 31.
c. The Goldberger Factors Further Support the
Requested Award
Applying the Goldberger factors further affirms the
reasonableness of counsel’s requested fee award. See
209 F.3d at 50 (listing the factors as “(1) the time and
labor expended by counsel; (2) the magnitude and
complexities of the litigation; (3) the risk of the
litigation; (4) the quality of representation; (5) the
requested fee in relation to the settlement; and (6)
public policy considerations” (internal quotation
marks and alteration omitted)). The Court observes,
as an initial matter, that the facts cited as follows are
merely examples to support the Court’s ultimate
factual conclusions as to these factors: the Court
relies on the record as a whole to support its findings,
and has not cited every relevant fact here.
1. The Time and Labor Expended by Counsel
First, there is no question that Lead Counsel
expended significant time and labor in this case. As
Lead Counsel points out, the relatively low lodestar
multiplier underscores the fact that counsel expended
almost 4,000 hours of time over a course of two years
without receiving any compensation or guarantee of
compensation. See Pl. Mem. at 2. That work included
conducting an extensive investigation of the allegedly
fraudulent misrepresentations and omissions in order
to draft the consolidated class action complaint (an
investigation that included reviewing numerous

68a
documents, conducting 72 interviews, and consulting
with experts); drafting numerous legal memoranda,
including responses to two motions to dismiss by two
sets of Defendants and a motion for reconsideration;
engaging in extensive discovery after the Court
denied in part those motions including the review of
approximately 800,000 pages of documents; and
negotiating a settlement over several months with
Defendants. See generally Ross Decl. This was not a
case where, after the filing of the Consolidated Class
Action complaint, the parties immediately turned to
settlement discussions. See Cassese v. Williams, 503
F. App’x 55, 59 (2d Cir. 2012) (summary order)
(quoting the district court as noting that the case
before it was not “the average class action where
there is a complaint served, a few things occur, and
then there is a settlement”). It was a hard-fought,
complicated case, requiring extensive work on the
part of Lead Counsel.
2. The Magnitude and Complexities of the
Litigation
Second, and for similar reasons, the Court finds
that this case was an unusually complex securities
class action. Courts in this circuit have noted, in the
past, that “[s]ecurities class actions are generally
complex and expensive to prosecute.” In re Flag
Telecom Holdings, Ltd. Sec. Litig., No. 02-CV-3400
(CM), 2010 WL 4537550, at *15 (S.D.N.Y. Nov. 8,
2010) (internal quotation marks omitted). That is so,
but in this case several complex legal and factual
questions, many of which came to the forefront in
Defendants' motions to dismiss, see generally Mar. 31,
2015 Order, rendered the litigation particularly
complicated, and those issues continued to divide the
parties throughout the settlement discussions, see
Ross Decl. ¶46. Further, the case required briefing a

69a
shifting legal landscape: the Supreme Court issued its
decision in Omnicare Inc. v. Laborers Dist. Counc.
Constr. Ind. Pension Fund, 135 S. Ct. 1318 (2015), on
March 24, 2015, altering the standard governing
when an opinion statement may be found misleading
in certain Securities actions and requiring
supplemental briefing by the parties. See Dkt. Nos.
63-66.
3. The Risk of the Litigation
Third, the risk of the litigation undoubtedly
supports Lead Counsel’s requested fee. Courts
consistently assess the risk involved in litigation
when assessing the reasonableness of an award. See,
e.g., Sinotech Energy Ltd., 2013 WL 11310686, at *56. In particular, they address three categories of risk:
(1) risks inherent in the litigation itself (i.e. hurdles to
successfully establishing liability); (2) risks that the
defendant may be unable to pay any ultimate award
(i.e. risks of recovery); and (3) contingency fee risks
(i.e. the specific risk that Lead Counsel will not be
compensated at all for its work). See In re Glob.
Crossing Sec. & ERISA Litig., 225 F.R.D. 436, 467
(S.D.N.Y. 2004) (Lynch, J.) (“From the outset ..., this
case presented significant litigation, collectability,
and contingency risks.”); see also McDaniel, 595 F.3d
at 424-25 (noting that a district court’s determination
that a case was “an ordinary civil rights case in which
liability appear[ed] reasonably certain” was not
clearly erroneous ); Sinotech Energy Ltd., 2013 WL
11310686, at *9 (noting that the facts that the case
presented “a number of risks of litigation and
recovery ... and counsel was working on a contingent
fee basis” weighed in favor “of a substantial award”).
“It is well-established that litigation risk must be
measured as of when the case is filed.” Goldberger,
209 F.3d at 55.

70a
The Court concludes that this case presented
significant risks across all three categories: litigation,
recovery, and contingency. First, in an attached
declaration, Lead Counsel persuasively describes
numerous factual and legal issues that presented
challenges to any ultimate finding of liability. See
Ross Decl. ¶¶49-60; see also June 13, 2016 Tr. at 6-8;
Mar. 31, 2015 Order (granting in part and denying in
part the Defendants’ motions to dismiss). Without
exhaustively detailing these factual and legal
challenges, the Court cites, by way of example, the
parties’ disagreement as to the significance of the
Government’s civil investigative demand (“CID”),
served on BioScrip in October 2012. See Mar. 31, 2015
Order at 6. As noted, Plaintiffs asserted in the
Complaint that a series of statements made by the
Defendants misled the public as to whether BioScrip
was under investigation for participating in an
alleged kickback scheme with Novartis, and as to
BioScrip’s internal beliefs as to its own legal
compliance. Much of Plaintiffs’ theory of the case
turned on the allegation that a CID the Government
served on BioScrip in October 2012 put BioScrip on
notice that it was or might become the target of a
Government investigation into the alleged kickback
scheme, and that its own conduct had not been in
compliance with relevant laws. See Mar. 31, 2015
Order at 14-29 (discussing this theory). As Lead
Counsel noted at the Fairness Hearing, BioScrip, in
turn, consistently maintained that the CID “was a
standard subpoena and that that investigative
demand did not in any way inform defendants that
they were themselves being investigated for any type
of kickback scheme.” June 13, 2016 Tr. at 6. Instead,
Defendants maintained that BioScrip did not believe
itself to be a target until it received that information
explicitly—only days before BioScrip alerted the

71a
public of the existence of the investigation. See
Memorandum of Law in Support [of] The Bioscrip
Defendants’ Motion to Dismiss the Consolidated
Amended Complaint at 3 (Dkt. No. 42) (“In October
2012, BioScrip received a [CID] - the equivalent of a
third-party subpoena .... [and] fully cooperated with
the government by producing documents and
testimony for nearly a year. It was only in September
2013 that the Department of Justice ... first notified
BioScrip that it was contemplating bringing antikickback claims against BioScrip itself, in addition to
Novartis.”). As the Court explained in denying
BioScrip’s motion to dismiss claims brought under
this factual theory, the Stipulation of Settlement
signed by BioScrip and the Government on January 8,
2014 stated that it was only on “September 11, 2013
[that] the United states (sic) first notified BioScrip
that the United States was contemplating civil claims
against BioScrip ....” Mar. 31, 2015 Order at 24
(internal quotation marks omitted). Because the date
of this notification was “after the last of BioScrip’s
statements identified by Plaintiffs as being
misleading,” the Court, although citing its obligation
to take as true all facts asserted in the Complaint on
a motion to dismiss, observed that the statement
“may cast doubt on whether the statements or
omissions were truly misleading in light of the fact
that BioScrip had not yet been told that the United
States was contemplating civil changes.” Id.
(emphasis omitted). Going further, the Court noted
that “[t]he meaning and import of this statement may
very well seriously undermine Plaintiffs’ plausible
allegations about the information conveyed by the
CID.” Id.
Additionally, to persist with the same example,
BioScrip’s statements as to its own beliefs about its

72a
legal compliance, as opinion statements, were initially
governed by the standard articulated by the Second
Circuit in Fait v. Regions Fin. Corp., 655 F.3d 105,
110 (2d Cir. 2011) (holding that an opinion statement
is actionable as securities fraud “to the extent that
the statement was both objectively false and
disbelieved by the defendant at the time it was
expressed”); see also Mar. 31, 2015 Order at 18-19.
During the pendency of this litigation, the Supreme
Court arguably altered the standard for liability on
such statements in a way that made it somewhat
easier for Plaintiffs to establish liability. See Mar. 31,
2015 Order at 20 (“To the extent Fait has been
construed to mean that there is liability for legal
compliance opinions only in the context of statements
subjectively disbelieved when made, but not in
instances where a speaker’s statement, although
sincerely believed, failed to make clear the factual
basis for that statement, Omnicare may call that
interpretation into question.”). Yet, at the time the
first complaint in this case was filed (as well as at the
time the Consolidated Class Action Complaint was
filed by Lead Counsel), Omnicare was not yet the
law—and the risks associated with the Fait standard
instead governed. See Goldberger, 209 F.3d at 55 (“It
is well-established that litigation risk must be
measured as of when the case is filed.”). In sum, then,
as to the claims arising out of BioScrip’s statements
concerning its legal compliance, Lead Counsel faced a
key factual hurdle—the challenge of building a case
on the CID—as well as a significant (if interrelated)
legal one.
The Objector argues that Lead Counsel’s
arguments as to the factual and legal risks in the case
(including, but not limited to, the examples cited
above), amount to the argument that “Lead Counsel

73a
should be specially rewarded for pleading claims that
may not be meritorious.” Obj. Mem. at 18. Such a
statement misconstrues the nature of the Court’s
inquiry. It is true that, in measuring the risks
associated with litigation, the Court would not
enhance a lodestar on the basis that Lead Counsel
pursued frivolous claims. But the risk analysis asks
something else: whether certain claims and cases,
although potentially meritorious, might face factual
and legal hurdles that create a material risk that the
case may fail. It is surely in the interest of public
policy that such claims—which indeed may be
meritorious, measured at the outset, even if they are
not ultimately successful—are brought—and the risk
analysis is designed to compensate Lead Counsel for
accepting such representation. Indeed, case-law
clearly establishes that such risk is a relevant factor
in the Court’s analysis. See, e.g., McDaniel, 595 F.3d
at 424 (2d Cir. 2010) (noting that a district court’s
determination that a case was “an ordinary civil
rights case in which liability appear[ed] reasonably
certain” was not clearly erroneous); Goldberger, 209
F.3d at 53 (finding that a district court did not abuse
its discretion in concluding that “from counsel’s
perspective, this was a ‘promising’ case, with almost
certain prospects of a large recovery from solvent
defendants”).
The Objector also argues that certain risks in the
case pertaining to challenges proving scienter and
loss causation should not be factored into the Court’s
analysis, as neither scienter nor loss causation are
elements of the Securities Act claims brought by
claimants such as the Trust. Obj. Mem. at 19. The
Objector cites no case-law suggesting that the Court
should, or must, assess risk on a claim by claim basis
in the context of awarding a fee from a fund created

74a
after collective settlement of a number of securities
claims. In any case, however, many of the material
risks in this case, including those associated with the
CID, extended to all of the claims: The Court noted in
its March 31, 2015 order, in addressing the element of
scienter under the Exchange Act claims relating to
BioScrip’s statements of legal compliance, that the
“question of scienter largely turn[ed]” on the same
issues relevant to whether the opinion statements
were misleading. Mar. 31, 2015 Order at 26. The
Court further noted, in analyzing the Securities Act
claims, that “[t]he test for whether a statement is
materially misleading under §12(a)(2) is identical to
that under §10(b) and §11: whether representations,
viewed as a whole, would have misled a reasonable
investor.” Id. at 44 (quoting Rombach v. Chang, 355
F.3d 164, 178 (2d Cir. 2004)). In other words, the
challenges associated with proving the legal
compliance statements were misleading apply to both
Securities Act and Exchange Act claims—and the
Court sees no reason to hold that the former claims
were subject to a materially lesser degree of risk.
In addition to litigation risk, this case also
presented recovery risk and contingency risk. As to
recovery risk, evidence in the case—including from
the January 2014 settlement agreement between
BioScrip and the Government—raised doubts as to
whether BioScrip would be able to withstand a large
financial judgment. See Ross Decl., Ex. 2, at 2 (noting
that, “in connection with its discussions with the
United States, BioScrip has submitted records and
information regarding its financial circumstances,
and has demonstrated to the United States that
BioScrip lacks the financial wherewithal to pay
certain damages and penalties sought by the United
States in connection with its claims against

75a
BioScrip”); see also Ross Decl. ¶¶61-65 (describing in
detail shortcomings in the Defendants’ ability to pay
the full value of a judgment against them). As to
contingency risk, Lead Counsel in this case worked
for two years without compensation on a contingency
fee basis, and in that time billed almost 4,000 hours
without a guarantee of recovery. See June 13, 2016
Tr. at 14. As courts have noted, this arrangement
weighs in favor of a large award here. In re Glob.
Crossing Sec., 225 F.R.D. at 467 (“Securities Lead
Counsel pursued this case intensely for over two
years on an entirely contingent basis. The contingent
nature of Securities Lead Counsel’s representation is
a key factor in determining a reasonable award of
attorneys’ fees.”).
Finally, the Court makes two additional points
about the risk in this case. First, the Court concludes
that the risks associated with this litigation did not
simply emerge when the Defendants filed their
motions to dismiss: they were predictable from the
outset. Thus, Lead Counsel would reasonably have
been aware, in accepting this representation, that it
could be involved in protracted motion practice for
years prior to receiving any fee. Second, the Court
notes that it is aware that the Second Circuit has, in
the past, expressed some doubt that securities class
actions are, on the whole, risky. See Goldberger, 209
F.3d at 52 (relying on a pre-PSLRA article for the
proposition that such risk rarely exists (citing Janet
Cooper Alexander, Do the Merits Matter? A Study of
Settlements in Securities Class Actions, 43 Stan. L.
Rev. 497, 578 (1991)). Regardless of whether or not
such litigation is, as a general matter, risky, the
Court concludes that the risks in this case weigh in
favor of approving the award.

76a
4. The Quality of the Representation, The
Requested Fee in Relation to the
Settlement,
and
Public
Policy
Considerations
The remaining Goldberger factors similarly weigh
in favor of approving the award. As to quality of
representation, the Court finds that Lead Counsel’s
work was consistently of a high quality—in its motion
practice, in its appearances before the Court, and in
attaining a fair and reasonable settlement. This
finding is further buttressed by two relevant factors.
First, opposing counsel in this case was itself highly
skilled, a factor courts have considered in approving
fees. See In re Veeco Instruments Inc. Sec. Litig., No.
05 MDL 01695(CM), 2007 WL 4115808, at *7
(S.D.N.Y. Nov. 7, 2007) (“Defendants were
represented by a well-staffed team of lawyers from
the New York office of Gibson, Dunn & Crutcher,
LLP, one of the country’s largest law firms, who
tenaciously challenged Plaintiffs at every stage of the
litigation up until the eve of trial. That Plaintiffs’
Counsel was able to obtain a substantial settlement
from these Defendants confirms the quality of
Plaintiffs’ Counsel’s representation in this matter,
and is a factor in determining the reasonableness of
the fee request.”); accord In re Adelphia Commc’ns
Corp. Sec. & Derivative Litig., No. 03 MDL 1529
(LMM), 2006 WL 3378705, at *3 (S.D.N.Y. Nov. 16,
2006), aff’d, 272 F. App’x 9 (2d Cir. 2008) (summary
order); In re Glob. Crossing Sec., 225 F.R.D. at 467.
Second, Lead Plaintiff, a governmental definedbenefit pension plan that “manages billions of dollars
of assets on behalf of its members,” Kendig Decl. ¶3
(Ross Decl., Ex. 4), approved the fee request, and
Donald Kendig, the Retirement Administrator for
Lead Plaintiff, represents that he reviewed “the work

77a
performed [by Lead Counsel], the recovery obtained
for the Settlement Class, and the risks of the Action”
in reaching that determination, id. ¶7. The Second
Circuit has indicated that this factor may be weighed
by a court in determining the reasonableness of the
requested fee. See In re Nortel Networks Corp. Sec.
Litig., 539 F.3d 129, 133 (2d Cir. 2008) (“We expect ...
that district courts will give serious consideration to
negotiated fees because PSLRA lead plaintiffs often
have a significant financial stake in the settlement”).
As to the size of the requested fee in relation to the
settlement, the Court finds that, in relation to the
settlement, 25% is a reasonable fee. As already noted,
25%—although perhaps on the higher end of
percentages awarded in all common fund cases—is
reasonable in a case with around a $10,000,000
settlement. See Hicks, 2005 WL 2757792, at *9. The
Court is of course aware that the Second Circuit has
rejected any contention that 25% of a fund serve as a
“benchmark” for a common fund award. Goldberger,
209 F.3d at 51. The Court finds, on the facts of this
case, 25% to be reasonable.
Finally, the Court finds that public policy favors
the award. Courts have, as a generic matter,
frequently observed that “the public policy of
vigorously enforcing the federal securities laws must
be considered” in calculating an award. Maley, 186 F.
Supp. 2d at 373. Specifically in this case, however, the
Court finds that it is important to incentivize counsel
to accept representations that, as a result of complex
factual and legal issues, are less likely to settle
immediately—and may instead present complex
challenges and extensive motion practice. Further,
the Court observes that there are substantial public
policy reasons to endorse the percentage-of-the-fund
method in this case—reasons that contradict the

78a
Objector’s suggestion that an award above the
lodestar need create problematic incentives. See supra
[pp numbers]*.
In short, comparing the requested fee to
comparable awards in other cases, comparing the
lodestar multiplier to comparable multipliers in such
cases, and evaluating the Goldberger factors, the
Court concludes that the request is reasonable.
d. The Objector’s Remaining Contentions
In addition to those arguments addressed above,
the Objector makes two primary contentions as to
why the Court, even applying common fund
principles, should limit Lead Counsel’s fee to the
lodestar. Neither argument alters the Court’s
conclusion.
First, the Objector argues that Lead Counsel
should receive only the lodestar because Lead
Counsel benefitted from the work of the law firm that
filed the first complaint in this case, Pomerantz
Grossman Hufford Dahlstrom & Gross LLP. See Dkt.
No. 1. While the Second Circuit has held, in the past,
that a district court did not abuse its discretion in
reducing a fee on the basis of advance spadework that
assisted counsel in their suit, no such reduction is
warranted here for several reasons. McDaniel, 595
F.3d at 423. First, the complaint in question was filed
on September 30, 2013—seven days after the
purported truthful disclosure of the Government’s
investigation of the kickback scheme—and is a mere
18 pages long. See Dkt. No. 1. The complaint leaves
out numerous facts later uncovered by Lead Counsel.
See Pl. Reply at 11 (listing numerous facts and claims
*

[sic: so in the original]

79a
left out of the complaint that later appeared in the
complaint filed by Saxena White, and in the
Consolidated Class Action Complaint). Although it is
arguable that the complaint assisted both Saxena
White, and Lead Counsel in their later efforts, there
is simply no argument that this assistance was
sufficiently material to affect this Court’s evaluation
of the reasonableness of the fee award. Additionally,
even were the Court to conclude that this initial
complaint were materially useful to Lead Counsel,
the Court would still award the requested fee: the
existence of the complaint in no way alters the fact
that Lead Counsel conducted an extensive
investigation, crafted the Consolidated Class Action
Complaint, engaged in extensive briefing, and
negotiated the settlement.
The Objector also argues that the Court should
limit the award to the lodestar as Lead Counsel’s high
hourly rates already incorporate contingency risk. See
Obj. Mem. at 14-21. The Court finds this argument
unpersuasive for three reasons. First, the Objector
largely (although not entirely) cites to rules
articulated in the fee-shifting context for the
proposition that “an enhancement may not be
awarded based on a factor that is subsumed in the
lodestar calculation.” Obj. Mem. at 15 (citing Perdue,
559 U.S. at 553; Dague, 505 U.S. at 562-63). As noted,
Perdue and Dague apply in the fee-shifting context
and hold that factors like the complexity of a case and
the quality of a counsel’s performance may not be
used to an enhance a lodestar. See Perdue, 559 U.S. at
553; Dague, 505 U.S. at 562-63. In the common fund
context, such factors may result in an enhancement.
Second, Lead Counsel’s rates do not appear to
clearly reflect contingency risk. BLB&G charges a
partner rate of between $700 and $975 and an

80a
associate rate of between $450 and $550, and Saxena
White charges a partner rate of $750 and associate
rate of between $345 and $385 dollars. See Ross Decl.,
Ex. 5. Lead Counsel points out that other firms
charge rates for contingent and non-contingent
matters that equal or exceed these numbers. See, e.g.,
In re Credit Default Swaps Antitrust Litig., No.
13MD2476 (DLC), 2016 WL 2731524, at* 17
(S.D.N.Y. Apr. 26, 2016) (granting a fee award
amounting to a lodestar multiplier of six, in a case
where a successful, international law firm cited
partner rates of $834 to $1,125 and associate rates of
$411 to $714, see Dkt. No. 120, Ex. 2); see also Pl.
Reply at 13-14 (collecting cases and examples). In any
case, even were the Court to conclude that the rates
reflected contingency risk—or that the rates were, for
other reasons, higher than reasonable—the effect
would simply be to render the lodestar multiplier of
1.39 artificially low. Even were the true multiplier
higher (say, 2.5), it would still be well within the
reasonable range of similar awards, and the Court
would still approve the fee request.
In short, the Court finds that the requested
attorney’s fee award is reasonable, and that the
Objector’s counter-arguments to that determination
are unconvincing.
IV. Conclusion
In conclusion, the Court grants Lead Counsel’s
requested attorney’s fee. The Court also grants Lead
Counsel’s request for litigation expenses and costs
and expenses incurred by the Court-appointed
Plaintiff.
SO ORDERED.

81a
Dated: July 26, 2017
New York, New York
/s/_____________________
ALISON J. NATHAN
United States District Judge

82a
APPENDIX D
Opinion of the District Court Approving ClassAction Settlement
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
____________________________

|
In re BioScrip, Inc. Securities | Civil Action No.
Litigation
| 13-cv-6922-AJN
____________________________|
JUDGMENT APPROVING CLASS ACTION
SETTLEMENT
WHEREAS, a consolidated class action is pending
in this Court entitled In re BioScrip, Inc. Securities
Litigation, No. l 3-cv-6922 (AJN) (the "Action");
WHEREAS, (a) Lead Plaintiff Fresno County
Employees' Retirement Association, on behalf of itself
and the Settlement Class (defined below), and (b)
defendants BioScrip, Inc. ("BioScrip"), Richard M.
Smith, Hai V. Tran, Patricia Bogusz, Myron Z.
Holubiak, Charlotte W. Collins, Samuel P. Frieder,
David R. Hubers, Richard L. Robbins, Stuart A.
Samuels, Gordon H. Woodward, and Kimberlee Seah
(the "Individual Defendants"); Jefferies LLC, Morgan
Stanley & Co. LLC, SunTrust Robinson Humphrey,
Inc., Dougherty & Company, and Noble International
Investments, Inc. (the "Underwriter Defendants") and
Kohlberg & Co., LLC ("Kohlberg" and, together with
BioScrip, the Individual Defendants and the

83a
Underwriter Defendants, the "Defendants," and,
together with Lead Plaintiff, the "Parties") have
entered into a Stipulation and Agreement of
Settlement dated December 18, 2015 (the
“Stipulation”), that provides for a complete dismissal
with prejudice of the claims asserted against
Defendants in the Action on the terms and conditions
set forth in the Stipulation, subject to the approval of
this Court (the “Settlement”);
WHEREAS, unless otherwise defined in this
Judgment, the capitalized terms herein shall have the
same meaning as they have in the Stipulation;
WHEREAS, by Order dated February 11, 2016 (the
"Preliminary Approval Order"), this Court: (a)
preliminarily
approved
the
Settlement;
(b)
preliminarily certified the Settlement Class solely for
purposes of effectuating the Settlement; (c) ordered
that notice of the proposed Settlement be provided to
potential Settlement Class Members; (d) provided
Settlement Class Members with the opportunity
either to exclude themselves from the Settlement
Class or to object to the proposed Settlement; and (e)
scheduled a hearing regarding final approval of the
Settlement;
WHEREAS, due and adequate notice has been
given to the Settlement Class;
WHEREAS, the Court conducted a hearing on June
13, 2016 (the “Settlement Hearing”) to consider,
among other things, (a) whether the terms and
conditions of the Settlement are fair, reasonable and
adequate to the Settlement Class, and should
therefore be approved; and (b) whether a judgment
should be entered dismissing the Action with
prejudice as. against the Defendants; and

84a
WHEREAS, the Court having reviewed and
considered the Stipulation, all papers filed and
proceedings held herein in connection with the
Settlement, all oral and written comments received
regarding the Settlement, and the record in the
Action, and good cause appearing therefor;
T IS HEREBY ORDERED, ADJUDGED AND
DECREED:
1. Jurisdiction – The Court has jurisdiction over
the subject matter of the Action, and all matters
relating to the Settlement, as well as personal
jurisdiction over all of the Parties and each of the
Settlement Class Members.
2. Incorporation of Settlement Documents –
This Judgment incorporates and makes a part hereof:
(a) the Stipulation filed with the Court on December
18, 2015; and (b) the Notice and the Summary Notice,
both of which were filed with the Court on May 9,
2016.
3. Class Certification for Settlement Purposes
– The Court hereby affirms its determinations in the
Preliminary Approval Order and finds, for purposes of
the Settlement Only, that the prerequisites for a class
action under Rules 23(a) and (b)(3) of the Federal
Rules of Civil Procedure have been satisfied in that:
(a) the members of the Settlement Class are so
numerous that their joinder in the Action would be
impracticable; (b) there are questions of law and fact
common to the Settlement Class; (c) the claims of
Plaintiffs in the Action are typical of the claims of the
Settlement Class they seek to represent; (d) Plaintiffs
and Lead Counsel have and will fairly and adequately
represent and protect the interests of the Settlement
Class; (e) the questions of law and fact common to the
members of the Settlement Class predominate over

85a
any questions affecting only individual members of
the Settlement Class; and (f) a class action is superior
to other available methods for the fair and efficient
adjudication of the Action.
4. Accordingly, for the purposes of the Settlement
only, the Court hereby finally certifies the Action as a
class action pursuant to Rules 23(a) and (b)(3) of the
Federal Rules of Civil Procedure on behalf of the
Settlement Class consisting of all persons and entities
who purchased BioScrip common stock during the
period from November 9, 2012 through November 6,
2013, inclusive (the “Settlement Class Period”), and
were damaged thereby. Excluded from the Settlement
Class are: (i) Defendants; (ii) members of the
immediate families of the Individual Defendants; (iii)
the subsidiaries of BioScrip, the Underwriter
Defendants, and Kohlberg; (iv) any persons who
served as partners, control persons, officers, and/or
directors of BioScrip, the Underwriter Defendants, or
Kohlberg during the Settlement Class Period and/or
at any other relevant time; (v) any firm, trust,
corporation, or other entity in which any Defendant
has or had a controlling interest; (vi) Defendants'
liability insurance carriers; and (vii) the legal
representatives, heirs, successors, and assigns of any
such excluded party. Also excluded from the
Settlement Class is the person listed on Exhibit 1
hereto who is excluded from the Settlement Class
pursuant to his request for exclusion that is valid and
timely in accordance with the Preliminary Approval
Order and is hereby accepted by the Court.
5. Appointment of Class Representatives and
Class Counsel – Pursuant to Rule 23 of the Federal
Rules of Civil Procedure, and for the purposes of the
Settlement only, the Court hereby certifies Plaintiffs
as Class Representatives for the Settlement Class

86a
and appoints Lead Counsel as Class Counsel for the
Settlement Class. Plaintiffs and Lead Counsel have
fairly and adequately represented the Settlement
Class both in terms of litigating the Action and for
purposes of entering into and implementing the
Settlement and have satisfied the requirements of
Federal Rules of Civil Procedure 23(a)(4) and 23(g),
respectively.
6. Notice – The Court finds that the dissemination
of the Notice and the publication of the Summary
Notice: (a) were implemented in accordance with the
Preliminary Approval Order; (b) constituted the best
notice practicable under the circumstances; (c)
constituted notice that was reasonably calculated,
under the circumstances, to apprise Settlement Class
Members of (i) the pendency of the Action; (ii) the
effect of the proposed Settlement (including the
Releases to be provided thereunder); (iii) Lead
Counsel's motion for an award an attorneys’ fees and
reimbursement of Litigation Expenses; (iv) their right
to object to any aspect of the Settlement, the Plan of
Allocation and/or Lead Counsel's motion for attorneys'
fees and reimbursement of Litigation Expenses; (v)
their right to exclude themselves from the Settlement
Class; and (vi) their right to appear at the Settlement
Hearing; (d) constituted due, adequate, and sufficient
notice to all persons and entities entitled to receive
notice of the proposed Settlement; and (e) satisfied
the requirements of Rule 23 of the Federal Rules of
Civil Procedure, the United States Constitution
(including the Due Process Clause), the Private
Securities Litigation Reform Act of 1995, 15 U.S.C.
§§77z-l (a)(7), 78u-4(a)(7), and all other applicable law
and rules. A full opportunity has been offered to the
Settlement Class Members to object to the proposed
Settlement and to participate in the hearing thereon.

87a
7. Final Settlement Approval and Dismissal of
Claims – Pursuant to, and in accordance with, Rule
23 of the Federal Rules of Civil Procedure, this Court
hereby fully and finally approves the Settlement set
forth in the Stipulation in all respects (including,
without limitation: the amount of the Settlement; the
Releases provided for therein; and the dismissal with
prejudice of the claims asserted against Defendants in
the Action), and finds that the Settlement is, in all
respects, fair, reasonable and adequate to the
Settlement Class. The Parties are directed to
implement, perform and consummate the Settlement
in accordance with the terms and provisions
contained in the Stipulation.
8. The Action and all of the claims asserted against
Defendants in the Action by Lead Plaintiff and the
other Settlement Class Members are hereby
dismissed with prejudice. The Parties shall bear their
own costs and expenses, except as otherwise expressly
provided in the Stipulation.
9. Binding Effect – The terms of the Stipulation
and of this Judgment shall be forever binding on
Defendants, Lead Plaintiff and all other Settlement
Class Members (regardless of whether or not any
individual Settlement Class Member submits a Claim
Form or seeks or obtains a distribution from the Net
Settlement Fund), as well as their respective
successors and assigns. The person listed on Exhibit 1
hereto is not bound by the terms of the Stipulation or
this Judgment because he is excluded from the
Settlement Class pursuant to his request for
exclusion.
10. Releases – The Releases set forth in
paragraphs 5 and 6 of the Stipulation, together with
the definitions contained in paragraph I of the

88a
Stipulation
relating
thereto,
are
expressly
incorporated herein in all respects. The Releases are
effective as of the Effective Date. Accordingly, this
Court orders that:
(a) Without further action by anyone, and subject
to paragraph 11 below, upon the Effective Date of the
Settlement, Lead Plaintiff and each of the other
Settlement Class Members, on behalf of themselves,
and their respective current and future heirs,
executors, administrators, predecessors, successors,
attorneys, insurers, agents and assigns, in their
capacities as such, shall be deemed to have, and by
operation of law and of this Judgment shall have,
fully, finally and forever compromised, settled,
released, resolved, relinquished, waived and
discharged each and every Released Plaintiffs' Claim
against the Released Defendant Persons, and shall
forever be barred and enjoined from commencing any
action with respect to, instituting any action with
respect to, or prosecuting any or all of the Released
Plaintiffs' Claims against any of the Released
Defendant Persons.
(b) Without further action by anyone, and subject
to paragraph 11 below, upon the Effective Date of the
Settlement, Defendants, on behalf of themselves, and
their respective current and future heirs, executors,
administrators, predecessors, successors, attorneys,
insurers, agents and assigns, in their capacities as
such, shall be deemed to have, and by operation of
law and of this Judgment shall have, fully, finally and
forever compromised, settled, released, resolved,
relinquished, waived and discharged each and every
Released Defendants' Claim against Lead Plaintiff
and the other Released Plaintiff Persons, and shall
forever be barred and enjoined from commencing any
action with respect to, instituting any action with

89a
respect to, or prosecuting any or all of the Released
Defendants' Claims against any of the Released
Plaintiff Persons. This Release shall not apply to the
person listed on Exhibit 1 hereto because he is
excluded from the Settlement Class pursuant to his
request for exclusion.
11. Notwithstanding paragraphs 1O(a) - (b) above,
nothing in this Judgment shall bar any action by any
of the Parties to enforce or effectuate the terms of the
Stipulation or this Judgment.
12. Rule 11 Findings – The Court finds and
concludes that the Parties and their respective
counsel have complied in all respects with the
requirements of Rule 11 of the Federal Rules of Civil
Procedure in connection with ______________________
________________________ [any complaint, responsive
pleading, or dispositive motion, as specified in the
Private Securities Litigation Reform Act, 15 U.S.C §
78u-4(c)(1 ). AJN]
13. No Admissions – To the extent permitted by
Federal Rule of Evidence 408, neither this Judgment,
the Stipulation (whether or not consummated),
including the exhibits thereto and the Plan of
Allocation contained therein (or any other plan of
allocation that may be approved by the Court), the
negotiations leading to the execution of the
Stipulation, nor any proceedings taken pursuant to or
in connection with the Stipulation and/or approval of
the Settlement (including any arguments proffered in
connection therewith):
(a) shall be offered against any of the Released
Defendant Persons as evidence of, or construed as, or
deemed to be evidence of any presumption,
concession, or admission by any of the Released
Defendant Persons with respect to the truth of any

90a
fact alleged by Lead Plaintiff or the validity of any
claim that was or could have been asserted or the
deficiency of any defense that has been or could have
been asserted in this Action or in any other litigation,
or of any liability, negligence, fault, or other
wrongdoing of any kind of any of the Released
Defendant Persons or in any way referred to for any
other reason as against any of the Released
Defendant Persons, in any civil, criminal or
administrative action or proceeding, other than such
proceedings as may be necessary to effectuate the
provisions of the Stipulation; provided, however, that
Released Defendant Persons may file the Stipulation
and/or this Judgment in any action that may be
brought against them in order to support a defense or
counterclaim based on principles of res judicata,
collateral estoppel, release, good faith settlement,
judgment bar or reduction or any other theory of
claim preclusion or issue preclusion or similar defense
or counterclaim;
(b) shall be offered against any of the Released
Plaintiff Persons, as evidence of, or construed as, or
deemed to be evidence of any presumption, concession
or admission by any of the Released Plaintiff Persons
that any of their claims are without merit, that any of
the Released Defendant Persons had meritorious
defenses, or that damages recoverable under the
Complaint would not have exceeded the Settlement
Amount or with respect to any liability, negligence,
fault or wrongdoing of any kind, or in any way
referred to for any other reason as against any of the
Released Plaintiff Persons, in any civil, criminal or
administrative action or proceeding, other than such
proceedings as may be necessary to effectuate the
provisions of the Stipulation; or

91a
(c) shall be construed against any of the Releasees
as an admission, concession, or presumption that the
consideration to be given under the Settlement
represents the amount which could be or would have
been recovered after trial; provided, however, that the
Parties and the Releasees and their respective
counsel may refer to this Judgment and the
Stipulation to effectuate the protections from liability
granted hereunder and thereunder or otherwise to
enforce the terms of the Settlement.
14. Retention of Jurisdiction – Without
affecting the finality of this Judgment in any way,
this Court retains continuing and exclusive
jurisdiction over: (a) the Parties for purposes of the
administration, interpretation, implementation and
enforcement of the Settlement; (b) the disposition of
the Settlement Fund; (c) any motion for an award of
attorneys' fees and/or Litigation Expenses by Lead
Counsel in the Action that will be paid from the
Settlement Fund; (d) any motion to approve the Plan
of Allocation; (e) any motion to approve the Class
Distribution Order; and (f) the Settlement Class
Members for all matters relating to the Action.
15. Separate orders shall be entered regarding
approval of a plan of allocation and the motion of
Lead Counsel for an award of attorneys' fees and
reimbursement of Litigation Expenses. Such orders
shall in no way affect or delay the finality of this
Judgment and shall not affect or delay the Effective
Date of the Settlement.
16. Modification of the Agreement of
Settlement – Without further approval from the
Court, Lead Plaintiff and Defendants are hereby
authorized to jointly agree to and adopt such
amendments or modifications of the Stipulation or

92a
any exhibits attached thereto to effectuate the
Settlement that: (a) are not materially inconsistent
with this Judgment; and (b) do not materially limit
the rights of the Settlement Class Members in
connection with the Settlement. Without further
order of the Court, Lead Plaintiff and Defendants
may agree to reasonable extensions of time to carry
out any provisions of the Settlement.
17. Termination of Settlement – If the
Settlement is terminated as provided in the
Stipulation or the Effective Date of the Settlement
otherwise fails to occur, this Judgment shall be
vacated, rendered null and void and be of no further
force and effect, except as otherwise provided by the
Stipulation, and this Judgment shall be without
prejudice to the rights of Lead Plaintiff, the other
Settlement Class Members and Defendants, and the
Parties shall be deemed to have reverted to their
respective positions in the Action as of October 30,
2015, preserving in that event all of their respective
claims and defenses in the Action.
18. Entry of Final Judgment – There is no just
reason to delay the entry of this Judgment as a final
judgment in this Action. Accordingly, the Clerk of the
Court is expressly directed to immediately enter this
"l judgment in this Action.
SO ORDERED this 16th day of June, 2016.
/s/____________________________
The Honorable Alison J. Nathan
United States District Judge

93a
APPENDIX E
STATUTES AND RULES INVOLVED
Federal Rule of Civil Procedure 23(h)
Federal Rule of Civil Procedure 23(h) provides:
(h) Attorney's Fees and Nontaxable Costs. In a
certified class action, the court may award
reasonable attorney's fees and nontaxable costs
that are authorized by law or by the parties’
agreement. The following procedures apply:
(1) A claim for an award must be made by
motion under Rule 54(d)(2), subject to the
provisions of this subdivision (h), at a time
the court sets. Notice of the motion must be
served on all parties and, for motions by
class counsel, directed to class members in a
reasonable manner.
(2) A class member, or a party from whom
payment is sought, may object to the motion.
(3) The court may hold a hearing and
must find the facts and state its legal
conclusions under Rule 52(a).
(4) The court may refer issues related to
the amount of the award to a special master
or a magistrate judge, as provided in Rule
54(d)(2)(D).
Fed.R.Civ.P. 23(h).

94a
Securities Act of 1933 §11(e),
15 U.S.C. §77k(e)
Securities Act of 1933 §11(e), 15 U.S.C. §77k(e)
provides:
(e) Measure of damages; undertaking for
payment of costs
The suit authorized under subsection (a) may
be to recover such damages as shall represent
the difference between the amount paid for the
security (not exceeding the price at which the
security was offered to the public) and (1) the
value thereof as of the time such suit was
brought, or (2) the price at which such security
shall have been disposed of in the market before
suit, or (3) the price at which such security shall
have been disposed of after suit but before
judgment if such damages shall be less than the
damages representing the difference between the
amount paid for the security (not exceeding the
price at which the security was offered to the
public) and the value thereof as of the time such
suit was brought: Provided, That if the defendant
proves that any portion or all of such damages
represents other than the depreciation in value
of such security resulting from such part of the
registration statement, with respect to which his
liability is asserted, not being true or omitting to
state a material fact required to be stated therein
or necessary to make the statements therein not
misleading, such portion of or all such damages
shall not be recoverable. In no event shall any
underwriter (unless such underwriter shall have
knowingly received from the issuer for acting as
an underwriter some benefit, directly or
indirectly, in which all other underwriters

95a
similarly situated did not share in proportion to
their respective interests in the underwriting) be
liable in any suit or as a consequence of suits
authorized under subsection (a) for damages in
excess of the total price at which the securities
underwritten by him and distributed to the
public were offered to the public. In any suit
under this or any other section of this subchapter
the court may, in its discretion, require an
undertaking for the payment of the costs of such
suit, including reasonable attorney’s fees, and if
judgment shall be rendered against a party
litigant, upon the motion of the other party
litigant, such costs may be assessed in favor of
such party litigant (whether or not such
undertaking has been required) if the court
believes the suit or the defense to have been
without merit, in an amount sufficient to
reimburse him for the reasonable expenses
incurred by him, in connection with such suit,
such costs to be taxed in the manner usually
provided for taxing of costs in the court in which
the suit was heard.
15 U.S.C. §77k(e).
Securities Act of 1933 §27(c),
15 U.S.C. §77z-1(c)
Securities Act of 1933 §27(c), 15 U.S.C. §77z-1(c),
provides:
(c) Sanctions for abusive litigation
(1) Mandatory review by court
In any private action arising under this
subchapter, upon final adjudication of the action,

96a
the court shall include in the record specific
findings regarding compliance by each party and
each attorney representing any party with each
requirement of Rule 11(b) of the Federal Rules of
Civil Procedure as to any complaint, responsive
pleading, or dispositive motion.
(2) Mandatory sanctions
If the court makes a finding under paragraph
(1) that a party or attorney violated any
requirement of Rule 11(b) of the Federal Rules of
Civil Procedure as to any complaint, responsive
pleading, or dispositive motion, the court shall
impose sanctions on such party or attorney in
accordance with Rule 11 of the Federal Rules of
Civil Procedure. Prior to making a finding that
any party or attorney has violated Rule 11 of the
Federal Rules of Civil Procedure, the court shall
give such party or attorney notice and an
opportunity to respond.
(3) Presumption in favor of attorneys’
fees and costs
(A) In general Subject to subparagraphs
(B) and (C), for purposes of paragraph (2),
the court shall adopt a presumption that the
appropriate sanction—
(i) for failure of any responsive
pleading or dispositive motion to
comply with any requirement of
Rule 11(b) of the Federal Rules of
Civil Procedure is an award to the
opposing party of the reasonable
attorneys’ fees and other expenses
incurred as a direct result of the
violation; and

97a
(ii) for substantial failure of any
complaint to comply with any
requirement of Rule 11(b) of the
Federal Rules of Civil Procedure is
an award to the opposing party of
the reasonable attorneys’ fees and
other expenses incurred in the
action.
(B) Rebuttal evidence The presumption
described in subparagraph (A) may be
rebutted only upon proof by the party or
attorney against whom sanctions are to be
imposed that—
(i) the award of attorneys’ fees
and other expenses will impose an
unreasonable burden on that party
or attorney and would be unjust,
and the failure to make such an
award would not impose a greater
burden on the party in whose favor
sanctions are to be imposed; or
(ii) the violation of Rule 11(b) of
the Federal Rules of Civil
Procedure was de minimis.
(C) Sanctions
If the party or attorney against whom
sanctions are to be imposed meets its burden
under subparagraph (B), the court shall
award the sanctions that the court deems
appropriate pursuant to Rule 11 of the
Federal Rules of Civil Procedure.
15 U.S.C. §77z-1(c).

98a
Securities Exchange Act of 1934 §9(f),
15 U.S.C. §78i(f)
Originally designated as §9(e), the provision
currently designated Securities Exchange Act 9(f), 15
U.S.C. §78i(f), provides:
(f) Persons liable; suits at law or in equity
Any person who willfully participates in any
act or transaction in violation of subsections (a),
(b), or (c) of this section, shall be liable to any
person who shall purchase or sell any security at
a price which was affected by such act or
transaction, and the person so injured may sue in
law or in equity in any court of competent
jurisdiction to recover the damages sustained as
a result of any such act or transaction. In any
such suit the court may, in its discretion, require
an undertaking for the payment of the costs of
such suit, and assess reasonable costs, including
reasonable attorneys’ fees, against either party
litigant. Every person who becomes liable to
make any payment under this subsection may
recover contribution as in cases of contract from
any person who, if joined in the original suit,
would have been liable to make the same
payment. No action shall be maintained to
enforce any liability created under this section,
unless brought within one year after the
discovery of the facts constituting the violation
and within three years after such violation.
15 U.S.C. §78i(f).

99a
Securities Exchange Act of 1934 §10(b),
15 U.S.C. §78j(b)
Securities Exchange Act of 1934 §10(b), 15 U.S.C.
§78j(b), provides:
Manipulative and deceptive devices
It shall be unlawful for any person, directly or
indirectly, by the use of any means or
instrumentality of interstate commerce or of the
mails, or of any facility of any national securities
exchange— * * *
(b) To use or employ, in connection with
the purchase or sale of any security
registered on a national securities exchange
or any security not so registered, or any
securities-based swap agreement [1] any
manipulative or deceptive device or
contrivance in contravention of such rules
and regulations as the Commission may
prescribe as necessary or appropriate in the
public interest or for the protection of
investors.
15 U.S.C. §78j(b).
Securities Exchange Act of 1934 §18(a),
15 U.S.C. §78r
Section 18 of the Securities Exchange Act of 1934
provides:
(a) Persons liable; persons entitled to
recover; defense of good faith; suit at law or
in equity; costs, etc.

100a
Any person who shall make or cause to be
made any statement in any application, report,
or document filed pursuant to this chapter or any
rule or regulation thereunder or any undertaking
contained in a registration statement as provided
in subsection (d) of section 78o of this title, which
statement was at the time and in the light of the
circumstances under which it was made false or
misleading with respect to any material fact,
shall be liable to any person (not knowing that
such statement was false or misleading) who, in
reliance upon such statement, shall have
purchased or sold a security at a price which was
affected by such statement, for damages caused
by such reliance, unless the person sued shall
prove that he acted in good faith and had no
knowledge that such statement was false or
misleading. A person seeking to enforce such
liability may sue at law or in equity in any court
of competent jurisdiction. In any such suit the
court may, in its discretion, require an
undertaking for the payment of the costs of such
suit, and assess reasonable costs, including
reasonable attorneys’ fees, against either party
litigant.
(b) Contribution
Every person who becomes liable to make
payment under this section may recover
contribution as in cases of contract from any
person who, if joined in the original suit, would
have been liable to make the same payment.
(c) Period of limitations
No action shall be maintained to enforce any
liability created under this section unless
brought within one year after the discovery of the

101a
facts constituting the cause of action and within
three years after such cause of action accrued.
15 U.S.C. §78r.

Securities Exchange Act of 1934 §21D(a)(8),
15 U.S.C. §78u-4(a)(8)
Securities Exchange Act §21D(a)(8), 15 U.S.C.
§78u-4(a)(8), provides:
(8) Security for payment of costs in class
actions
In any private action arising under this
chapter that is certified as a class action
pursuant to the Federal Rules of Civil Procedure,
the court may require an undertaking from the
attorneys for the plaintiff class, the plaintiff
class, or both, or from the attorneys for the
defendant, the defendant, or both, in such
proportions and at such times as the court
determines are just and equitable, for the
payment of fees and expenses that may be
awarded under this subsection.
15 U.S.C. §78u-4(a)(8).

Securities Exchange Act of 1934 §21D(c),
15 U.S.C. §78u-4(c)
Securities Exchange Act §21D(c), 15 U.S.C. §78u4(c), provides:

102a
(c) Sanctions for abusive litigation
(1) Mandatory review by court
In any private action arising under this
chapter, upon final adjudication of the action, the
court shall include in the record specific findings
regarding compliance by each party and each
attorney representing any party with each
requirement of Rule 11(b) of the Federal Rules of
Civil Procedure as to any complaint, responsive
pleading, or dispositive motion.
(2) Mandatory sanctions
If the court makes a finding under paragraph
(1) that a party or attorney violated any
requirement of Rule 11(b) of the Federal Rules of
Civil Procedure as to any complaint, responsive
pleading, or dispositive motion, the court shall
impose sanctions on such party or attorney in
accordance with Rule 11 of the Federal Rules of
Civil Procedure. Prior to making a finding that
any party or attorney has violated Rule 11 of the
Federal Rules of Civil Procedure, the court shall
give such party or attorney notice and an
opportunity to respond.
(3) Presumption in favor of attorneys’
fees and costs
(A) In general Subject to subparagraphs
(B) and (C), for purposes of paragraph (2),
the court shall adopt a presumption that the
appropriate sanction—
(i) for failure of any responsive
pleading or dispositive motion to
comply with any requirement of
Rule 11(b) of the Federal Rules of

103a
Civil Procedure is an award to the
opposing party of the reasonable
attorneys’ fees and other expenses
incurred as a direct result of the
violation; and
(ii) for substantial failure of any
complaint to comply with any
requirement of Rule 11(b) of the
Federal Rules of Civil Procedure is
an award to the opposing party of
the reasonable attorneys’ fees and
other expenses incurred in the
action.
(B) Rebuttal evidence The presumption
described in subparagraph (A) may be
rebutted only upon proof by the party or
attorney against whom sanctions are to be
imposed that—
(i) the award of attorneys’ fees
and other expenses will impose an
unreasonable burden on that party
or attorney and would be unjust,
and the failure to make such an
award would not impose a greater
burden on the party in whose favor
sanctions are to be imposed; or
(ii) the violation of Rule 11(b) of
the Federal Rules of Civil
Procedure was de minimis.
(C) Sanctions
If the party or attorney against whom
sanctions are to be imposed meets its burden
under subparagraph (B), the court shall
award the sanctions that the court deems

104a
appropriate pursuant to Rule 11 of the
Federal Rules of Civil Procedure.
15 U.S.C. §78u-4(c).

